<html>
<title> - THE FUTURE OF U.S. HUMAN SPACEFLIGHT</title>
<body><pre>[Senate Hearing 111-984]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-984
 
                  THE FUTURE OF U.S. HUMAN SPACEFLIGHT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
66-487                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2010.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     5
Statement of Senator Nelson......................................     6
    Prepared statement...........................................     8
Prepared statement of Captain James A. Lovell, USN (Ret.), 
  Commander, Apollo 13, submitted by Hon. Bill Nelson............    71
Statement of Senator Vitter......................................     8
Statement of Senator LeMieux.....................................     9
Statement of Senator Brownback...................................    10
Statement of Senator Johanns.....................................    11
Statement of Senator Pryor.......................................    12
    Prepared statement...........................................    12
Statement of Senator Warner......................................    43

                               Witnesses

Hon. John P. Holdren, Ph.D., Director, Office of Science and 
  Technology Policy, Executive Office of the President of the 
  United States..................................................    12
    Prepared statement...........................................    14
Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration.......................................    17
    Prepared statement...........................................    19
Neil A. Armstrong, Retired Astronaut, Former Commander, Apollo 11    45
    Prepared statement...........................................    46
Captain Eugene A. Cernan, USN (Retired), Commander, Apollo 17, 
  Astronaut (Retired)............................................    49
    Prepared statement...........................................    52
Norman R. Augustine, Chairman, Review of U.S. Human Spaceflight 
  Plans Committee................................................    54
    Prepared statement...........................................    57

                                Appendix

Response to written questions submitted to Hon. Charles F. 
  Bolden, Jr. by:
    Hon. Kay Bailey Hutchison....................................    75
    Hon. Barbara Boxer...........................................    82
    Hon. Amy Klobuchar...........................................    82
    Hon. Mark Warner.............................................    83
Response to written question submitted to Norman R. Augustine by:
    Hon. Kay Bailey Hutchison....................................    91
    Hon. Amy Klobuchar...........................................    93


                  THE FUTURE OF U.S. HUMAN SPACEFLIGHT

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order.
    Our space program is clearly at a turning point. Earlier 
this year, the Obama Administration charted a new course. They 
had been working on it for a long time. And I know there is a 
lot of uncertainty and disagreement and all kinds of things 
about that, particularly when it comes to proposed plans for 
human spaceflight. This hearing is an important opportunity to 
take a close look at those plans and others.
    I have said before in this committee and I have addressed 
it directly with Administrator Bolden during his confirmation 
that I believe from my personal point of view that we need a 
new direction. To many, including myself, defenders of the 
status quo for NASA, be they many or be they few, seem to 
justify their views solely based on job impact. I do not think 
we can afford to do that. Jobs in West Virginia are subject 
number one, two, three, four, five, six, and seven, and always 
will be. This is a national and international program that we 
are talking about. I think we have to strike a balance between 
economic development, which means jobs, and modernizing our 
space program so we can remain competitive for years to come.
    NASA's first mission must be to do what is best for the 
Nation. The American people deserve the most from their space 
program. NASA's role cannot stay static. The President has 
challenged the U.S. Government to seek greater international 
collaboration, enable commercial services, and develop new 
exploration technologies, and on top of that, I would include 
vastly expand research. You are doing something up there right 
now, including medical research on MRSA, which kills thousands 
and thousands of people every year in this country, broad 
research, technical research, engineering research, all kinds 
of research. There is no better place to do it. And I think we 
have to develop new exploration technologies.
    So these are good priorities and they should help ensure 
that in tough fiscal times, we build our space future in a 
measured, relevant, innovative and sustainable way. And this is 
not going to be easy. One reason it is not going to be easy is 
because we are under a, more or less, flat-line budget. Most 
Americans do not know that. I think most of them would welcome 
it if they did know it, but for those of us who work in 
Government and want to push programs forward, that is a hard 
pill to swallow. That does not affect the Defense Department. 
It does not affect the intelligence community. It affects only 
parts of the veterans community.
    But NASA's current budget of $18 billion may be a high 
water mark. We do not know what a soft freeze means. But it may 
be a high water mark for years to come. So we have to live with 
that and make the most of it. We cannot assume the agency will 
have unlimited resources for every mission it wants to 
undertake. So, therefore, we have to make hard choices.
    Today I look forward to a robust evaluation of the agency's 
plan for human spaceflight, but more than that, we have to 
measure and shape those goals against our greater national 
priorities for the years and the decades ahead. I really feel 
strongly about that. NASA's research in aeronautics helped 
create our global leadership in aviation. We need its 
scientific minds to be involved in solving today's and 
tomorrow's challenges in energy, medical research, robotics. I 
have talked about these things. I really mean them.
    In addition, we need to understand how it will support our 
workforce and protect our industrial base, ensure our national 
security, and strengthen international relationships. And we 
have to examine how we use human spaceflight as an important 
tool of smart power, exemplified by the International Space 
Station partnership and strong U.S. and Russian participation.
    So efforts like this can build stability, and they can 
ensure global access to space and help us move forward toward 
greater transparency as we establish the rules of the road, 
which is what I think we are here to do.
    I know that our focus today is specifically on human 
spaceflight. I recognize that, but I do not want anybody to 
forget the agency's broader priorities which include 
exploration, science, aeronautics, education, technology, 
research of any and all kinds. These are the foundations of our 
future. They are enormously important and I hope the agency 
finds that balance and moves forward again. I also hope that we 
will increase our focus on tying NASA's human spaceflight 
efforts to benefits in these areas.
    I want to thank all of our witnesses today, including those 
who will follow, the two that sit before us now, both extremely 
distinguished Americans, including Mr. Neil Armstrong, 
Commander of Apollo 11; and Eugene Cernan, Commander of Apollo 
17. We thank them for their service.
    In the past, I should say in ending, I have been critical 
of NASA's financial and program management. I am still that 
way. As we move toward reauthorization, I firmly believe this 
committee has a huge oversight role to play. NASA cannot 
continue down the same path in my judgment.
    I turn now to my distinguished partner, Senator Kay Bailey 
Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I am very 
pleased that we have this hearing because I have been alarmed 
at the plans that have been put forward, not with the goal of 
the plans. I agree with the goal. We should utilize space for 
science and research that cannot be done in the gravity 
conditions on Earth, and we need to be bold in exploring space 
so that we maintain our superiority in space exploration.
    I appreciate, obviously, the two of you: General Bolden, 
you have been an astronaut and have a distinguished career and 
are now the NASA Administrator, and Dr. Holdren from the White 
House Office of Science and Technology Policy. And I am very 
pleased, Mr. Chairman, that we do have the first man who walked 
on the Moon and the last man who walked on the Moon on our 
second panel, Neil Armstrong and Eugene Cernan, along with Norm 
Augustine who was tasked by the President to come up with 
options that would save NASA, our space exploration, and 
putting humans in space.
    I find serious flaws in the areas where detailed 
information has been provided by the Administration. There are 
good reasons to have reservations about a proposal that 
discards billions of dollars of important technology and 
engineering advancements paid for by American taxpayers and 
puts us on a course that relies on a still developing 
commercial market to fill a role carried on for more than 5 
decades by the world's preeminent space agency.
    Our 50-year legacy of leadership in space is on the line, 
and we need to have a credible plan to make the next step 
forward, enhancing our investment over the last 5 decades.
    We will get to Mars by building upon our existing 
capabilities, including our infrastructure, prior investment, 
and the most skilled workforce in the world.
    We do not need a Presidential commission to manage the 
transition of NASA workers to other jobs or other places. We 
need a plan that preserves their extraordinary talents and 
challenges them to work on new goals and technologies to build 
a bridge from where we are to where we want to be.
    Every assumption in the President's proposal that is made 
about the potential development of a new technology or the 
emergence of a customer base beyond NASA to support a fledgling 
commercial space industry is another source of risk and another 
point of potential mid-program failure that could undermine our 
human spaceflight capability.
    We must leverage our existing capabilities and workforce to 
reach our goal. That is why for me, the discussion begins with 
the International Space Station, which underpins our reason to 
send humans into space in the short- and mid-term while we work 
on new technologies to take us deeper into space.
    Flying out the Shuttle program on the current schedule 
before performing the analysis of the parts and equipment the 
International Space Station will need to extend the life of the 
station from 2015 to 2020, which is the President's goal, is a 
risk. It is particularly risky when those potential needs have 
not been mapped against the existing or anticipated cargo 
capabilities that will provide our only means to bring cargo to 
the station in a world without the Space Shuttle.
    I have proposed stretching out the remaining Shuttle 
missions over the next 2 years and adding the Launch on Need 
flight as an actual flight with available cargo capabilities. 
That would allow for the analysis and planning that we must 
have to minimize the risk to the ISS, the International Space 
Station, and bridge the gap that has been a concern of mine and 
also Senator Nelson's since it was first proposed 4 or 5 years 
ago.
    The space station provides our primary reason for current 
and future spaceflight and offers almost the entire business 
case for many of the emerging commercial space companies in the 
short run. Safety has been asserted as a reason to stop the 
Shuttles this year.
    But, first, I am not proposing we add more, just spread 
them out over a longer period of time, 2 years.
    Second, I do not accept arguments that a Soyuz vehicle our 
engineers have never had complete access to for study and 
certification is safer than the Space Shuttle to carry our 
astronauts to and from the station. It is time to have an 
honest conversation about the Space Shuttle and its importance 
to our short-term capabilities.
    I am hopeful that Dr. Holdren and General Bolden can 
finally answer some key questions on behalf of the 
Administration today, including: have we taken every step 
possible to reduce the risk to the space station? How will the 
technology and engineering advances from $9 billion of 
investment in the Constellation program be leveraged and 
utilized if the program is discontinued? Why ignore the actual 
options laid out in the Augustine Committee report and why wait 
until 2015 for the selection of a heavy lift vehicle design? 
What will happen if we do not have a NASA-owned and managed 
capability like Constellation or some iteration of 
Constellation and private providers struggle with cost overruns 
and ultimately fail? Will American taxpayers have to bail out 
these companies? What other option would we have at that point 
except to continue paying whatever it takes to build the 
vehicles because the NASA capability has been dismantled? Why 
not reform NASA's contracting practices rather than putting all 
our emphasis on a still developing commercial sector that may 
not be able to deliver?
    Mr. Chairman, those are just a few of my questions. Between 
the proposal I have advanced, the thoughts of other members, 
and the recommendations in the Augustine report, there are many 
ideas about how to reach bold new goals.
    American exceptionalism demands that we do better than the 
proposal that has been put forward that does not have the plans 
to implement it in a safe and secure way.
    Mr. Chairman, I would just say that I stand ready to work 
with the Administration. I would like for this Administration 
to have the legacy of continuing our preeminence in space. I do 
not think the proposal that has been put forward will do that, 
but I certainly would like to work in a bipartisan and 
certainly collegial way to achieve a goal that I think is the 
same as the President's. I do not think he is putting forward 
the plan to achieve the goal, and I want to help put that 
together so that we will spend our taxpayer dollars wisely. We 
will not throw away the billions that have already been spent.
    So the space station, which now has eight contracts waiting 
to go up through NIH and the Department of Agriculture to 
utilize the space station--there will be more if everyone knows 
that there is true availability of the space station with a 
Shuttle that we can control and know that if there is a gap, it 
will be a short gap, not a 5 to 8 and possibly 10-year gap as 
we have new fledgling commercial activities that attempt to do 
things that have already been tried and proven or disproven in 
the NASA history.
    So, Mr. Chairman, I do thank you for the hearing, and I 
hope that it leads us to a better consensus that we can work 
together toward our shared goal. Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Mr. Chairman, for holding this hearing. We are fortunate 
to have such an exceptional panel of witnesses.
    Two of our witnesses require no introduction. Their vision and 
courage are legend, and upon their shoulders several generations of 
American astronauts have stood to reach for the Heavens. I speak, of 
course, of Neil Armstrong and Eugene Cernan.
    We are also joined by my friend Norman Augustine, who led a review 
of the U.S. human spaceflight program; General Charles Bolden, the 
current NASA Administrator; and Dr. John Holdren, who heads the White 
House Office of Science and Technology Policy.
    If we are to work through the difficult issues ahead to arrive at a 
consensus path for America's space program, this hearing represents an 
excellent place to begin.
Lack of Information and Substantial Risk
    Mr. Chairman, I have said a lot in recent weeks about the 
President's proposal for NASA. Many Members of Congress find serious 
flaws in the few areas where detailed information has been provided.
    There are good reasons to have reservations about a proposal that 
discards billions of dollars of important technology and engineering 
advancements paid for by American taxpayers, and places us on a course 
that relies on a still developing commercial market to fill a role 
carried on for more than five decades by the world's preeminent space 
agency.
    In listening to the President and members of his Administration 
discuss their proposal, I have repeatedly heard the words might, could, 
and may to describe a bold future and the elements of a framework to 
get us there.
    The one word I keep waiting to hear, Mr. Chairman, is how!
    Our 40-year legacy of leadership in space is on the line and we 
need to have a credible plan to take the next step forward, enhancing 
our investment over the last four decades. And let me be clear, a 
destination is not a policy, and hope is not a plan!!
Assumption Equals Risk; Need to Build on Existing Capabilities
    We will get to Mars by building upon our existing capabilities, 
including our infrastructure, prior investment, and the most skilled 
workforce in the world.
    We do not need a Presidential Commission to manage the transition 
of NASA workers to other jobs, or other places. We need a plan that 
preserves their extraordinary talents and challenges them to work on 
new goals and technologies to build a bridge from where we are to where 
we want to be, and with the least possible risk to our exploration 
programs.
    Every assumption in the President's proposal that is made about the 
potential development of a new technology, or the emergence of a 
customer base beyond NASA to support a (47th fledgling commercial space 
industry, is another source of risk, and another point of potential 
mid-program failure that could undermine our human spaceflight 
capability.
    We must leverage our existing capabilities and workforce to reach 
our goal.
Preserve the Station and Build from There
    That is why, for me, this discussion begins with the International 
Space Station (ISS), which underpins our reason to send humans into 
space in the short and mid-term while we work on new technologies to 
take use deeper into space.
    Flying out the Shuttle program on the current schedule BEFORE 
performing a comprehensive analysis of ISS equipment and part needs to 
extend its life until 2020, is a risk. It is particularly risky when 
those potential needs have not been mapped against the existing, or 
anticipated, cargo capabilities that will provide our only means to 
bring cargo to the station in a world without the Space Shuttle.
    I have proposed stretching out the remaining Shuttle missions over 
the next 2 years and adding the Launch on Need (LON) flight as an 
actual flight with available cargo capabilities. That would allow for 
the analysis and careful planning I believe is needed to minimize the 
risk to the ISS and bridge part of the gap to new capabilities.
    The space station provides our primary reason for current and 
future spaceflight and offers almost the entire business case for many 
of the emerging commercial space companies in the short run. Safety has 
been asserted as a reason to stop the Shuttles this year. But first, I 
am not proposing we add more--just spread them out over a longer time 
frame--two years. And, second, I do not accept arguments that a Soyuz 
vehicle our engineers have never had access to for study and 
certification is safer than the Space Shuttle to carry our astronauts 
to and from the station. It is time to have an honest conversation 
about the Space Shuttle and its importance to our short term 
capabilities.
Lots of Questions Need To Be Addressed
    I am hopeful that Dr. Holdren and General Bolden can finally answer 
some key questions on behalf of the Administration today, including:

  <bullet> Have we taken every step possible to reduce the risk to the 
        space station?

  <bullet> How will the technology and engineering advances from $9 
        billion of investment in the Constellation program be leveraged 
        and utilized if the program is discontinued?

  <bullet> Why ignore the actual options laid out in the Augustine 
        Committee report, and why wait until 2015 for the selection of 
        heavy lift vehicle design?

  <bullet> What will happen if we do not have a NASA-owned and managed 
        capability like Constellation and private providers struggle 
        with cost overruns and ultimately fail?

  <bullet> Will American taxpayers have to bail out these companies? 
        What other option would we have at that point except to 
        continue paying whatever it takes to build the vehicles?

  <bullet> Why not reform NASA's contracting practices rather than 
        putting all our emphasis on a still developing commercial 
        sector that may not be able to deliver?
Conclusion
    Mr. Chairman, those are just a few of my questions. Between the 
proposal I have advanced, the thoughts of other members, and the 
recommendations in the Augustine report, there are many ideas about how 
to reach bold new goals in manned space exploration.
    The burden lies with the Administration to demonstrate why the 
President's proposal is superior to all of these other ideas.
    American exceptionalism demands more . . . the brave men and women 
that climb aboard rockets to explore the frontiers of space require 
more . . . and, future generations of American children deserve more!
    Thank you again for holding this hearing. I look forward to the 
testimony.

    The Chairman. Thank you, Senator Hutchison.
    I now call on the Subcommittee Chair and that is Senator 
Nelson from Florida.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, there is a great deal that is riding on this 
hearing today because we are preparing the way for us then to 
start the markup in your subcommittee of the authorizing 
legislation, and this is being done in the midst of a great 
deal of uncertainty about the future of NASA. We are very 
fortunate to have the witnesses that we have at the table who 
clearly ought to give us some direction, and we are very 
fortunate to have the three that will follow on the next panel.
    This is such an important hearing because there are people 
all across the country, including this extraordinary family 
called the ``NASA family'' that has spaceflight in their genes 
that are looking to us to exercise our legislative and 
appropriations function in helping the President and the 
Executive Branch chart the course of where America's human 
space program is going from here.
    Now, there have been a lot of us that have given a lot of 
advice to the President, and I think in large part his speech 
down at the Kennedy Space Center reflected that. We asked that 
he consider a strong vision statement. In fact, we specifically 
said a vision of going to Mars. And he did that.
    We asked that he consider not the cancellation of the 
Constellation program, but the restructuring of it, and in 
fact, we wanted that to have the capability of giving us 
flexibility in the future. And we received that from his 
statement.
    We asked for the extension of the International Space 
Station's life, instead of it being cutoff in 2015 as 
previously planned. I mean, we are just completing it now, and 
it is 2010. Obviously, you do not want to shut it off 4 years 
down the road. And we received that commitment from the 
President.
    Some of us asked that since there is the hardware ready for 
an additional Shuttle flight, that he consider that. And 
although he did not announce that in his speech down at the 
Kennedy Space Center, it is my hope that that is under 
consideration in the White House and NASA at this point.
    We also asked the President for the safe completion of the 
current Space Shuttle manifest even if it has to be flown into 
next year and that the increases in funding for the other 
critical parts of NASA's budget, including science and 
aeronautics and Earth observation and the breakthrough research 
and development be there. And he has proposed that.
    But the authorizing and the appropriating committees 
continue to review the President's proposal. We here in the 
legislative branch are going to try to continue to work with 
the Administration to refine his plan and change some parts of 
it. And it is in that spirit that we come here today to take a 
deeper look into the details of the proposal, and specifically 
some of us are going to explore how the plan relates to 
national priorities such as education and innovation and 
security, the implications of the plan, including the impacts 
on national security, the workforce, the industrial base, and 
our international posture. And we are going to look at the 
plan's overall integration, including the schedule and the 
cost.
    So then we are going to be looking, Mr. Chairman, at the 
President's proposal to make a decision on a heavy lift vehicle 
solution, of which he said is as late as 2015. We would like to 
speed that up. We want to establish the rationale of such a 
proposal and where the benefits and the challenges lie.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida

    Mr. Chairman, while I'm pleased by the fact that during his recent 
visit to the Kennedy Space Center President Obama showed that he does 
in fact recognize the need for a robust human spaceflight program, I 
feel there remains some room for improvement in his proposed plan for 
our future in space.
    I've spent a great of time advising the President and his 
Administration on how best to move NASA forward--from his recent speech 
in Florida it's obvious the President has been listening.

        I asked that we receive a strong a vision statement, delivered 
        by the President, defining Mars as the ultimate goal--we 
        received one.

        I asked for the restructuring of the Constellation Program, to 
        include the development of a heavy-lift vehicle and a crewed 
        vehicle capable of evolving to support expeditions beyond low-
        Earth orbit--we received it.

        I asked for the extension of the International Space Station's 
        operational life until at least 2020--we received it.

        And I asked for the development of a robust commercial space 
        sector and we are now taking steps in that direction.

    I'm also pleased that the President's plan takes care to provide 
for the safe completion of the current Space Shuttle manifest, even if 
it must be flown into 2011, and that it increases funding for the other 
critical parts of NASA's budget including science, aeronautics, Earth 
observation, and breakthrough research and development.
    However, the authorizing and appropriating committees continue to 
review the President's proposal and we in Congress are continuing to 
work with the Administration to refine his plan.
    And it is in that spirit that today we take a deeper look into the 
details of the proposal. Specifically, we'll explore how the plan 
relates to national priorities, such as education, innovation, and 
security; the implications of the plan, including impacts on national 
security, workforce, the industrial base, and our international 
posture; and the plan's overall integration, including schedule and 
cost.
    Lastly, we'll also discuss the President's proposal to make a 
decision on a heavy-lift solution as late as 2015. We want to establish 
the rational of such a proposal and where its benefits and challenges 
might lie.
    Thank you Mr. Chairman--I look forward to a productive hearing.

    The Chairman. Thank you, Senator Nelson.
    Senator LeMieux, I was going to call on you but I should 
call on Senator Vitter because he is Ranking on the 
Subcommittee. Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. Thank you for this 
hearing. It is a very important hearing. I agree with my 
colleague on the Subcommittee. And the stakes are very high.
    I will submit my full opening statement for the record. It 
underscores what I have said very clearly before, that I am 
extremely concerned by this plan and budget submission for NASA 
by the Administration. I think it should be very concerning to 
the entire space community and the American people.
    My fundamental concerns are these three.
    Number one, I am convinced it will absolutely relinquish 
our leadership role in human spaceflight certainly for our 
lifetimes, maybe longer, if we follow down the proposed path.
    Number two, I repeat Senator Hutchison's comments. I think 
complete reliance on the commercial sector is a bad idea 
because there is absolutely no evidence that that sector alone 
can supply this capability in the near term. I want to support 
that sector. I want to see that capability grow, but not put 
all of our eggs in one basket on that long bet.
    And number three, I really think we would be in the 
process, if we adopt the plan, of fundamentally changing NASA 
and making it a research institution almost solely. Mr. 
Chairman, you mentioned the broad category of NASA missions, 
and we should remember all of them, but we should start with 
the core mission which is exploration in human spaceflight. I 
think this proposal is forgetting, to a large extent, about 
that absolutely core, central mission and putting too much 
emphasis on other ancillary missions.
    I welcome all of our panel, certainly these distinguished 
gentlemen, and our second panel. But, Mr. Chairman, I would 
just make one suggestion, which is, I think, the original idea 
is to have our other three panelists go first so that we can 
get into more of a conversation and get more reaction from the 
Administration officials on their very compelling testimony, in 
my opinion. We have heard from the Administration before 
several times about the new vision, about the budget 
submission. I am happy to hear from them again, but I honestly 
think it would be far more productive of real discussion and 
new ideas to have the other three panelists go first, to have 
the Administration listen, and to have all of us respond to 
that. So that would be my suggestion to the chair.
    The Chairman. I welcome that, and should you become 
Chairman some day, you can arrange that.
    [Laughter.]
    The Chairman. Senator LeMieux, Senator Brownback, Senator 
Pryor, and my favorite Governor down there, Senator Johanns, if 
you could keep your remarks to about 3 minutes. Senator 
LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Yes, sir. Thank you, Mr. Chairman, and 
thank you, Ranking Member Hutchison, for holding this hearing 
today.
    General Bolden, Dr. Holdren, thank you for your service and 
for being here.
    I, like my colleagues, want to work in a collegial way with 
the Administration in order to make sure that we continue our 
leadership role in space, but I unfortunately cannot take as 
optimistic of a view of the President's plan.
    For nearly 50 years, we have been the undisputed leader in 
space exploration. The proposal by the Administration to, what 
I would call, kill the Constellation program, its Aries I and 
Aries V rockets, and turn the Orion vehicle into a speculative 
lifeboat will be, in a word, devastating. That is not my word. 
That is the word used by the commanders of Apollo 11, 13, and 
17. It is going to be devastating for, I think, three main 
reasons.
    One, with the termination of the Shuttle, we will be, for 
the first time in nearly 50 years, for a period of years unable 
to go into low-Earth orbit, and we will put ourselves at the 
mercy of the Russians.
    Second, we are going to dismantle a world-class workforce 
that will be virtually, if not completely, impossible to 
reconstitute.
    Third, we are going to relinquish our status as leaders and 
pioneers in space exploration. I do not look forward to the day 
when I will explain to my children why the Chinese are putting 
their flag on the Moon over ours. We have spent nearly $10 
billion on the Constellation program, and while it is not a 
perfect project, it is the law of the land. Mr. Chairman, I 
think it is worth noting that Congress has been clear in 
reauthorizing this program twice, in 2005 and 2008, with a 
democratically-controlled Congress and a Republican controlled 
Congress.
    Additionally, language was specifically included in the 
2010 omnibus appropriations bill prohibiting the cancellation 
of the Constellation program. One thing I look forward to 
discussing in our questions is letters and documents I have 
received about the programs within Constellation already being 
canceled. To date, no laws have changed, and Congress has not 
taken action to enact the changes proposed by the 
Administration.
    We read in the Wall Street Journal even today, about these 
programs being canceled.
    My view is that we need to stay on course with American 
human space exploration. We need, as my colleagues have 
suggested, to extend the Shuttle to ensure the U.S. has access 
to space. We need to expedite completion of the Aries I rocket 
to ensure access to low-Earth orbit and the International Space 
Station. And finally, we need to expedite the development of a 
heavy lift vehicle and not wait, as my colleagues have said, 
until 2015.
    The United States leads the world in space exploration. It 
is one of our Nation's qualities that is admired around the 
world. We cannot and should not cede an inch of it to other 
countries. If we fail to act now, the President and this 
Administration will be remembered for killing America's 
leadership in space exploration, and to me, Mr. Chairman, that 
is not acceptable.
    Thank you.
    The Chairman. Thank you, Senator. And that was absolutely 
perfect timing.
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thanks, Mr. Chairman. Thanks for the 
hearing.
    I am certainly a strong supporter of NASA. I was Chair of 
the Subcommittee some years ago. This is a great topic and it 
is very timely that you are putting this together.
    I look forward to working with you and other members on the 
space program and these issues.
    I am a strong supporter of NASA, as I mentioned, and of the 
commercial space industry, and I have a steadfast belief that 
the United States needs a vision for the U.S. space program. I 
have been a proponent of phasing out the Space Shuttle and to 
use the resources for alternative deep space ventures and 
cutting edge research. With the impending retirement of the 
Shuttle, NASA is now assuming a much different role than in our 
past space effort, and I think there is great opportunity to 
have a space program that leads the world, but it will be a 
space program that is firmly embedded in opportunity for all. 
By opening up commercial space, it ensures a strong future for 
the U.S. in the competitive aerospace industry.
    Mr. Chairman, you have assembled an exceptional panel of 
experts. I met with Mr. Augustine 2 weeks ago. You could not 
get a better guy to talk about this who has been around it a 
long period of time and sees the budget realities that we are 
in right now. As you have mentioned, we have a tight budgetary 
atmosphere and we have got to be able to fit our goals and our 
dreams and our desires within that. I think what he sees is 
that we need to be able to integrate commercial space into 
doing things into low-Earth orbit and then for NASA to move on 
from that point.
    I think there is a lot of room for discussion here, and it 
is an important discussion to have for us to move forward as a 
space-faring Nation and as a Nation that leads in space. We can 
do it, but I think it is going to have to be under a different 
design than what we have been doing.
    And I look forward to the discussion of that design.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Let me, if I might, just offer a very brief thought. Like 
most Americans, I grew up with a tremendous amount of 
admiration for Neil Armstrong. I thought this man and really 
all the astronauts were just enormously courageous individuals. 
Therefore, you can only imagine that I would give his testimony 
a great deal of weight as I think about this hearing and 
prepare for it.
    Early on in his testimony, he said something that to me was 
very compelling and very concerning. He said, ``With regard to 
President Obama's 2010 plan, I have yet to find a person in 
NASA, the Defense Department, the Air Force, National 
Academies, industry, or academia that had knowledge of the plan 
prior to the announcement. Rumors abound that neither the NASA 
Administrator nor the President's Science and Technology 
Advisor were knowledgeable about the plan. Lack of review 
normally guarantees that there will be overlooked requirements 
and unwelcome consequences. How could such a chain of events 
happen? A plan that was invisible to so many was likely 
contrived by a very small group in secret who persuaded the 
President that this was a unique opportunity to put his stamp 
on a new and innovative program. I believe the President was 
poorly advised.''
    If, in fact, that is the way that this was brought about, 
that is enormously concerning. Where does this come from is the 
question that I have to ask. So it is not only the concerns 
expressed by Senator LeMieux and others about what is happening 
here, it is the method and manner by which we got there. Once 
again, it appears a complete lack of transparency in the 
Administration and there is just too much of that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for having this hearing and, Senator 
Hutchison, for your leadership on this. I have to acknowledge 
Senator Bill Nelson. Senator Nelson of Florida is really 
without peer when it comes to looking after NASA's interest and 
making sure that the many and varied missions of NASA are 
functioning properly and getting the proper attention here in 
the Congress.
    Really, Mr. Chairman, I only would have two questions for 
the panels when they have a chance to answer, and that would 
be, first, what is the safest and most economical launch 
vehicle for restoring NASA's capability to fly to low-Earth 
orbit and the International Space Station? And second is, what 
are NASA's plan, budget, and schedule for developing, and 
testing a heavy lift launch system?
    I think our manned spaceflight program is at a real 
crossroads, and I certainly would look forward to working 
through this issue with the members of the Committee and with 
NASA.
    Thank you very much.
    [The prepared statement of Senator Pryor follows:]

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas

    Chairman Rockefeller and Ranking Member Hutchison. Thank you for 
holding this important hearing.
    NASA and the United States manned space program are at a 
crossroads. This Congress is being asked to make a decision that will 
set the course for the Space Agency for the next several decades. The 
choice is between continuing the Constellation Program and relying upon 
the private sector to develop commercial launch vehicles.
    Regardless of the path America chooses, the safety of our 
astronauts must always be our paramount concern.
    I believe this committee must find the answers to two key 
questions.
    First, what is the safest and most economical launch vehicle for 
restoring NASA's capability to fly to Low-Earth Orbit and the 
International Space Station?
    Second, what are NASA's plans, budget and schedule for developing 
and testing a heavy lift launch system?
    I look forward to hearing today's testimony and the answers to 
these questions. Thank you.

    The Chairman. Thank you, Senator Pryor.
    And now, Dr. Holdren, I am very honored to ask you to give 
your testimony. You are the Director of the Office of Science 
and Technology Policy. You have been very helpful to me on 
energy matters and in many other ways. I think you are a 
terrific appointment.
    After that, Mr. Bolden, I will introduce you.
    Please.

 STATEMENT OF HON. JOHN P. HOLDREN, Ph.D., DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
                 PRESIDENT OF THE UNITED STATES

    Dr. Holdren. Chairman Rockefeller, Ranking Member 
Hutchison, members of the Committee, I certainly am happy to be 
here today to talk about the Administration's new strategy for 
human space exploration activities.
    And I want to be clear at the outset. This Administration 
is steadfast in its commitment to space exploration and to the 
mission of NASA. The President and I fully recognize that space 
exploration plays a vital role for our Nation in advancing 
scientific discovery, stimulating technological innovation, 
enhancing our economic strength, expanding our horizons, 
inspiring our public and especially our kids about the 
potential of science and technology, and maintaining U.S. 
leadership internationally.
    But among the several challenges that face this 
Administration when it came to office were the technical and 
budgetary difficulties of the U.S. human spaceflight program, 
Constellation, that we had inherited. To assess that problem, 
OSTP and NASA stood up the most open, transparent, and 
participatory Federal advisory committee activity relating to 
space that has ever been undertaken, the Augustine Committee to 
Review Human Spaceflight Plans.
    As you know, the Augustine committee concluded through that 
process that the Constellation program had become 
``unexecutable'' under any plausible set of assumptions about 
costs and budgets going forward, the victim of a mismatch 
between plans and available resources exacerbated by decades of 
underinvestment in new technology and innovation at NASA. And 
persisting in the pursuit of that increasingly costly program 
while, nonetheless, failing to meet its objectives would have 
the further liability of continuing to short-change NASA's 
other critical activities including, as you have mentioned, 
robotic missions, space telescopes, Earth observation, and 
aeronautics. It clearly was time to push the reset button.
    Accordingly, a decision-support process engaging NASA and 
the White House was initiated to flesh out a set of options, 
drawing on the Augustine committee's findings and aiming to 
maximize the level of exploration and achievement attainable 
under realistic budgets for the President's consideration. The 
result was the set of proposals for NASA's activities and 
budgets rolled out as part of the President's Fiscal Year 2011 
budget request on February 1 and elaborated, as Senator Nelson 
has mentioned, in the President's speech at the Kennedy Space 
Center on April 15.
    The key elements in the Administration's new strategy for 
maintaining and extending U.S. leadership in human space 
exploration deserve, I think, at least brief recapitulation 
here.
    We want to extend the life of the International Space 
Station to at least 2020, in doing so, deriving significantly 
increased benefits from it in science and technology 
demonstration, providing a locus and focus for increased U.S. 
astronaut presence in space over the decade ahead, and 
maintaining the valuable international partnership that the 
International Space Station represents.
    We want to catalyze the development of and then utilize 
commercially provided crew and cargo transportation services to 
the International Space Station, resulting in what we believe 
will be more timely and cost-effective United States 
capabilities for that purpose than the previous program would 
have provided.
    We want to increase NASA's investments in transformative 
technologies that can expand the reach and reduce the costs of 
human exploration of deep space, beginning in this way to 
reverse decades of under-attention to that critical need.
    And we want to pursue a series of increasingly demanding 
human exploration missions, including a mission to an asteroid 
by 2025 and an orbital Mars mission in the mid-2030s, 
demonstrating key capabilities for a later Mars landing, while 
also achieving historic firsts in exploration and discovery.
    I want to add a word about workforce issues. There are some 
near-term job losses in store, largely as a result of the 
retirement of the aging Space Shuttle fleet in early 2011. But 
that is not a new problem. The decision to retire the Shuttle 
in that time-frame was made in 2004 by the previous 
administration based, in part, on the findings of the Columbia 
Accident Investigation Board and, in part, on the need to 
develop less costly as well as safer technology to get our 
astronauts into orbit. A dilemma in the era of limited budgets 
is that the high cost of operating the Shuttle consumes the 
money that would be needed to develop its successor.
    The Administration recognizes the pain and hardship of job 
losses in the communities affected, and we are taking a number 
of steps to reduce those impacts. The promotion of an expanded 
commercial space launch industry will create new jobs in many 
of the places affected by Shuttle job losses, as will the $3 
billion that will go into new R&D on heavy lift rockets in this 
period and additional billions in other new technologies. We 
think it is likely, given the additional spending in the new 
plan, that the magnitude of the Shuttle-related job losses will 
be smaller and their duration shorter under the new plan than 
under the old one. But they will still be real. Therefore, 
further steps are being taken by the Administration to mitigate 
those losses, including the initiative for regional economic 
growth and job creation along the Space Coast that the 
President announced on April 15.
    In closing, let me say that the President and I appreciate 
this committee's interest in and support for the U.S. human 
spaceflight program and the other important missions of NASA. 
We are convinced that the new plan is the best way forward and 
optimistic that we can get it done. I look forward to working 
with you and others in the Congress to that end. I would be 
happy, of course, to respond to your questions. Thank you.
    [The prepared statement of Dr. Holdren follows:]

    Prepared Statement of Statement of Hon. John P. Holdren, Ph.D., 
Director, Office of Science and Technology Policy, Executive Office of 
                                  the 
                     President of the United States

    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am pleased to appear before you today to discuss the 
Administration's new strategy for U.S. human space exploration 
activities. I welcome the opportunity to provide additional information 
about these plans.
    Let me be clear at the outset: This Administration is steadfast in 
its commitment to space exploration and to the mission of the National 
Aeronautics and Space Administration (NASA), as emphasized by the 
President in his speech at the Kennedy Space Center on April 15. Space 
exploration plays a vital role for our Nation in advancing scientific 
discovery, stimulating technological innovation, enhancing our economic 
strength, and promoting international leadership. And the President 
fully recognizes the space program's unique capacity to inspire future 
generations of scientists and engineers as we continue to forge new 
paths in pursuit of unprecedented discoveries and unimagined wonders in 
space.
    The Obama Administration came into office facing a broad range of 
challenges, not least of which were the technical and budgetary 
difficulties of the U.S. human spaceflight program--Constellation--that 
we had inherited. Given the significant investments in funds and 
scientific capital entailed in that effort, we concluded that it was 
essential to obtain a fresh and objective assessment of the status of 
the program, as well as of the options going forward. OSTP and NASA 
stood up, for that purpose, an independent blue-ribbon panel, the 
Committee to Review U.S. Human Spaceflight Plans. Led by the 
distinguished aerospace engineer Norman Augustine, the Committee 
comprised ten experts of diverse experience--in the U.S. Government, 
the military, industry, and the astronaut corps--relating to the 
technology, management, and practice of human spaceflight. I believe 
the intensive review they conducted over a period of 5 months last year 
was the most open, transparent, and participatory Federal Advisory 
Committee activity relating to space ever undertaken.
    The Augustine Committee's thorough and thoughtful analysis helped 
illuminate the range and severity of the challenges faced by the 
Constellation program--making clear that it had become ``unexecutable'' 
under any plausible set of assumptions about costs and budgets going 
forward--as well as clarifying the options for revamping U.S. human 
spaceflight activities so as to maximize what could be achieved under 
budgets that might realistically be available. Most fundamentally, the 
Augustine report made clear that Constellation had been plagued from 
the beginning by a mismatch between plans and available resources, and 
that it had been hindered as well by decades of underinvestment in new 
technology and innovation at NASA.
    The report showed, more specifically, that the new rocket intended 
to carry U.S. astronauts to low-Earth orbit (initially to the 
International Space Station (ISS) and later in support of lunar 
missions) after retirement of the Space Shuttle in 2011, the Ares I, 
was far over budget and so far behind schedule that it wouldn't be 
available until after the space station had been scrapped at the end of 
2015 in pursuit of savings to help pay for the rocket. The program's 
stated goal of returning U.S. astronauts to the surface of the Moon by 
2020, moreover, using a much larger rocket (Ares V) and a lunar lander 
that were both still on the drawing board, was no longer within reach 
regardless of how much money might be spent on it. And under plausible 
NASA budgets going forward, the Constellation program could not have 
put U.S. astronauts back on the Moon until sometime after 2030.
    In addition to scrapping the $100 billion International Space 
Station before it had achieved more than a fraction of its scientific 
and technology-development potential, as well as suffering a six- or 
seven-year gap in U.S. capability to lift its own astronauts into low-
Earth orbit, persisting with the pursuit of the increasingly costly 
Constellation program while nonetheless failing to meet its objectives 
would have the further liability of continuing to short-change NASA's 
other critical activities, including robotic missions and space 
telescopes, Earth observation, and aeronautics. Clearly it was time to 
press the reset button.
    Accordingly, a decision-support process engaging NASA and the White 
House was initiated to home in on and flesh out a set of options for 
revamping NASA's human spaceflight efforts--drawing on the Augustine 
committee's findings and aiming to maximize the level of activity and 
achievement attainable under realistic budgets--for the President's 
consideration in connection with the preparation of his FY 2011 budget 
proposal. The result was the set of proposals for NASA's budgets and 
activities in FY 2011-2015, which were rolled out as part of the 
President's budget request on February 1, and further elaborated in his 
speech at the Kennedy Space Center on April 15.
    Before turning to the ingredients of the new plan, I want to make 
one further important point about the old one. The President and I--and 
I know Administrator Bolden--are immensely grateful for the hard work 
and commitment shown by the men and women of NASA's government and 
industry workforce for the Constellation program. The mismatch of aims 
and resources in that program was not their fault. Nor will their 
efforts have been wasted--much of the knowledge and technology they 
have produced will be built upon in the new plan. More than that, it's 
our aim to put their skills and passions to work in the revamped 
program to the greatest extent that we can. These men and women are a 
national resource, and the Administration is committed to applying 
their expertise to a range of national challenges and needs.
    The President's new strategy for maintaining and extending U.S. 
leadership in human space exploration has a number of important 
elements. Key among them are:

        1. extending the life of the ISS to at least 2020, thereby 
        deriving significantly increased benefits from it in science 
        and technology demonstration, providing a locus and focus for 
        increased U.S. astronaut presence in space over the decade 
        ahead, and maintaining the valuable international partnership 
        in space that the ISS represents;

        2. catalyzing the development of, and then acquiring 
        commercially provided crew and cargo transportation services to 
        the ISS, resulting in what we believe will be more timely and 
        cost-effective U.S. capabilities for this purpose than the 
        previous program;

        3. substantially increasing our investments in transformative 
        technologies that can expand the reach and reduce the costs of 
        human exploration of deep space, thereby beginning to reverse 
        decades of under-attention to this critical need;

        4. investing in heavy-lift propulsion R&D, which together with 
        our technology investments will help inform a decision by no 
        later than 2015 on the heavy lift vehicle design that we will 
        pursue and build;

        5. building a scaled-back version of the Constellation 
        program's Orion crew capsule to provide crew emergency-escape 
        services for the ISS and to provide part of the technological 
        foundation for the advanced spacecraft to be used in future 
        deep-space missions;

        6. pursuing a series of increasingly demanding human-
        exploration missions to include a mission to an asteroid by 
        2025 and an orbital Mars mission in the mid-2030s, 
        demonstrating key capabilities for a later Mars landing while 
        also achieving historical firsts in exploration and discovery; 
        and

        7. ramping up robotic exploration of the solar system, 
        including missions to ``scout'' the human trips to follow, as 
        well as conducting the Earth observations necessary to improve 
        our understanding of our climate and planetary home.

    This new plan revolves around certain core strategic themes and 
priorities--achieving a long-needed revitalization of our technology 
R&D efforts, matching program goals with available resources, 
partnering with industry in fundamentally new and more effective ways, 
advancing scientific discovery, and pursuing human exploration with a 
more flexible, achievable, and affordable set of goals. It is designed 
to take us ultimately further, faster, to more places in deep space, 
while spurring the creation of new industries, technologies, and jobs 
along the way. These activities and approaches together will prove 
vital for the long-term sustainability of our human spaceflight 
activities and will help place these programs on a more stable footing 
for years to come.
    I also would like to take this opportunity to provide additional 
information about certain program elements that the President 
highlighted on April 15 and that I touched on earlier.
The ISS and a Crew Rescue Vehicle
    Under the Constellation program Orion was to be the crew capsule 
used to transport astronauts to the vicinity of the Moon before trips 
to the surface using the Altair lander. Orion was also to provide crew 
transportation to the ISS, where it would have docked for 6 months 
before returning crews to the Earth. Though the Orion was to fulfill 
the ISS mission objectives first, it was not designed primarily for 
that purpose. Rather, NASA initiated Orion's development with the 
objective of making it a lunar-capable spacecraft that also could meet 
the ISS servicing mission.
    Developing an Orion-derived escape capsule to provide the ISS crew 
with assured return to Earth in case of an emergency is a less complex 
task than completing the Orion with its full suite of mission 
objectives, but this effort still brings important capabilities while 
enabling NASA to maintain critical skills in this area and continue to 
utilize its multi-Center, in-house team for spacecraft development. It 
will, as the President noted in Florida on April 15, provide ``part of 
the technological foundation for advanced spacecraft to be used in 
future deep space missions.''
Heavy Lift Decision
    The President also directed in his speech that NASA be in a 
position to select a heavy-lift rocket design by no later than 2015 for 
its future missions beyond Earth's orbit. The President noted that ``in 
developing this new vehicle, we will not only look at revising or 
modifying older models; we want to look at new designs, new materials, 
[and] new technologies . . .'' The President's budget includes $3.1 
billion over the next 5 years in support of research for new engine 
technologies, new materials, and engine demonstrations or prototypes 
that can prove vital to a future heavy lift vehicle. Further, NASA is 
developing initial plans for testing and demonstrating capabilities 
such as in-space fuel transfer and storage, in-orbit automated and 
autonomous rendezvous and docking, advanced in-space electric 
propulsion, and others that could be important in optimizing the 
characteristics of a heavy lift vehicle (i.e., as part of a future 
exploration architecture).
    NASA will build and test, and in some cases fly in space, these new 
technologies over the next several years to assess their operational 
viability and collect information on their effectiveness and 
performance. NASA can at the same time conduct a variety of design 
trade studies on potential future approaches for a heavy lift launch 
vehicle, and by 2015 will be able to make a decision about future heavy 
lift development that is informed by the combination of lessons learned 
from these various technology developments and associated studies. It 
is currently anticipated that this decision would set the general 
configuration of the vehicle, as well as target performance levels and 
other attributes. A more detailed and mature design for this vehicle 
likely would need to be completed following this initial decision, as 
part of a subsequent development effort. This timetable will enable 
NASA to begin building a heavy lift launch vehicle 2 years earlier than 
was projected under the previous plan.
Workforce Support
    There are job losses in store as a result of the retirement of the 
aging Space Shuttle fleet in early 2011, but that is not a new problem. 
The decision to retire the Shuttle in this time-frame was made in 2004 
by the previous Administration, based in part on the findings of the 
Columbia Accident Investigation Board and in part on the need to 
develop less costly as well as safer technology to get our astronauts 
into orbit. (A dilemma in an era of limited budgets is that the high 
cost of operating the Shuttle consumes the money that would be needed 
to develop its successor.) Several major independent reviews have 
affirmed that winding down the Shuttle program for these reasons is the 
right decision.
    The Administration recognizes the pain and hardship of Shuttle job 
losses in the communities affected, and we are taking a number of steps 
to reduce these impacts. The new plan contains $1.9 billion over the 
next 5 years for modernization of Florida's Kennedy Space Center and 
associated facilities. The promotion of an expanded commercial space-
launch industry will create new jobs in many of the places affected by 
Shuttle job losses, as will the $3 billion that will go into new R&D on 
``heavy lift'' rockets in this period and additional billions in other 
new technologies. It's likely, given the additional spending in the new 
plan, that the magnitude of the Shuttle-related job losses will be 
smaller and their duration shorter under the new plan than under the 
old one. But they will still be real. Further steps the Obama 
Administration is taking to mitigate them include the initiative for 
regional economic growth and job creation along the ``Space Coast'' 
that the President announced in his April 15 speech at the Kennedy 
Space Center.
    As the President explained on May 3, that initiative will be led by 
a Task Force on Space Industry Workforce and Economic Development. Co-
Chaired by NASA Administrator Bolden and Secretary of Commerce Gary 
Locke, it will include membership from 11 other departments, agencies, 
and White House organizations, including my office. Its aim is to 
develop, in collaboration with local stakeholders, an interagency 
action plan for $40 million in transition assistance intended to 
facilitate economic development strategies and plans along Florida's 
Space Coast, and to provide training and other opportunities for 
affected aerospace workers so they are equipped to contribute to new 
developments in America's space program, related industries, or other 
industries in the local area. This effort will build on and complement 
ongoing local and Federal economic and work force-development efforts. 
A plan is due to the President by August 15 of this year.
Conclusion
    I appreciate this committee's interest in and support for the U.S. 
human spaceflight program and the other important missions of NASA. 
Certainly there are challenges ahead in moving forward with the 
revamping of these efforts that I and the other witnesses are 
discussing with you today. But I am convinced that it is the best way 
forward and optimistic that we can get it done. I look forward to 
continuing to work with you and others in the Congress to that end. I 
would be pleased to respond to questions.

    The Chairman. Thank you, sir.
    And now the Administrator of NASA, Mr. Charles F. Bolden, 
Jr., who in fact a little over 24 years ago flew with one 
Senator Bill Nelson. The floor is yours, sir.

           STATEMENT OF HON. CHARLES F. BOLDEN, JR.,

                         ADMINISTRATOR,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Mr. Chairman and members of the Committee, 
thank you very much for the opportunity to appear today to 
discuss additional information about the President's Fiscal 
Year 2011 budget request for NASA, following the President's 
important speech at the NASA Kennedy Space Center in Florida. 
NASA is grateful for the support and guidance received from 
this committee through the years and looks forward to working 
with you to implement the President's bold new direction for 
the agency.
    Given that you have my detailed written statement, I will 
try to keep my remarks very brief this afternoon so that I have 
time for questions.
    But first, I would like to acknowledge the incredible 
contributions of my two astronaut colleagues and Norm Augustine 
who will be on the second panel. Both Neil and Gene, the first 
and last humans to set foot on the Moon, have dedicated their 
lives to the challenging and often unforgiving pursuit of space 
exploration and, in doing so, have improved the quality of life 
in America and inspired the next generation of explorers. And 
they continue to contribute by remaining engaged and providing 
their remarks on today's important topic of the future of human 
spaceflight. I appreciate their thoughts and ideas, and it was 
very beneficial to have had the opportunity to discuss their 
concerns over the past 3 weeks and to present them with a 
thorough brief on our plans for America's future in human 
spaceflight and exploration in a 2-hour brief last week in an 
attempt to allay some of their concerns.
    However, reasonable people can disagree, and so I must 
respectfully disagree with some of the remarks from the first 
panel in their prepared remarks.
    The President's Fiscal Year 2011 budget request is good for 
NASA because it sets the agency on a sustainable path that is 
tightly linked to our Nation's interests. During his visit to 
KSC, the President articulated a strong commitment to NASA's 
missions and future of U.S. human spaceflight exploration.
    The President also outlined an ambitious effort to foster 
the development of groundbreaking technologies; increase the 
number, scope, and pace of manned and unmanned space missions; 
make human spaceflight safer and more efficient; and help 
create thousands of new jobs. The President has laid out the 
goals and strategies for this new vision which includes a 
sequence of deep space destinations for human missions, 
progressing step by step, beginning with crewed flight tests 
early next decade of vehicles capable of supporting exploration 
beyond low-Earth orbit, a human mission to an asteroid by 2025, 
and a human mission to orbit Mars and return safely to Earth by 
the mid-2030s.
    With respect to the role of heavy lift in the future of 
human spaceflight architecture, the Fiscal Year 2011 budget 
request includes funds for NASA to conduct the important 
research and development and analysis necessary to make an 
informed decision on a heavy lift launch vehicle no later than 
2015.
    On May 3, NASA issued a request for information seeking 
general information regarding potential launch or space 
transportation architectures that will be used for planning and 
acquisition strategy development for current heavy lift 
planning activities.
    Regarding our plans for a restructured Orion, the President 
has directed me that NASA build on the good work already 
completed on the Orion crew capsule and focus the efforts to 
provide a simpler and more efficient design that would provide 
crew emergency escape from the space station and serve as part 
of the technical foundation for advanced spacecraft to be used 
in future deep space missions. This approach also will preserve 
a number of critical, high-tech industry jobs in key 
disciplines needed for our future deep space exploration 
program.
    We have put together a formulation team, including 
headquarters and center personnel, to develop a baseline 
approach that meets these requirements, balanced with other 
priorities proposed in the President's Fiscal Year 2011 budget 
request. This team will report to me within 3 weeks on how best 
to meet these requirements.
    Dr. Holdren has already talked to you about the workforce 
initiative. So I will not cover that, but I will say that the 
task force, which he mentioned which I co-chair with Secretary 
of Commerce Locke, will also explore future workforce and 
economic development activities that could be undertaken for 
affected aerospace communities in other states as appropriate, 
and we held the first meeting of that task force this morning.
    NASA expects to submit a revised Fiscal Year 2011 budget 
request to Congress in the near future that will identify 
funding requirements for the restructured Orion crew capsule, 
as well as funding requirements for the workforce transition.
    Finally, regarding the International Space Station's role 
in furthering research, technology, and innovation, this 
orbiting national lab represents a unique research capability 
which the United States and its partner nations can use to 
conduct a wide variety of research in biology, chemistry, 
physics, and engineering fields that will help us better 
understand how to keep astronauts healthy and productive on 
long-duration space missions. ISS can and will play a key role 
in the technology demonstrations and engineering research 
associated with exploration.
    Mr. Chairman, in conclusion, Americans and people worldwide 
have turned to NASA for inspiration throughout our history. Our 
work gives people an opportunity to imagine what is barely 
possible, and we at NASA get to turn those dreams into real 
achievements for all humankind. This budget gives NASA a road 
map to even more historic achievements as it spurs innovation, 
employs Americans in fulfilling jobs, and engages people around 
the world as we enter an exciting new era in space.
    I thank you again, Mr. Chairman, for your support and that 
of this committee. I would be pleased to respond to any 
questions you or other members of the Committee may have.
    [The prepared statement of Mr. Bolden follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear today to discuss additional information about the 
President's FY 2011 budget request for NASA, following the President's 
important speech at the NASA Kennedy Space Center (KSC) in Florida. 
NASA is grateful for the support and guidance received from this 
committee through the years and looks forward to working with you to 
implement the President's bold new direction for the Agency.
    The President's FY 2011 budget request is good for NASA because it 
sets the Agency on a sustainable path that is tightly linked to our 
Nation's interests. The President recognizes that what is truly needed 
for beyond low-Earth orbit (LEO) exploration are game-changing 
technologies; making the fundamental investments that will provide the 
foundation for the next half-century of American leadership in space 
exploration. In doing so, the President has put forward what I believe 
to be the most authentically visionary policy for human space 
exploration that we have had since President Kennedy challenged NASA to 
send humans to the Moon and return them safely back to Earth. At the 
same time, under the new plan, we will ensure continuous American 
presence in space on the International Space Station (ISS) throughout 
this entire decade and likely beyond, re-establish a robust and 
competitive American launch industry, launch more robotic probes into 
our solar system as precursors for human activity, invest in a new 
heavy lift research and development (R&D) program, and build a 
technological foundation for sustainable, beyond-LEO exploration, with 
more capable expeditions in lunar space, and human missions to near-
Earth asteroids, the Moon, Lagrange points, and, ultimately, Mars. NASA 
will embark on these transformative initiatives by partnering with the 
best in industry, academia and other government agencies, as well as 
with our international partners.
    At the request of the Committee, today I will provide additional 
details about pending revisions to the President's FY 2011 budget 
request for NASA. I will discuss NASA's progress in developing plans 
for the new exploration initiatives included in the FY 2011 budget 
request, including initial planned program assignments for major 
programs by Center. Additionally, my testimony will provide additional 
detail about three significant updates that were announced by the 
President when he visited KSC on April 15, 2010. NASA is working 
expeditiously to provide specific budgetary details to reflect these 
updates and we will share them with this Committee and other 
Congressional stakeholders as soon as we are able.
President Obama Visits KSC
    During his visit to KSC, the President articulated a strong 
commitment to NASA's mission and future U.S. human space exploration. 
The President also outlined an ambitious effort to foster the 
development of ground-breaking technologies; increase the number, 
scope, and pace of manned and unmanned space missions; make human 
spaceflight safer and more efficient; and help create thousands of new 
jobs. The President directed that NASA proceed to develop a crew rescue 
vehicle based on the Orion space-capsule to support emergency crew 
return requirements on the ISS, and providing a technological 
foundation for systems that can later take us beyond Earth's orbit. In 
addition to investing in transformative heavy-lift technologies, the 
President has called on NASA to select a basic rocket design, no later 
than 2015, and then begin to build it. The President also said that 
after decades of neglect, we will increase investment--right away--in 
other groundbreaking technologies that will allow astronauts to reach 
space sooner and more often, to travel farther and faster for less 
cost, and to live and work in space for longer periods of time more 
safely. And, the President laid out the goals and strategies in this 
new vision for NASA. Fundamentally, the exploration of space will be a 
sequence of deep-space destinations for human missions matched to 
growing capabilities, progressing step-by-step, beginning with crewed 
flight tests--perhaps a circumlunar mission--early next decade of 
vehicles capable of supporting exploration beyond LEO, a human mission 
to an asteroid by 2025, and a human mission to orbit Mars and return 
safely to Earth by the 2030s. Finally, the President committed to 
providing $40 million for workforce transition initiatives to aid 
Florida's Space Coast.
    NASA expects to submit a revised FY 2011 budget request to the 
Congress in the near future that will identify funding requirements for 
the restructured Orion crew capsule as well as funding requirements and 
authorization for workforce transition for Florida and potentially 
other locations.
Restructuring the Orion Crew Capsule
    Per the President's direction, we are going to build on the good 
work already completed on the Orion crew capsule and focus the effort 
to provide a simpler and more efficient design that would provide crew 
emergency escape from the ISS and serve as part of the technical 
foundation for advanced spacecraft to be used in future deep space 
missions. This approach also will preserve a number of critical high-
tech industry jobs in key disciplines needed for our future deep space 
exploration program.
    We have put together a formulation team including Headquarters and 
Center personnel to develop a baseline approach that meets these 
requirements, balanced with the other priorities proposed in the 
President's FY 2011 budget request. This team will report to me within 
3 weeks on how best to meet these requirements.
    I have directed the team to align this work so that it complements, 
and does not compete with, our commercial crew development effort. In 
this manner, we will simplify the requirements for potential crew 
service providers to the ISS by having the restructured Orion effort 
fulfill the important safety requirement of emergency escape system for 
astronauts on the ISS. I have also directed the formulation team to 
focus on innovative approaches to oversight, and believe that we can 
significantly reduce oversight requirements based on lessons learned in 
previous focused development flight programs. We must accomplish this 
activity more efficiently and effectively to maintain a healthy funding 
balance across our exploration priorities. And this will be done 
without reducing our commitment to safety for crew escape. The crew 
rescue mission has many fewer requirements than the deep space mission, 
providing design flexibility and reducing the system's lifecycle cost. 
Finally, the team must identify how this activity will align with the 
development efforts proposed in the Flagship Demonstration program as 
well as our other technology efforts so that investments in these 
programs can be leveraged to the greatest extent possible.
    The funding for this restructuring will come within NASA's top-line 
request released in February. The out year funding requirements will be 
refined as part of the President's FY 2012 budget submission.
Heavy-Lift Technologies
    During his visit to KSC, the President specifically recognized the 
need for a heavy-lift launch capability to carry humans beyond LEO by 
requiring a decision on a vehicle design no later than 2015. Such a 
decision would include setting performance goals, identifying lift 
capability and selecting the general vehicle design--work that will 
ultimately lay the path for launching a spacecraft for crewed missions 
into deep space.
    The FY 2011 budget request includes funds for NASA to conduct the 
important R&D and analysis necessary to make an informed decision on a 
heavy-lift vehicle no later than 2015. This effort will primarily focus 
on the development of a U.S. first-stage hydrocarbon engine for 
potential use in future heavy lift (and other) launch systems, as well 
as basic research in areas such as new propellants, advanced propulsion 
materials manufacturing techniques, combustion processes, propellant 
storage and control, and engine health monitoring. Additionally, NASA 
will initiate development and testing of in-space engines. Areas of 
focus could include a liquid oxygen/methane engine and low-cost liquid 
oxygen/liquid hydrogen engines. This work will build on NASA's recent 
R&D experience in this area, and the test articles will be viewed as a 
potential prototype for a subsequent operational engine that would be 
re-startable and capable of high acceleration and reliability. These 
technologies will increase our heavy-lift and other space propulsion 
capabilities and significantly lower operations costs--with the clear 
goal of taking us farther and faster into space consistent with safety 
and mission success criteria. In support of this initiative, NASA will 
explore cooperative efforts with the Department of Defense and also 
develop a competitive process for allocating a small portion of these 
funds to universities and other non-governmental organizations. This 
research effort along with many of our new technology initiatives will 
be coordinated with the broader Agency technology initiative led by 
NASA's new Chief Technologist.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges related to liquid 
chemical propulsion systems; as well as innovative methods to manage a 
heavy-lift development program to include effective and affordable 
business practices. The RFI is open to the broad space community, 
including commercial, other Government agencies and academia. 
Information obtained from the RFI will be used for planning and 
acquisition-strategy development for current heavy-lift planning 
activities, funded at a total of $100 million in the FY 2010 
Consolidated Appropriations Act (P.L. 111-117).
Assistance for the Florida Space Coast
    The men and women who work in the Space Coast's aerospace industry 
are some of the most talented and highly trained in the Nation. It is 
critical that their skills are tapped as we transform and grow the 
country's space exploration efforts. The 2004 decision to end the 
Shuttle means that approximately 6,000 jobs need to be transitioned 
into the new space strategy and related industries. Recognizing the 
concerns of our dedicated Shuttle workforce as they conclude this 
remarkable program and look forward to transitioning to new work, the 
President has announced a $40 million initiative to develop a plan for 
regional economic growth and job creation for the Florida Space Coast. 
On May 3, 2010, the President issued a Memorandum directing the 
establishment of the Task Force on Space Industry Workforce and 
Economic Development. The task force is charged with developing, in 
collaboration with local stakeholders, an interagency action plan to 
facilitate economic development strategies and plans along the Space 
Coast and to provide training and other opportunities for affected 
aerospace workers so they are equipped to contribute to new 
developments in America's space program and related industries. They 
will also explore future workforce and economic development activities 
that could be undertaken for affected aerospace communities in other 
States, as appropriate. The Secretary of Commerce and I will serve as 
Co-Chairs. Other team members will include: the Secretary of Defense; 
the Secretary of Labor; the Secretary of Housing and Urban Development; 
the Secretary of Transportation; the Secretary of Education, the Chair 
of the Council of Economic Advisors; the Director of the Office of 
Management and Budget; the Administrator of the Small Business 
Administration; the Director of National Intelligence; the Director of 
the Office of Science and Technology Policy; the Director of the 
National Economic Council; and the heads of other Executive agencies, 
as needed. As directed, the team will report its recommendations to the 
President by August 15. The $40 million for this initiative will be 
taken from the funds requested for Constellation transition in the 
original FY 2011 Presidential budget request.
    This interagency group's recommendations will build on the 
Administration's ongoing efforts in the KSC region. The Department of 
Labor is already planning a pilot program to better assist the region's 
workers, including those highly-skilled workers who work in the 
aerospace industry, through efforts to establish one-stop local 
transition centers for affected workers where they can receive 
coordinated local, state, and Federal workforce assistance tied to 
economic development efforts; and the designation of a single Federal 
point-of-contact for affected areas.
    To further facilitate these efforts, the Department of Commerce's 
Economic Development Administration (EDA) is prepared to support a 
comprehensive economic adjustment strategy for the Kennedy Space Center 
economic region. With funding provided through NASA, the EDA will 
provide both financial and technical assistance to start implementing 
those plans and promote economic development in the region through such 
activities as infrastructure upgrades and improvements, entrepreneurial 
networks, and skill- training facilities and equipment. The exact mix 
of activities will depend on the recommendations and request of local 
entities across the region.
    In addition, on April 30, 2010, the Department of Labor announced a 
$1.2 million grant to assist approximately 200 workers affected by 
layoffs at ATK Launch systems in Corinne, Utah, in connection with the 
transition of the Space Shuttle and Constellation programs.
NASA Prepares to Implement the FY 2011 Budget Request
    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the FY 2011 budget. In April, NASA outlined for the Committee the 
Agency's planned major program assignments across the Agency's Centers 
for new or extended activities proposed as part of the President's FY 
2011 budget request. These planned assignments build on the deep 
knowledge and expertise that NASA has built up over five decades, 
recognize the wealth of experience, commitment, and expertise resident 
at the NASA Centers, and expand upon the strengths at each Center.
    I wish to emphasize that establishment of program offices and 
initiation of effort in support of new or extended activities for this 
proposed new work is contingent upon Congressional approval of the 
President's FY 2011 request for these activities. These planned program 
assignments will enable NASA to engage workforce at the Agency's 
Centers in formulation activities for the array of program initiatives 
in Science, Aeronautics, Space Technology, Exploration, and Space 
Operations reflected in the President's FY 2011 request. While we will 
be developing details on the specific numbers of employees at our 
Centers that will be assigned to new program offices and activities, 
these planned assignments are intended to provide the Committee 
additional detail regarding the depth and scope of the President's FY 
2011 proposed budget plan.
    Planned major program assignments for elements contained in the FY 
2011 budget, by Center, follow:

  <bullet> Johnson Space Center, Texas

    <ctr-circle> Exploration/Flagship Technology Demonstrations, 
            Manager

    <ctr-circle> Exploration/Commercial Crew Development, Deputy 
            Program Manager

    <ctr-circle> Exploration/Commercial Cargo Development, Manager

    <ctr-circle> Exploration/Human Research, Manager

    <ctr-circle> ISS, Manager

  <bullet> Kennedy Space Center, Florida

    <ctr-circle> Exploration/Commercial Crew Development, Manager

    <ctr-circle> Space Operations/21st Century Launch Complex, Manager

    <ctr-circle> Exploration/Flagship Technology Demonstrations, Deputy 
            Program Manager

    <ctr-circle> Space Shuttle/Completion of Manifest, Manager

  <bullet> Marshall Space Flight Center, Alabama

    <ctr-circle> Exploration/Heavy Lift and Propulsion R&D, Manager

    <ctr-circle> Exploration/Robotic Precursor Program, Manager

    <ctr-circle> Space Technology/Crosscutting Capability 
            Demonstrations/Technology Demonstration Missions, Manager

    <ctr-circle> Space Technology/Centennial Challenges Program, 
            Manager

  <bullet> Stennis Space Center, Mississippi

    <ctr-circle> Exploration/Heavy Lift and Propulsion R&D, First Stage 
            and Upper Stage Rocket Testing

    <ctr-circle> Exploration/Commercial Crew Development, Engine 
            Testing for Commercial Vehicles

  <bullet> Glenn Research Center, Ohio

    <ctr-circle> Exploration/Exploration Technology Development and 
            Demonstration, Manager

    <ctr-circle> Space Technology/Early Stage Innovation/Research 
            Grants

    <ctr-circle> Aeronautics Research/Integrated Systems Research 
            Program, support

  <bullet> Langley Research Center, Virginia

    <ctr-circle> Space Technology/Game Changing Technology/Game 
            Changing Development, Manager

    <ctr-circle> Climate Initiative: SAGE III; CLARREO (managed jointly 
            with Goddard); Venture Class

    <ctr-circle> Aeronautics Research/Integrated Systems Research 
            Program and Airspace Systems Program, support

  <bullet> Dryden Flight Research Center, California

    <ctr-circle> Space Technology/Crosscutting Capability 
            Demonstrations/Flight Opportunities, Manager

    <ctr-circle> Aeronautics Research/Integrated Systems Research 
            Program and Airspace Systems Program, support

  <bullet> Ames Research Center, California

    <ctr-circle> Exploration/Precursor Robotic Missions/Exploration 
            Scouts, Manager

    <ctr-circle> Space Technology/Game Changing Technology/Small 
            Satellite Subsystem Technologies, Manager

    <ctr-circle> Space Technology/Crosscutting Capability 
            Demonstrations/Edison Small Satellite Demonstrations, 
            Manager

    <ctr-circle> Aeronautics Research/Integrated Systems Research 
            Program and Airspace Systems Program, support

  <bullet> Goddard Space Flight Center, Maryland

    <ctr-circle> Joint Polar Satellite System (restructuring NPOESS), 
            procurement structure modeled after past successful 
            programs

    <ctr-circle> Climate Initiative: ICESat-2; CLARREO (managed jointly 
            with Langley); DESDynI (managed jointly with Jet Propulsion 
            Laboratory); Earth Systematic Missions Program

  <bullet> Jet Propulsion Laboratory, California

    <ctr-circle> Climate Initiative: SMAP; DESDynI (managed jointly 
            with Goddard); GRACE, OCO-2

    Following the release of the FY 2011 budget request, NASA 
established study teams within the Exploration Systems Mission 
Directorate (ESMD) to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation Program and to plan for the 
implementation of the new initiatives in the Exploration program. The 
work undertaken by these teams is a necessary part of that planning. 
Following is a brief summary of the additional details developed for 
each initiative, as ``point of departure'' plans to support FY 2011 
budget implementation, once the budget is approved. Please note these 
are preliminary ESMD plans that may need to be modified following 
finalization of Agency plans regarding the restructuring of the Orion 
crew capsule.

  <bullet> Flagship Technology Demonstrations: The next generation of 
        capabilities key to sustainably exploring deep space will be 
        demonstrated through four proposed missions: advanced space 
        propulsion in 2014, in-space propellant and fuel transfer in 
        2015, light weight/inflatable modules in 2016, and aero-assist 
        in 2017. Autonomous operations and advanced life support 
        capabilities will also be tested on these missions. Detailed 
        definition of each mission's content is currently under way.

  <bullet> Heavy Lift and Propulsion Technology: Planned technology 
        investments will lead to a demonstration of an in-space engine 
        in 2015, development of a first stage propulsion system by 
        2020, and maturing other foundational propulsion technologies 
        to support a heavy lift vehicle decision in the 2015 ti 
        meframe. NASA's efforts will be primarily focused on a LOX/RP 
        first stage and either a LOX/methane or LOX/hydrogen in-space 
        engine. Additional research will be dedicated to analysis and 
        trades regarding fuel types, performance requirements, and 
        vehicle architectures.

  <bullet> Exploration Robotic Precursors: A series of annual 
        exploration robotic precursor missions is being planned, 
        beginning with launch of a Near-Earth-Orbit (NEO) mission in 
        2014, followed by a lunar lander in 2015, and two Mars missions 
        in 2016 and 2018, respectively. In addition, smaller robotic 
        scout missions will be launched every 12-18 months to support 
        reconnaissance, evaluate hazards, and develop systems and 
        operations in support of future human exploration.

  <bullet> Enabling Technology Development and Demonstration: Enabling 
        technology will advance fundamental technologies in 10 
        portfolio areas that will lead to ground and flight 
        demonstrations in lunar volatiles, high power electric 
        propulsion, autonomous precision landing, human exploration 
        tele-robotics, fission power systems, and other areas. The 
        flight demonstrations will be done as part of flagship 
        demonstrations, robotic precursor missions, or utilizing the 
        ISS, ground tests and analogs.

  <bullet> Human Research: Through research and technology development, 
        the goal of the Human Research Program is to reduce the highest 
        risks to crew health and performance for space exploration 
        missions. Increased investments will be made in the fields of 
        biomedical technology, space radiation research, and behavioral 
        health research. There are also plans to make increased use of 
        the ISS facilities.

  <bullet> Commercial Crew: NASA is continuing to define plans to 
        expedite and improve the robustness of ISS crew and cargo 
        delivery. In addition, NASA is developing a plan that supports 
        the development of commercial crew transportation providers to 
        whom NASA could competitively award crew transportation 
        services. Solicitations for commercial crew transportation 
        development will provide opportunities for both established and 
        traditional aerospace companies as well as emerging 
        entrepreneurial companies. Related to this activity, this 
        summer, NASA plans to release a Request for Information to seek 
        industry feedback on our human rating requirements.

  <bullet> Constellation Transition: The team is leveraging expertise 
        from across the Agency to develop a rapid and cost effective 
        ramp-down plan that will free the resources required for new 
        programs. As part of the early characterization and integrated 
        planning effort, this team has initiated a broad survey of 
        current work force, contracts, facilities, property, security, 
        knowledge capture, information technology, and other government 
        agency interface issues to determine what infrastructure and 
        hardware could be used by the new programs and projects. The 
        transition plan will outline three phases as part of an action 
        plan for initial deliverables: Near-term actions, transitioning 
        of Constellation elements, and transition of assets/resources 
        to new Exploration focus areas and other NASA programs, where 
        appropriate.

    NASA is taking prudent steps to plan for the new initiatives 
included in the FY 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies. NASA is eager to 
receive external input from industry, academia, and other partners, and 
is accomplishing this via a series of RFIs and industry workshops 
conducted this spring and into the summer. Doing so will ensure that 
NASA receives important feedback from our space partners before it 
begins to finalize its implementation plans for the new technology 
demonstrations and human spaceflight systems development activities 
that will be supported by the FY 2011 budget, once approved by 
Congress. During CY 2010, NASA plans to issue a series of program 
formulation documents seeking input from the broader space community. 
The following are tentative timeframes for these activities:

  <bullet> Flagship Technology Demonstrations: RFI in May/June.

  <bullet> Heavy Lift and Propulsion Technology: RFI issued May 3, 
        2010; Broad Agency Announcement (BAA) in May/June.

  <bullet> Exploration Robotic Precursor Missions: RFI in May/June.

  <bullet> Enabling Technology Development: RFI issued May 7, 2010; BAA 
        in June/July.

  <bullet> Human Research Program: BAA in July

    The first major public discussions about NASA's FY 2011 planned 
activities will occur at a two-day Exploration Enterprise Workshop 
scheduled for May 25-26 in Galveston, Texas. The workshop will bring 
together a broad community of stakeholders from industry, academia, and 
the Federal Government to engage in discussions related to strategy 
building, development, and the implementation of the new plans for 
human and robotic exploration in space.
    The workshop will focus on the President's FY11 budget request for 
NASA Exploration. The Agency has completed the initial phase of 
planning for the new technology and robotic programs and will provide 
insight into progress to date. The objectives of the workshop are to:

  <bullet> Describe and discuss the activities planned for inclusion in 
        the new programs.

  <bullet> Discuss NASA Center proposed Program assignments.

  <bullet> Solicit feedback, ideas and suggestions from interested 
        parties.

  <bullet> Prepare for the next steps once the new programs are 
        implemented.

    In addition, NASA has also established study teams to plan for the 
implementation of the new initiatives related to the ISS Augmentation, 
21st Century Space Complex and Space Technology. Additional information 
on these planning efforts as well as planned RFIs, workshops, and 
preliminary studies are outlined below.

  <bullet> ISS Augmentation: The ISS program is reviewing functionality 
        enhancements that will make the space station more capable and 
        efficient, including: upgraded environmental systems and 
        communications, techniques for saving space and improving the 
        use of pressurized volume, tools for optimizing flight- and 
        ground-crew time, upgrading and expanding payload operations, 
        enhancing EVA and robotics use on Station, and reducing the 
        complexity of international interfaces.

    <ctr-circle> NASA will initiate an independent organization, as 
            recommended by the Augustine Committee and the National 
            Research Council that will support the space station 
            research community.

  <bullet> 21st Century Space Launch Complex: NASA has developed a list 
        of potential project ideas with preliminary estimates to be 
        used as one potential source of solutions to customer needs as 
        they are identified. These initial focus areas will be adjusted 
        as customer needs are better understood: (1) Expanding 
        capabilities to support commercial launch providers; (2) 
        Environmental remediation; (3) Enhancing payload processing 
        capabilities; and, (4) Supporting the modernization of the 
        launch range capabilities.

    <ctr-circle> This month, NASA will release an RFI to get a first-
            hand understanding of investments that would be most useful 
            in support of launch and related activities in order to 
            help the Agency prioritize near-term projects.

  <bullet> Space Technology: NASA's Space Technology initiative under 
        the Office of the Chief Technologist (OCT) will develop and 
        demonstrate advanced space systems concepts and technologies 
        enabling new approaches to enhance NASA's current mission set 
        and enable future missions. Planning teams continue to make 
        significant progress: an internal technology governance plan 
        has been approved; an Agency-level technology road mapping 
        activity is planned to begin in July; and, approved technology 
        program plans for Early Stage Innovation, Game Changing 
        Technology, and Crosscutting Capability Demonstrations will be 
        completed by the end of June.

    <ctr-circle> NASA will issue a Crosscutting Capability 
            Demonstrations RFI in late May 2010. Game Changing 
            Technology Industry Day will occur in late June 2010. Early 
            Stage Innovation NASA Research Announcements (NRA's) are 
            targeted for late June 2010. An RFI soliciting potential 
            topics for the proposed Space Technology Graduate 
            Fellowship program has been released to the NASA Centers 
            and Federal Research Laboratories.

    Finally, NASA has established the Human Exploration Framework Team 
(HEFT) to serve as a cross-Agency planning activity. The team is being 
led by the Exploration Systems Mission Directorate and staffed with 
technical leaders from across NASA Centers. The team is focused on 
developing and reviewing the integrated set of requirements and 
technologies required for future human spaceflight missions to many 
destinations, including Mars. As part of its broad integration charter, 
HEFT will develop implementation recommendations on the performance and 
pacing requirements for the technologies needed for future human 
exploration missions using ``design reference missions,'' or DRMs. 
These DRMs will be the basis for validating capabilities and missions 
for 5, 10-, and 15-year horizons, with milestones including crewed 
missions beyond the Moon into deep space by 2025, sending astronauts to 
an asteroid, and eventually landing on Mars. NASA expects to have 
initial products from the HEFT team this summer.
Extension and Enhanced Use of the International Space Station
    A key element of America's future in space is the ISS that is due 
to be completed this year. As of May 2009, the ISS is able to support a 
six-person permanent crew. The three major science labs aboard ISS were 
completed in 2009 with the delivery of the Exposed Facility of the 
Japanese Kibo module. The ISS represents a unique research capability 
which the United States and its partner nations can use to conduct a 
wide variety of research in biology, chemistry, physics and engineering 
fields that will help us better understand how to keep astronauts 
healthy and productive on long-duration space missions. If Congress 
approves the FY 2011 budget request, NASA will be able to fully utilize 
the ISS and increase its capabilities through upgrades to both ground 
support and onboard systems. Importantly, this budget extends 
operations of the ISS, likely to 2020 or beyond.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The FY 2011 budget request for ISS reflects increased 
funding to support the ISS as a National Laboratory in which this 
latter type of research can be conducted. NASA has two MOUs with other 
U.S. Government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS.
    ISS can also play a key role in the technology demonstrations and 
engineering research associated with exploration. Propellant storage 
and transfer, life support systems, and inflatable technology can all 
benefit by using the unique research capabilities of ISS. In addition 
to supporting a variety of research and development efforts, the ISS 
will serve as an incubator for the growth of the low-Earth orbit space 
economy.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, long-term, 
international effort; providing critical data regarding human long-
duration spaceflight; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
Conclusion
    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the Committee on implementation of the FY 2011 budget request.
    Chairman Rockefeller, thank you for your support and that of this 
committee. I would be pleased to respond to any questions you or the 
other members of the Committee may have.

    The Chairman. Thank you very much, Administrator Bolden.
    I will start the questions and I will ask one which I hope 
each of you will answer.
    A variety of priorities have been suggested, and I 
suggested in my opening statement what we did by definition 
does not have to be what we always continue to do. I did, 
however, heavily mention human spaceflight.
    But, Dr. Holdren, starting with you and then to you, Mr. 
Administrator, how would you list, if you are looking at the 
future, the budget requirements and the needs of the Nation and 
the world, the priorities of NASA?
    Dr. Holdren. Well, Mr. Chairman, as I have already 
indicated, I think NASA has a number of important 
responsibilities, important areas of activity, and we really 
have to figure out, within the constraints of a limited budget, 
how to advance all of the most important ones.
    Clearly, human space exploration is an important element 
for the reasons I mentioned at the beginning of my testimony 
and for others we could elaborate. It has been and will 
continue to be an immense inspiration to every new generation 
of American young people, bringing more of them into science, 
math, and engineering, strengthening our economy, enabling us 
to address a wide variety of other issues, and it is very 
important to the most fundamental of human drives, which is to 
understand and explore the universe around us.
    At the same time, we have to maintain the Earth observation 
activities of NASA. We have to maintain the aeronautics 
activities of NASA, including its contributions to a next-
generation air traffic control system to green aviation and 
much more. We have to maintain the contributions of NASA to the 
non-human exploration in the sense of space telescopes, in the 
sense of robotic missions. It really is not possible to say we 
can dispense with any of these, and I believe that under the 
President's plan we can, indeed, nurture all of them in ways 
that will move us forward as a society.
    The Chairman. If I am talking about medical and scientific 
and other kinds of research, those would fall somewhere below?
    Dr. Holdren. No, no. Absolutely not. I am talking about 
research. We need to do more research in understanding our 
place in the universe. We need to do more fundamental science 
using the capabilities of NASA. We need to use the capabilities 
of NASA to do more advanced technology development, some of 
which will be useful directly in the exploration program and 
much of which will spin off into immensely valuable economic 
contributions across our society. What I am saying, sir, is we 
need to maintain all of those major functions of NASA, and I am 
saying that we believe we can do it with the budget that the 
President has proposed for Fiscal Year '11 and going forward.
    The Chairman. Thank you.
    Mr. Bolden. Mr. Chairman, ironically I woke up early this 
morning and I went online and I listened to the White House 
tapes from November 21, 1962, and it was a heated discussion 
between President John Kennedy and NASA Administrator James 
Webb who, by the way, was a Marine and a pilot. I did not know 
that until this morning. But the discussion was about the 
question you just asked. And President Kennedy asked 
Administrator Webb is lunar landing the top priority for NASA, 
and Administrator Webb said no. It is science. It is technology 
development. And for quite some time, they went back and forth 
arguing about it.
    It is easy for me to answer your question. The top priority 
for NASA in my estimation is human spaceflight development and 
pushing us beyond the bonds of low-Earth orbit. Everything else 
is second and it is only through the execution of human 
spaceflight that we can open up the avenues making it available 
for us to do research and development. It is the desire to go 
to places like Mars that will draw on people, companies around 
the country, academia, if we can get them the money, to develop 
the capabilities that will allow us to go places like that.
    Short of wanting to send humans beyond the bounds of low-
Earth orbit, we have a number of other Federal agencies that 
can do my job. So that is a personal--you asked me a personal 
question. I gave you a personal opinion.
    The Chairman. And I appreciate it and I thank you.
    Senator Hutchison?
    Senator Hutchison. Well, thank you, Mr. Chairman.
    I have listened to both of you and you have focused on the 
science and going beyond low-Earth orbit as the priorities, and 
I agree with you. In fact, General Bolden, in your testimony, 
you talk about the use of the space station, but you talk about 
what we can learn to make it healthier and better for 
astronauts and others to go into space, which I think is 
important.
    But there is also the vast field of medical technology that 
we have already gained immensely from space exploration, and 
there is more that is going on right now. NASA and NIH, as you 
know, have a memorandum of understanding. NIH is looking at the 
treatment of causes of cancer, the diagnosis of heart, blood, 
vessel, lung, and blood diseases, cell and organism aging, 
reducing the burden of arthritis, and the development of new 
biomedical imaging, things that can only be done in the 
microgravity conditions.
    The space station is such a key component of the research 
that, Dr. Holdren, you are championing and I know, General 
Bolden, you also say is part of your focus. Yet, we cannot have 
a space station that will be productive, that will be stable, 
that we can be sure will fulfill the hundred billion dollar 
investment that has already been made in that vehicle without 
assurance that we can get people up there, that we can have the 
cargo that might be needed in the later years because it has 
been extended.
    So I come back to the question of, if you do not look at 
the stable source of getting people there, how can you say the 
mission and goal of science and productivity is going to be 
achieved? That is my concern. If the Soyuz is out of pocket or 
if they raise their rates because they are the only means that 
we have so that it is so prohibitive, we could be spending the 
same money on our own capabilities and learn from that much 
more than just renting space on the Soyuz. Or if we have some 
blowup in the commercial companies that are not able to fulfill 
their contract, they are untested--you are putting all of our 
dreams and hopes and taxpayer dollars into this commercial 
investment.
    What are you going to do if there are overruns, which there 
already are? Are you intending to have the taxpayers then have 
no choice but to go forward and spend more money? Why not 
continue doing it in a tried and true, proven, 50-year recorded 
entity, which is NASA? Why have you gone on this tack where you 
are putting so much emphasis on untested sources to assure that 
the space station will be utilized to its full potential?
    Mr. Bolden. Senator, if I may say, there is only one 
untested source, and it is not really untested. Of the two 
competitors right now in the COTS program, it is SpaceX. 
Orbital is a very successful space company. They have flown 
Pegasus and a number of other spacecraft for many years. They 
have flown payloads to orbit. They know what they are doing. 
Orbital was the subprime on the Launch Abort system that we 
just had an incredible success on out at White Sands. So if I 
want to say why do I have confidence in them, I have confidence 
in them because they have demonstrated their ability to put 
things in space.
    When you talk about exploration and research on the 
International Space Station, I could not agree with you more. I 
am very confident and comfortable, however, with my partners, 
the Russians, because they have the best record of safety and 
reliability in terms of access to space. They have now flown, I 
think, 90 missions without an accident or loss of life. There 
is no other person, there is no other source of access to low-
Earth orbit that can match that record.
    And the last thing I will say is as good as Energia is and 
Roscosmos, I defy anyone who says that American industry is not 
as good or better than they are. So I have to be confident that 
Orbital, SpaceX, McDonnell Douglas--not even around anymore--
Boeing, the other American manufacturers can match, if not 
exceed, that of Energia. I am confident that American industry 
is better than Russian industry. And I am happy with what the 
Russians do.
    Dr. Holdren. Could I add one----
    Senator Hutchison. I could not agree more. Go ahead.
    Dr. Holdren. The one comment I wanted to add to that is 
just to remind folks that all of the rockets and all of the 
spacecraft that we have been using from the beginning of the 
space era have been built by the private sector. What we are 
talking about is changing the acquisition model.
    Senator Hutchison. But here is the key. It is what I was 
going to say. It is not that we will not rely on private 
contractors. Of course, we will. But it will be under the 
auspices and control of NASA and their tried and true 50 years 
of experience, not giving them $6 billion, which is what is in 
the President's proposal, and just saying, you go do this, 
without all of the other aspects, the training, the testing, 
and the mission control. There is so much more than just 
building the rocket or building half of the Orion. It has to 
all fit together.
    What my concern is, is that you are terminating the 
Constellation. In your budget you have $2.5 billion to 
terminate. That is the termination, and there are reports all 
over the place that you are terminating contracts or that you 
are making it essential that they self-terminate. For $2.5 
billion, we could have another Space Shuttle. We could spread 
out the Space Shuttle for that over a year. You could have two 
in a year. So I am just concerned about the priorities and the 
control.
    And I am way over time, and I appreciate it, Mr. Chairman. 
I know we will have a lot of time to discuss this. Thank you.
    The Chairman. Do you want to respond?
    Dr. Holdren. I am going to make one statement that 
Administrator Bolden is probably too modest to make. Safety 
will remain under the oversight of NASA. This gentleman on my 
left was in charge of safety for the astronaut corps when he 
was an astronaut. He knows how important that is. While Charlie 
Bolden is Administrator of NASA, there is going to be no 
shortfall in the oversight of the private sector in delivering 
astronauts to Earth orbit in terms of safety. I just wanted to 
make that one point because it has come up from time to time.
    Senator Hutchison. Mr. Chairman, let me just make one quick 
point. I am not against the private sector. I am just against 
the private sector being the only source of this mission.
    The Chairman. Senator Nelson?
    Senator Nelson. And, Senator Hutchison, I think that is a 
good point. Space is a very unforgiving kind of environment, 
and NASA has always run the programs being built by 
contractors, not contractors running the programs with 
oversight of NASA. Now, that is a new way of doing business, 
Dr. Holdren.
    Dr. Holdren. Yes.
    Senator Nelson. Needless to say, there are some people who 
question the wisdom of that, but the fact is that if it does 
not work or if it gets extended way out, then we do not have a 
backup system, save for our partners, the Russians. But they 
have a limited capability of getting stuff up and back with the 
size of the Soyuz.
    I want to get into the normal decisionmaking process 
because normally what happens is NASA sends to the Office of 
Management and Budget by November their budget, their suggested 
budget. Normally OMB then sends their iterations back to NASA 
for NASA's commentary. But that did not happen this year. 
Instead, the pass-back from OMB came right at the time of the 
announcement of the President. And as you know, the President 
had to go down to the Kennedy Space Center and change some 
things because of the mistakes that were made in the rollout 
which unfairly characterized the President as an opponent of 
human spaceflight, of which this Senator knows him to be an 
avid proponent.
    So, Dr. Holdren, I want to ask you, when OMB came back, did 
OMB consult you in the final determinations of the NASA budget? 
When I say you, I am talking about your organization.
    Dr. Holdren. The answer to that in brief is yes, 
absolutely, but let me answer the question in a little more 
detail.
    As you know, Senator Nelson, this was not an ordinary year. 
It was a year in which a determination was made after receipt 
of the Augustine report that really fundamental changes in the 
priorities and the structure of NASA's human spaceflight 
program going forward were going to be necessary. And of 
necessity, the process of figuring out what those would be had 
to be integrated with the Fiscal Year 2011 budget process, and 
that is the way it was done.
    There have been a number of suggestions, including one that 
we heard in one of the opening statements, that neither I nor 
the NASA Administrator was involved in this process. I can 
assure you that the President's decision in this matter was not 
hasty and it was not lacking in input from a wide range of 
well-informed advisors. Those included me----
    Senator Nelson. Let me interrupt you because I am down on 
limited time here.
    Dr. Holdren, when did the NASA Administrator--when was he 
consulted in the period of time, 2 weeks, before the rollout of 
the budget?
    Dr. Holdren. Senator, I do not want to get into the 
internal pre-decisional deliberations and how they took place 
in detail. You and I both know that I cannot do that.
    Senator Nelson. OK, but let me ask you this. Let me ask you 
this. Were any of the center directors in NASA consulted?
    Mr. Bolden. Senator Nelson, may I answer the question, if 
it is possible? Because I think I know the answer better than 
Dr. Holdren in this particular case. Beginning in--I became the 
NASA Administrator in July. Beginning in August--and there is a 
very smart young man who is sitting behind you on your right 
who was my brain, my strategic brain, by the name of Tom 
Cremins, and he will tell you that beginning in August, we had 
a periodic series of strategic planning meetings among the 
senior leadership in NASA, which included the center directors, 
the associate administrators, and every senior leader in NASA. 
And this went on for a number of months.
    And during that period of time, because I am a Marine and I 
flew the Space Shuttle where you know we do disaster training, 
we discussed every potential outcome of the budget. And I spent 
probably a month where I asked everybody to look at the worst 
case scenario which was, you know, what happens if everything 
goes away and we get nothing and we have to start from scratch. 
We knew that would not be good, but we determined that we in 
NASA, because we know how to do things, could recover from 
that.
    So center directors, associate administrators, and senior 
leadership of NASA has been involved in the deliberations that 
led to our submission of our budget proposal since August.
    As Dr. Holdren has said, because the results from the 
Augustine committee were delayed from when we thought they 
would come, then we all found ourselves very late in the 
process in doing things. And as I have said to most of you when 
I have come to talk to you, I accept the blame. I am 6 months 
behind, conservatively, where I would have been in a normal 
budget process. We would have had discussions with members and 
their staffs back in the fall. We could not do that because 
Augustine came out and we went back to the drawing board again 
and continued to discuss.
    I provided lots of input to the President over a period of 
time. As I have said before, it is my budget. It is my plan, 
and I am here to defend it because I think it is the right 
thing for us to do.
    Dr. Holdren. I would like to say one more word to finish my 
answer, if I may, with your permission.
    The President heard from a lot of people in this process. 
He heard from me. He heard from Administrator Bolden. Senator 
Nelson, he heard from you. That does not mean that he took 
everybody's advice, but he did hear it and he weighed it. And 
then as Presidents must, he arrived at a position that balanced 
all of the relevant considerations. And my own view is that out 
of that process, he got to the best and most balanced program 
for NASA, including its human spaceflight dimension that the 
country can afford.
    The Chairman. Thank you, Senator Nelson.
    Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Bolden, as you know, a lot of our concerns are about 
the capability of the commercial sector to do what we are 
asking them to do on time, on budget, and putting, essentially, 
all our eggs in one basket.
    It was reported to me in the conference call with Mr. 
Armstrong and Captain Cernan last week that you had--I think 
you referred to the call itself--for a couple hours you told 
them you would, ``do whatever it takes,'' to make commercial 
work including, ``bailing them out,'' even if that would mean, 
``a bigger bailout than Chrysler and GM.'' What did you mean by 
that?
    Mr. Bolden. I am not sure I said that, Senator. I am not 
sure who was in the room.
    You know, as I have always said, I will do everything in my 
power to facilitate the success of the commercial entities in 
access to low-Earth orbit. I have to have that. The Department 
of Defense has to have it. Our intelligence community has to 
have it.
    The budget today does not allow me to continue to build and 
operate in low-Earth orbit if I want to go explore. The 
contingency that I continue--I am a contingency planner. You 
know, I have to look at the possibility that the commercial 
sector may have difficulty, and we will do everything in my 
power to facilitate their success. So that is what I meant when 
I said anything about our----
    Senator Vitter. Mr. Bolden, what I have read is more 
specific and different than what you just said. Did you use the 
sort of language I used?
    Mr. Bolden. I do not remember using the sort of language 
you used. I do not remember that. This was just days ago.
    Senator Vitter. OK, well, it made quite an impact on other 
folks on the conversation, and it raised my concerns at least.
    Mr. Bolden. Senator, I always have people talk about 
conversations that I have had, and you know, I am involved in 
the conversation and I tell you what I said. I am not sure who 
else was in the room. I know who was in the room with me, and I 
know who was on the line with Gene and Neil.
    Senator Vitter. OK.
    Mr. Bolden. Unless someone was----
    Senator Vitter. No. I am talking about direct participants 
who were taking notes.
    As we sit here, do you think the commercial program is 
likely to stay on timetable and on budget?
    Mr. Bolden. I think we are going to stay pretty much on 
timetable. If we go exactly the way that the schedule is laid 
out right now, it will be the first time in the history of any 
endeavor involving space that everybody that has made it on 
time. I expect that they will have technical difficulties and 
we will help them through them. They have already had some 
technical difficulties, as we do, and we work through them.
    Senator Vitter. OK. In light of the continuation of Orion, 
why is it that NASA is taking actions which would constrain the 
funding of the program by shifting the termination liability 
costs onto the program, which is not the norm? I understand 
that is occurring in this case. That is not the norm, and there 
has been no decision by Congress in terms of funding.
    Mr. Bolden. Senator, the termination liability is a factor 
that is in the contract of every supplier that NASA uses. It 
always has been. If you are referring to my letter, I just 
reminded them to read their contracts.
    Senator Vitter. OK. Did you send the letter to the Hubble 
contractors or to the Webb telescope contractors? Did you send 
that letter to them?
    Mr. Bolden. Senator, we did not have to send a letter to 
the Hubble contractors because they delivered without any 
problems. And in terms of James Webb, we continue to be 
constantly exercising oversight of them because I think as all 
of you know, it has been a fiscal challenge for us and it 
remains a fiscal challenge.
    Senator Vitter. But are the termination liability costs 
being shifted onto the program? It is my understanding they 
are, which is not normal procedure. It is my understanding this 
is the case because of the Administration's plan as opposed to 
other----
    Mr. Bolden. Congressman, the responsibility for termination 
liability lies with the company. And that is contractual. That 
is not something that we change. I cannot change it because it 
is in the contract.
    Now, where the money lies----
    Senator Vitter. What other contractors did you send this 
letter to?
    Mr. Bolden. I sent it to all of the--we had it sent to the 
prime contractors of the Constellation program because this 
is----
    Senator Vitter. What other programs' contractors did you 
send it to?
    Mr. Bolden. We did not have to send it to anybody because 
we did not have any other program that had sent something to us 
saying that they were concerned about termination liability. 
But there are other programs in Government that are going 
through the same thing right now because of the same reason.
    Senator Vitter. OK.
    Mr. Bolden. Because the risk decision lies with the 
company, and if it is a publicly traded company, it lies with 
the board of directors. And in that particular case, they have 
to decide whether they are going to put the money in the bank 
or whether they are going to spend it on people and things, and 
it is a risk decision that they have to make. Normally when 
things are going along well, companies do not worry about it 
because they assume there is going to be no problem. But that 
is a risk that the company decides the level of risk they are 
going to take. And I think if you talk to any business, they 
will tell you the same thing.
    Senator Vitter. Mr. Chairman, if I can have one final 
question for Mr. Holdren.
    You talked about the budget constraints, which are 
certainly clear and obvious. But the bottom line is still that 
NASA's budget has an extra $6 billion over 5 years. And it is 
not going primarily to exploration. Maybe a billion is, and 
that is mostly research within that program. So it is a major 
increase going elsewhere.
    Is it not true that with those significantly increased 
resources, certainly other things could have been done to focus 
more immediately on existing programs in human spaceflight?
    Dr. Holdren. Senator, it is always true that one can make 
different choices about allocation. We think we made the best 
choices about allocation available to us under the 
circumstances. The decision to invest more in research and 
development, in game-changing technologies, in technologies 
that ultimately can take us faster and farther, as opposed to 
continuing to invest in the existing programs which were 
already way over budget and behind schedule, was a very 
conscious decision to invest in what have always been the 
sources of U.S. leadership. The source of U.S. leadership has 
always been advanced technology, and the Augustine committee's 
report and our own conclusion was that NASA had been under-
investing in the advanced technologies that we will ultimately 
need to continue to lead, to go faster and farther in space. We 
could not have it both ways. We could not continue to invest in 
the old program at the levels that it was requiring and invest 
in these other possibilities.
    Mr. Bolden. Senator, if I may add just one thing. And I 
suggest you ask Norm Augustine when he comes in on the panel 
because he will tell you it was a matter of taking $6 billion 
and spreading it over 5 years for investments in technology 
development, aeronautics, science, and commercial or taking 
that $6 billion chunk and putting it in 1 year for the 
Constellation program, not knowing how you would get to the 
next year. And Norm Augustine will tell you that.
    His recommendation was, OK, let us take a modest amount. 
Let us take $3 billion, and that was one of the options that 
they offered.
    My fiscal responsibility to the President was to advise him 
that it would be much smarter to take $6 billion and instead of 
putting it in 1 year of trying to catch Constellation up and 
then wondering where I was going to get the $6 billion the next 
year, let us spread it over 5 years. Let us get a grip on our 
technology development. Let us restore some prominence to 
science and aeronautics.
    And people are happy. You cannot find anybody in--
scientists always argue about priorities, but it is hard to 
find somebody in the science or aeronautics community who will 
not tell you that this is an incredible budget for them. You 
cannot find a university president who will not tell you this 
is a great budget for them because they now--I just came from 
MIT and Harvard----
    The Chairman. I do not want to interrupt you, but you are 
going to have to learn time limits, keeping it brief, otherwise 
you eat up Senators' times and they do not like that, and then 
they do not vote for what you want.
    Mr. Bolden. Yes, sir.
    [Laughter.]
    The Chairman. Senator LeMieux?
    Senator LeMieux. Thank you, Mr. Chairman.
    General Bolden, after the last Shuttle flight--that is 
going to be the end of this year or the beginning of next. Is 
that what is currently scheduled?
    Mr. Bolden. Yes, sir. That is our hope.
    Senator LeMieux. Assuming that that is what happens, what 
will be the next NASA mission to low-Earth orbit?
    Mr. Bolden. The next NASA mission to low-Earth orbit will 
be the next Soyuz that launches carrying a crew to the 
International Space Station at its next 6-month increment.
    Senator LeMieux. When will be the next NASA mission that is 
powered with a NASA rocket?
    Mr. Bolden. And I am not trying to be cute. The next NASA 
mission will be flown on a commercial rocket just as the 
Shuttle is. You know, it will be a commercial rocket that we 
leased instead of----
    Senator LeMieux. Which rocket will that be?
    Mr. Bolden. The first one will be SpaceX. It will be Falcon 
9 in 2011, and then late 2011/early 2012, will be Taurus II, 
and then they will go through a sequence of demonstration 
flights that will allow us to take them to the point where they 
work on contract. Right now, everything is their dime. I gave 
them $250 million apiece and they have to demonstrate with that 
money.
    Senator LeMieux. Are those rockets taking us to the 
International Space Station?
    Mr. Bolden. They will take us to the International Space 
Station.
    Senator LeMieux. In 2011?
    Mr. Bolden. Oh, no, sir. No, no, no. The first time that we 
will have a commercial rocket take us to the International 
Space Station with a crew will probably be about 2015.
    Senator LeMieux. OK. So 5 years from now, your estimation 
is that those commercial rockets are going to be available to 
take us to low-Earth orbit.
    Mr. Bolden. Yes, sir.
    Senator LeMieux. Is that why you are saying that 2015 is 
the decision time or the President has articulated 2015 is the 
decision time on the heavy lift?
    Mr. Bolden. No, sir. It has no connection with that.
    Senator LeMieux. Why are we waiting till 2015----
    Mr. Bolden. We are not waiting. I asked the President to 
challenge me, and I asked the President to give me a deadline 
of no later than 2015. Originally it was in 2015. If I have to 
wait until 2015 to make a decision, that prolongs the amount of 
time before I can start building a heavy lift launch vehicle. 
If I could give it to him tomorrow, I would. I cannot.
    Senator LeMieux. You cannot----
    Mr. Bolden. I cannot give him a recommendation on the 
architecture for a heavy lift launch vehicle because I am not 
smart enough.
    Senator LeMieux. What about the Ares rockets?
    Mr. Bolden. Ares are great rockets, but I am not sure that 
that is the best for the Nation. I am not sure it is the most 
cost-effective. I am not sure that we can sustain the 
technology that is going into Ares right now. I am not sure 
that we want to use solid rocket boosters in first stage 
because I am trying to find a rocket that DOD, the intelligence 
community, and NASA can use, and that may not be a solid rocket 
motor. That may be LOX/RP or it may be LOX/hydrogen.
    Senator LeMieux. How much money have we spent on the Ares 
rocket so far?
    Mr. Bolden. On the Constellation program, we have spent 
about $9 billion over the last 5 or 6 years, and not a dime of 
it has been wasted.
    Senator LeMieux. So you are going to be able to use the 
money that we have already spent to make a decision on a new 
rocket as opposed to continuing the rockets?
    Mr. Bolden. I am going to be able to use the products that 
came about from that $9 billion of expenditure. Some rovers 
that have been developed as a part of the program that now I do 
not need to put permanent habitats on the Moon, a robot that we 
worked with General Motors in a Space Act agreement that we 
call R2, a dexterous robot that can throw a baseball but can 
also----
    Senator LeMieux. My time--sorry, General. My time, as the 
Chairman says, is limited. So I want to get back to the rocket 
issue.
    If we have already invested billions of dollars----
    Mr. Bolden. Yes, sir.
    Senator LeMieux.--in this heavy lift technology----
    Mr. Bolden. No, sir, we have not.
    Senator LeMieux. How much did we invest in the Ares rocket?
    Mr. Bolden. Well, the only rocket that we have invested in 
so far has been Ares I because the investment in Ares I--it 
reduces the amount of money you have to pay for the Ares V 
rocket.
    Senator LeMieux. How much did we invest in that?
    Mr. Bolden. I will have to bring it back to you for the 
record because I cannot break out the $9 billion among the 
different components of the Constellation program.
    Senator LeMieux. Say that again. You cannot break out the 
different parts of the Constellation----
    Mr. Bolden. I cannot for you right now at this table break 
out the amount that we have spent on the different components 
of the Constellation program.
    Senator LeMieux. Is that something that you would submit 
for us?
    Mr. Bolden. Yes, sir. We will get that for the record.
    [The information referred to follows:]

    Answer. As of June 2010, NASA has spent $10.6 billion total on 
Constellation elements. This includes $4.1 billion for Ares I; $4.3 
billion for Orion; and, $2.2 billion for other Constellation elements 
such as ground operations and mission support elements.

    Senator LeMieux. Let me ask quickly, since my time is 
short, about termination.
    Mr. Bolden. Yes, sir.
    Senator LeMieux. Are you telling vendors right now that you 
are terminating the Constellation program?
    Mr. Bolden. No, sir, I am not. I cannot tell them that. 
They know, however, that the President's 2011 budget proposal--
the language is very explicit. It calls for termination of the 
Constellation program.
    Senator LeMieux. But that is just his proposal.
    Mr. Bolden. That is his proposal.
    Senator LeMieux. You understand the law of the land right 
now is----
    Mr. Bolden. Sir, I abide by the law of the land right now, 
and we are not terminating anything. I cannot do that lawfully.
    Senator LeMieux. That is my time, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator.
    Senator Brownback?
    Senator Brownback. Thanks, Mr. Chairman.
    I want to follow up on what Senator LeMieux was asking on 
the schedule on commercial spaceflight because this was a bit 
of new information to me. So NASA is going to be paying for 
initial flights in late 2011 by SpaceX on, was it, two vehicles 
that you are saying? Falcon 9 and then Taurus II?
    Mr. Bolden. Falcon 9 and Taurus II are the first two 
commercial vehicles. Yes, sir.
    Senator Brownback. What is NASA paying for?
    Mr. Bolden. Right now, NASA paid $250 million to each 
SpaceX and Orbital as part of a Space Act agreement. That was 
to give them seed money so that they could go off and develop a 
commercial capability. That is all I paid.
    Senator Brownback. But they are going to launch something 
in late 2011?
    Mr. Bolden. That will be the first flight that they will 
fly for me. Falcon 9 will actually launch the end of this month 
or early June, but that is not for me. That is for another 
customer. That goes in my data bank.
    Senator Brownback. OK. What will they fly for you in late 
2011?
    Mr. Bolden. It is a demonstration to demonstrate that they 
can get the vehicle to low-Earth orbit. You know, when they 
separate the Dragon module, they have to fly, navigate 
themselves to the International Space Station, get to a point 
where they can stop, and I can take it and berth it. So they 
have a number of demonstration flights that they have to fly. 
That is why I am not going to let them get anywhere close to 
the International Space Station.
    Senator Brownback. And that will be the first demonstration 
flight that they will be doing, is late 2011 for you?
    Mr. Bolden. Let me go back and get it for the record for 
you, sir. I do not want to--because there are a series of 
flights that they have to fly, and I want to make sure that I 
am giving you accurate information on which because each flight 
is for a different purpose. It is an incremental progression. 
And I will get that to you.
    [The information referred to follows:]

    Answer. NASA'S Commercial cargo program includes two phases--the 
development phase which falls under the Commercial Orbital 
Transportation Services (COTS) program and the services phase, which 
falls under the Commercial Resupply Services (CRS) program.
    NASA currently has two funded COTS partners, SpaceX and Orbital 
Sciences, which continue to make steady progress in achieving their 
cargo demonstration milestones:

  <bullet> SpaceX was awarded a COTS agreement in August 2006 and as of 
        mid-July, had completed 17 of 22 negotiated milestones for a 
        total payment of $253 million out of $278 million. Space X is 
        currently scheduled to conduct its first NASA demonstration 
        mission in September 2010, followed by 2 additional 
        demonstration flights in 2011.

  <bullet> Orbital Sciences has completed 12 of 19 milestones for a 
        total payment of $140 million out of $170 million, and the 
        company is scheduled to complete its NASA demonstration mission 
        in September 2011.

    Senator Brownback. How many flights are they going to be 
flying before 2015, which is when you send them up to the space 
station?
    Mr. Bolden. Let me get that for the record, sir, because I 
do not want to give you--and it is just the same for Orbital. 
Each has a certain number of flights they fly under the COTS 
program that I paid for with the $250 million, and then they go 
into a cargo resupply. But that is a contract. So for that, 
they make money every time they deliver something to orbit. But 
I will get you the data on the specific scheduled dates of the 
flight.
    [The information referred to follows:]

    Answer. On December 23, 2008, NASA awarded Commercial Resupply 
Services (CRS) contracts to Space Exploration Technologies (SpaceX) and 
Orbital Sciences Corporation (OSC) for the delivery of cargo to the 
International Space Station (ISS) after the retirement of the Space 
Shuttle. The CRS contracts are firm-fixed price, Indefinite Delivery 
Indefinite Quantity procurements with a period of performance from 
January 1, 2009, through December 30, 2015 (the contractor can make 
deliveries on missions ordered prior to December 2015 through December 
2016). NASA ordered 8 flights from OSC and 12 flights from SpaceX under 
the CRS contracts. While launch readiness dates have only been 
established for the first 2 of these 20 flights so far, NASA 
anticipates that up to 16 will have taken place before 2015.

    Senator Brownback. Good. I think for the Chairman, for me, 
and for I think the whole committee, the more specific you are 
on this--because, obviously, people have a lot of questions 
about, now, how are you going to stand up this new capacity.
    Will these be manned flights, the late 2011 ones, by 
SpaceX?
    Mr. Bolden. No. It is cargo only.
    Senator Brownback. So, no, there will not be----
    Mr. Bolden. We have got a long way to go. We have a long 
way to go, and when I say a long way to go, they have got to 
demonstrate their ability to get cargo to orbit safely.
    Senator Brownback. In an unmanned vehicle.
    Mr. Bolden. In an unmanned vehicle. And there are several 
flights along that----
    Senator Brownback. When is your year marker for when they 
will have a manned spaceflight before it goes to the station?
    Mr. Bolden. My target right now is for them to fly their 
first crewed flight for me in 2015.
    Senator Brownback. First crew flight.
    Mr. Bolden. First crew.
    Senator Brownback. So the first one will go to the space 
station in 2015?
    Mr. Bolden. Yes, sir.
    Senator Brownback. Now, I am struck by the Augustine 
report, and I am a fan of Norm Augustine. I have known him for 
some years, and I think he is just a really solid American. But 
I am troubled about how it feels like we are losing control or 
it feels like we are losing leadership in the manned space 
arena. And yet, I gather from his data and the things he is 
saying, he says there is just not another way for us to 
continue human spaceflight on the budget that he believes we 
are willing to do. Is it strictly a dollars and cents issue 
then, Administrator?
    Mr. Bolden. Senator, everything is a dollar and cents 
issue, you buy it by the pound. If we want to explore beyond 
low-Earth orbit, we have to free NASA of the responsibility for 
day-to-day operations. I have to free myself of the $2 billion 
annual infrastructure cost. If I do not fly a single Shuttle 
mission, I pay $2 billion a year just for the infrastructure. I 
have got to be able to free myself of that so that I can go 
beyond low-Earth orbit. And that is the importance of the 
commercial entities in providing transportation to low-Earth 
orbit.
    Senator Brownback. Because my time is about up, is there 
any other way for us to continue an aggressive human 
spaceflight program with the budgetary dollars you have talked 
about other than the one you have prescribed?
    Mr. Bolden. Senator, we will continue an aggressive human 
spaceflight program because I have astronauts. I just selected 
a group of astronauts this past year, and I have a number of 
them who are in training to fly on the International Space 
Station right now through 2015, and we are getting ready to 
make subsequent crew assignments to fly through 2020. So we do 
not intend to stop going to space. As Senator Hutchison says, 
we have got a lot of work to be done on the International Space 
Station, and I cannot take a----
    Senator Brownback. No, I understand. But the Russians are 
going to cart us back and forth.
    Mr. Bolden. Senator, the Russians have been carting us back 
and forth for 2 years.
    Senator Brownback. I understand that. I am asking you just 
point blank is there another way for us to be able to continue 
an aggressive human spaceflight program other than the one you 
have outlined here.
    Mr. Bolden. Within the budget?
    Senator Brownback. Within the budget.
    Mr. Bolden. The program of record, Constellation, will not 
enable me to do what I just told you I want to do.
    Senator Brownback. Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Brownback.
    I have one short question. I think Senator Nelson has a 
question and Senator Hutchison, if she wants.
    Senator Hutchison. I have got about 20 more questions, but 
I really do not want to make the astronauts and Mr. Augustine 
keep waiting. So I am really so sorry because this is so 
important.
    The Chairman. I know. I know.
    I am going to ask one short question. This is all to me 
actually very interesting. And the putting together of this was 
very difficult. There was a lot of kind of combativeness and 
suspicion. You heard some of the comments of sort of a secret 
society formation of the plan, for which Norm Augustine--I 
guess he can talk about how he joined that group. But there is 
in my mind, frankly, a sense of not being settled or 
comfortable with where we have been going. Part of that is 
based upon the history and the mystery and the mysticism and 
the culture and the romance in a sense of 1962 and thereafter.
    America needs to catch up in the world. We are behind in 
virtually everything we do from telecommunications to science, 
technology, engineering, and math. So let me just take science, 
technology, engineering, and math for one second and ask one 
question. That has nothing to do with human spaceflight. I 
understand that. Human spaceflight is a given. Going into the 
far reaches of the universe is something which I will ask about 
later on on another day.
    But if we do not do our work in science, technology, 
engineering, and math, all of what you are talking about and 
all of which you were, Dr. Holdren, is going to become less and 
less possible as fewer and fewer Americans attach themselves to 
those things which lead to what NASA does.
    So I notice in the budget that you have what I would call 
inspiring the next generation. It used to be you just mentioned 
the name ``John Glenn'' or the two astronauts which will come 
out very shortly or yourself----
    Mr. Bolden. Those were the good old days, Senator. They do 
not even recognize my name.
    The Chairman. But there is a new kind of a hunger in the 
new generation. The head of the Discovery Channel was here last 
week and told us that between the ages of 12 and 22, more young 
people of their own volition, obviously, watch the Discovery 
Channel and all of its uncovering of the mysteries of science 
and all the rest of it, technology, et cetera, than watch ESPN 
and I assume other cable channels. A fascinating, powerful 
statement. A young generation waiting to be inspired, of their 
own choice reaching out to be inspired by products which happen 
to be there.
    So you have something called an education budget and you 
are putting less than 1 percent of NASA's budget into what I 
call education, which I look upon as future generations waiting 
to participate in ventures. Can you respond?
    Mr. Bolden. Yes, sir. There are direct and indirect ways 
that we contribute to education. I am glad you asked the 
question. NASA has 312 first robotics teams that we sponsor, 
more than any other Federal agency, more than any other company 
in the world. If you do not know about First Robotics, I would 
recommend you go. It is fascinating. I went to the 
International championships. That inspires kids.
    We have something that is flying on the International Space 
Station right now called Spheres. They are just round balls 
produced at MIT that up until now, for about--I want to say 
since 2006 have been flying around inside the International 
Space Station programmed by college students who are doing 
research with the Summer of Innovation, a program that we are 
rolling out. We just rolled out the first award on Monday in 
Boston with Governor Patrick. We are going to extend the 
opportunity for middle school students to program a Sphere or a 
set of Spheres that is going to fly around inside the 
International Space Station. To me that is inspirational. I do 
not care what anybody says. A kid does not have to become an 
astronaut.
    Dr. Holdren. Mr. Chairman, the President and I, as well as 
Administrator Bolden, completely agree with you about the 
priority that we have to give to science, technology, 
engineering, and math education. The President rolled out last 
November an Educate to Innovate initiative based around 
partnerships with the private sector including, by the way, the 
Discovery Channel. The Discovery Channel and Time Warner cable 
are combining to offer 2 hours of after-school exciting science 
programming free of commercials every day on cable channels 
around the country. Over half a billion dollars is pledged in 
money and in-kind support from private industry and foundations 
to help us improve STEM education in this country. 
Administrator Bolden and I both this week were out as part of 
National Laboratory Day, which is all about improving the 
science and engineering labs available in every middle school 
and high school in this country. NASA is part of an 
administrative partnership that engages as well the NSF, the 
Department of Energy and, of course, the Department of 
Education. We are doing a lot in that domain. The President is 
absolutely ecstatic about what we are getting done.
    And we could not agree with you more. But these things are 
all related. NASA's success, DOE's success, NSF's success is 
linked to the success of the education programs we promote 
through the White House and the Department of Education. It is 
all coming together.
    The Chairman. I thank you, sir.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Dr. Bolden, did you have any discussions with the 
Department of Defense upon the effect of the cancellation of 
the solid rocket motor program in NASA on DOD?
    Dr. Holdren. You said, I think, Dr. Bolden, so I am not 
sure which of us----
    Senator Nelson. Dr. Holdren.
    Dr. Holdren. OK. Yes, we did. We had a number of 
discussions with folks in the Department of Defense, and I have 
to say in all honesty the Department of Defense is still 
looking at it. Those initial conversations communicated to us 
that there would be an impact, but it did not appear to be an 
unmanageable impact. And those considerations are going on, I 
understand, even as we speak. But I continue to believe----
    Senator Nelson. Those considerations are going on as you 
speak, but would it surprise you that there is a complete 
record in front of the Senate Armed Services Committee by 
General Chilton, who is one of the generals charged with the 
strategic defense of the country, as well as the other general, 
General Cartwright, who is the Vice Chairman of the Joint 
Chiefs, who has in his portfolio the strategic defense, that in 
fact the DOD was absolutely shocked that NASA suddenly came up 
with this program to cancel the testing on the solid rocket 
motor since NASA has 70 percent of the industrial base of solid 
rocket motors, of which the remainder the Defense Department is 
absolutely reliant on? Does that surprise you?
    Dr. Holdren. Well, first of all, Senator, the DOD is a big 
place and we did not talk to everybody. We are aware that there 
is going to be an impact. The DOD obviously has an interest in 
this domain. I think that the DOD is probably capable of 
supporting its interests in this domain although it may mean 
higher costs per unit for the DOD in acquiring the solids that 
they need. I am not saying there is no issue there, and I am 
not surprised that a variety of analyses exist in the 
Department. But I believe that there will be a solution to that 
issue going forward.
    Senator Nelson. Dr. Holdren, did you have a discussion with 
Administrator Bolden within the week before the budget was 
rolled out to let him know what the final President's proposal 
was going to be?
    Dr. Holdren. You say within the week. We certainly had it 
within the 2 weeks. It was well before the last week, and yes, 
we did.
    Senator Nelson. So, General, you knew what the President's 
proposal was going to be even though you were in Israel.
    Mr. Bolden. I actually found out before I went to Israel. I 
was in Israel the week before the rollout and I came back that 
Thursday night, but we had already met on the budget the week 
before.
    Senator Nelson. All right.
    General can you tell me is there a discussion going on 
within NASA and OSTP now that you all are considering adding 
one more Shuttle flight to the manifest?
    Mr. Bolden. Senator, that discussion has gone all the way 
up. I have told people that there is potential that I would 
like to fly the Launch on Need mission, and it would be for 
logistics reasons. It would have nothing to do with jobs or 
anything else. If I have spare supplies that I can get on the 
International Space Station, I would like to take every 
opportunity to do that.
    It is not an easy decision, though, because I will have no 
Launch on Need vehicle to back it up, and that is not trivial, 
that decision to do that.
    Senator Nelson. But you do have the plans that would the 
worst happen on ascent so that the crew could take safe refuge 
in the ISS.
    Mr. Bolden. Senator, we have contingency plans to include 
what happens to the crew if they cannot get to the ISS because 
everybody always--one of the things I hate is everybody always 
assumes you get to the International Space Station. That is a 
long way away. That is 200 miles. If you have a problem on 
ascent, as you remember, when part of the back end of the 
orbiter comes off, you do not get to the ISS. So that is one of 
the reasons that I do not want that to happen and I say it is 
not a trivial decision.
    Senator Nelson. What would be the cost of continued Ares I 
testing?
    Mr. Bolden. Senator, I will get you the exact numbers, but 
it is in the neighborhood of about $1 billion to $1.6 billion. 
And the variation comes because if you are testing an Ares I 
vehicle and the plan is that it will morph into the Ares V 
vehicle, then you spread the cost across both vehicles. If all 
I am doing is flying an Ares I test so that I can keep people 
working, it goes up to $1.6 billion because there is nothing 
else to help absorb that cost, and so it all goes to Ares I. 
And that is why in our discussions I have said as much as I am 
a tester, I cannot ask any more to allow me to test an Ares 
vehicle if there is something else I can use to get the same 
test of an Orion-type vehicle or anything else done.
    Senator Nelson. And speaking of Orion--and I know you want 
me to quit my questioning--why do we want a half-baked Orion 
instead of a full-baked Orion?
    Mr. Bolden. Senator, we do not want a half-baked Orion. 
What we want is an incrementally developed crew module that can 
take people beyond low-Earth orbit.
    Again, what I do not want to do in any crew module is I do 
not want to settle on the design and configuration in 2010 when 
I know that the first time I am going to send a human beyond 
low-Earth orbit--the earliest is 2020. So if I settle on a 
vehicle today, fly it in 2013, and the crew has to live with 
that same vehicle and that same configuration for 7 more years, 
they are going to be flying on a vehicle that is 7 years old. I 
do not want the Orion that is going to go to the Moon and to 
Mars and to an asteroid--I do not want that final configuration 
internally made until as close as possible to flight.
    Senator Nelson. Then why have a half-baked one? Why not 
early on the Soyuz?
    Mr. Bolden. Senator, I need to have my people, American 
industry, continue to work on spacecraft. Otherwise we lose the 
skill. We lose the talent.
    Also, it is important for national pride and other things 
that we have an American-built vehicle that is docked to the 
International Space Station. And I can do that with the 
foundational vehicle that will be the basis for what is going 
to take us beyond low-Earth orbit.
    The Chairman. We have reached a point now where we have 
only time for Senator Warner to ask, hopefully, just one 
question. We have two astronauts and Dr. Augustine waiting for 
us. We have not treated them fairly. On the other hand, we have 
really had just one and a half rounds of questions. The subject 
is that interesting and that controversial. So I do not 
apologize for that.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. Let me say this is 
a nice break from derivatives and high frequency trading and 
some of the other things we have been dealing with on the 
floor.
    Let me also follow up very quickly, realizing my time is 
short. You mentioned the educational foundation. I do think 
there are interesting opportunities to leverage off of things. 
I think about the X Prize Foundation and the kind of energy 
that that generated in this sector.
    I know how my colleague from Florida feels and I understand 
I missed some of the earlier conversations, some controversy 
around the issue of the commercialization. I think it holds 
some great possibilities and opportunities. Wallops has a 
facility in the Commonwealth of Virginia.
    But one thing I am interested in, assuming for a moment 
that commercialization moves forward, and part of the challenge 
of NASA will be to ensure, as I think earlier questions have 
pointed out, the safety of these commercial missions, 
particularly going up to the ISS--you know, have you thought 
through how you set those standards particularly in the 
commercial context and is there some analogy what we could draw 
from, NASA Langley working with FAA on setting safety standards 
around commercial aircraft that we could perhaps utilize again 
from a----
    Mr. Bolden. Senator, we have thought it through very 
seriously and we continue to think it through. And I have a 
group right now that is going to report to me on something I 
call insight and oversight. Senator Rockefeller talked about 
how we cannot continue to do things the way we do. We have too 
many boards and panels and oversight committees in NASA, and I 
have asked our folks to find a way we can get back to something 
reasonable. We do not need all the oversight committees that we 
have. That is costly and it consumes time.
    A great example of the type of oversight that I would like 
to have is our relationship with the Russians in Soyuz. The 
Russians do a flight--you know, before every flight, they do a 
flight readiness review just like we do with the Shuttle. I 
have people from my Space Operations Mission Directorate 
sitting in Moscow in the flight readiness review. They are a 
member of the team. When the Russians had their two dynamic 
reentries in the last couple of years, while we were not a part 
of the engineering investigation, we got all of the data on the 
mishaps and we learned what had happened and we learned what 
they did to correct it. And so I will use that sort of as a 
model.
    The disadvantage to commercial is that they do not have the 
experience that Soyuz has. We have 90 successful missions on 
Soyuz. So that makes me a lot more comfortable with them than, 
say, an upstart company in commercial development. But I will 
make them successful because I will establish standards and 
they are looking at them now to make sure we are not being 
unreasonable. So we have thought about it a lot.
    Senator Warner. I would just point out again, that the 
previous experience that NASA Langley has with FAA in terms of 
commercial aviation. There may be some lessons learned----
    Mr. Bolden. The work that Langley does in NextGen, the next 
generation air transport system--we were talking about human 
spaceflight, but that is incredible. Langley, Glenn, Ames 
Research Center--we are all intimately involved in trying to 
make aviation, general aviation and commercial aviation, 
flights safer and more efficient for everybody around the 
world. And NextGen is going to do that.
    Senator Warner. And lessons learned there could perhaps be 
implemented----
    Mr. Bolden. Every day we are learning new lessons, yes, 
sir.
    Senator Warner. I have got other questions for the record, 
Mr. Chairman.
    The Chairman. You can submit those for the record. Right.
    I want to thank both of you gentlemen. This has been a very 
interesting first panel. It has taken a long time, but that is 
because I think there is uncertainty. I have questions about 
NASA. I always have. I still do. But we are working our way 
toward something and there are conflicting points of view. I 
mean, there are some people who just simply want it this way 
and others that want it that way, and then some are trying to 
find a third way and I guess I am in that category.
    In any event, I really thank you, Dr. Holdren, extremely 
for being here and also you, General, for being here. I honor 
you both and I thank you both.
    Dr. Holdren. Thank you very much.
    The Chairman. We will now be in recess for 30 seconds.
    [Laughter.]
    [Pause.]
    The Chairman. If we could hurry up this process, please. To 
the press and to anybody else, we are looking for our two good 
astronauts and Dr. Augustine. We need them at the witness 
table.
    What is the problem with getting the next panel in here? 
They are right next door. Here they come.
    The panel will be seated, please, and the press will finish 
with their obligations and we will proceed.
    [Laughter.]
    The Chairman. I want order in this hearing room and, JJ, 
you will enforce it.
    I want to welcome Mr. Neil Armstrong, who was Commander of 
Apollo 11; Captain Eugene Cernan, who was Commander of Apollo 
17; and Norman Augustine, who I have known for many years and 
who is the Chairman of the Review of the U.S. Human Spaceflight 
Plans Committee. We will start with you, Mr. Armstrong.

      STATEMENT OF NEIL A. ARMSTRONG, RETIRED ASTRONAUT, 
                  FORMER COMMANDER, APOLLO 11

    Mr. Armstrong. Thank you, Mr. Chairman. Mr. Chairman, 
members of the Committee, I want to express my sincere 
appreciation for being invited to present the views on NASA's 
new plan for human spaceflight.
    New non-classified national program concepts are typically 
accompanied by substantial review and debate in a number of 
venues. That process is occasionally frustrating, but it 
assures that all the major issues, performance, cost, funding, 
safety, schedule, and so forth, will be examined in some detail 
prior to a public proposal.
    After the tragic loss of Columbia and its crew and the 
completion of the accident investigation, Admiral Gehman, the 
Chairman of the Columbia Accident Investigation Board, noted 
that NASA needed a long-term, strategic guiding vision. 
President Bush, after reflection, proposed such a vision: 
finish the International Space Station, return to the Moon, 
establish a permanent presence there, and venture onward toward 
Mars.
    As this committee well knows, that vision was analyzed, 
debated, and improved upon with the Congress for nearly 2 
years. You then concluded, nearly unanimously, that it was the 
appropriate policy for our country. Three years later, after a 
change in congressional control, the policy was once again 
approved, although it was still not adequately funded.
    With regard to President Obama's 2010 plan, I have yet to 
find a person in NASA, the Defense Department, the Air Force, 
the National Academies, industry, or academia that had any 
knowledge of the plan prior to its announcement. Rumors abound 
that neither the NASA Administrator nor the President's Science 
and Technology Advisor were knowledgeable about the plan. Lack 
of review normally guarantees there will be overlooked 
requirements and unwelcome consequences. For this plan that is 
worrisome.
    America has invested substantially for more than half a 
century to acquire a position of leadership in space. But for 
any organization, a public utility, an airline, a university, 
or an NFL team, to maintain a leadership position requires 
steadfast determination and a continuing investment in the 
future. That investment must be made wisely.
    I believe that so far our national investment in space and 
our sharing of that knowledge, gained with the rest of the 
world, has been made wisely and has served us very well. 
America is respected for its contributions it has made in 
learning to sail on this new ocean. If the leadership we have 
acquired through our investment is simply allowed to fade away, 
other nations will surely step in where we have faltered. I do 
not believe that would be in our best interests.
    I am very concerned that the new plan, as I understand it, 
will prohibit us from having human access to low-Earth orbit on 
our own rockets and spacecraft until the private aerospace 
industry is able to qualify their hardware under development as 
rated for human occupancy. I support the encouragement of 
newcomers toward their goal of lower cost access to space. But 
having cut my teeth in rockets more than 50 years ago, I am not 
confident. The most experienced rocket engineers with whom I 
have spoken believe that it will require many years and 
substantial investment to reach the necessary level of safety 
and reliability.
    If these experts are correct, the United States will be 
limited to buying passage to the International Space Station 
from Russia and will be prohibited from traveling to other 
destinations in low-Earth orbit such as the Hubble space 
telescope or any of the frequently mentioned destinations that 
are out on the space frontier.
    As I examine the plan, as stated during the announcement 
and the subsequent explanations, I find a number of assertions 
which, at best, demand careful analysis and, at worst, do not 
deserve any analysis.
    I do believe if the national space plan is subject to the 
normal review process of this Congress, the aerospace industry, 
and the reliable experts that we know in the military and the 
aerospace community, America will be well served.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Armstrong follows:]

      Prepared Statement of Neil A. Armstrong, Retired Astronaut, 
                      Former Commander, Apollo 11

    Mr. Chairman, and members of this Committee, I want to express my 
sincere appreciation for being invited to present my views on NASA's 
new plan for human spaceflight. As I have come to accept that my 
opportunities to once again see our beautiful planet Earth from afar 
are limited, I can speak my mind without fear of jeopardizing my crew 
status.
    New non-classified national program concepts are, typically, 
accompanied by substantial review and debate in a number of venues. 
That process is occasionally frustrating, but it assures that all the 
major issues (performance, cost, funding, safety, schedule etc.) will 
be examined in some detail prior to a public proposal.
    After the tragic loss of Columbia and its crew, and the completion 
of the accident investigation, Admiral Gehman, the Chairman of the 
Columbia Accident Investigation Board, noted that NASA needed a long-
term, strategic, guiding vision. President Bush, after reflection, 
proposed such a vision: finish the International Space Station, return 
to the Moon, establish a permanent presence there, and venture onward 
toward Mars. After completion of the very detailed Exploration Systems 
Architecture Study (ESAS), that vision became a Program known as 
Constellation. A high level panel of human spaceflight veterans and a 
highly experienced independent review team vetted the ESAS conclusions. 
ESAS results were briefed to senior Administration officials including 
OSTP, OMB, USAF Air Staff and DDR&E. Of course, this Committee as well 
as other Congressional committees and subcommittees were briefed.
    As this committee well knows, that vision was analyzed, debated, 
and improved upon within the Congress for nearly 2 years. You then 
concluded, nearly unanimously, that it was the appropriate policy for 
our country. Three years later, after a change in Congressional 
control, the policy was once again approved, although it was still not 
adequately funded.
    With regard to President Obama's 2010 plan, I have yet to find a 
person in NASA, the Defense Department, the Air Force, the National 
Academies, industry, or academia that had any knowledge of the plan 
prior to its announcement. Rumors abound that neither the NASA 
Administrator nor the President's Science and Technology Advisor were 
knowledgeable about the plan. Lack of review normally guarantees that 
there will be overlooked requirements and unwelcome consequences. How 
could such a chain of events happen? A plan that was invisible to so 
many was likely contrived by a very small group in secret who persuaded 
the President that this was a unique opportunity to put his stamp on a 
new and innovative program. I believe the President was poorly advised.
    America has invested substantially for more than half a century to 
acquire a position of leadership in space. But for any organization, a 
public utility, an airline, a university, or an NFL team, to maintain a 
leadership position requires steadfast determination and a continuing 
investment in the future. That investment must be made wisely.
    I believe that, so far, our national investment in space 
exploration, and our sharing of the knowledge gained with the rest of 
the world, has been made wisely and has served us very well. America is 
respected for the contributions it has made in learning to sail upon 
this new ocean. If the leadership we have acquired through our 
investment is allowed simply to fade away, other nations will surely 
step in where we have faltered. I do not believe that this would be in 
our best interests.
    I am very concerned that the new plan, as I understand it, will 
prohibit us from having human access to low-Earth orbit on our own 
rockets and spacecraft until the private aerospace industry is able to 
qualify their hardware under development as rated for human occupancy. 
I support the encouragement of the newcomers toward their goal of lower 
cost access to space. But having cut my teeth in rockets more than 50 
years ago, I am not confident. The most experienced rocket engineers 
with whom I have spoken believe that will require many years and 
substantial investment to reach the necessary level of safety and 
reliability. Business analysts believe that at least two qualified 
competitors would be required to have any chance of reducing ticket 
prices. They further believe that a commercial market large enough to 
support even one competitor is unlikely.
    If these experts are correct, the United States will be limited to 
buying passage to the International Space Station from Russia, and will 
be prohibited from traveling to other destinations in LEO, such as the 
Hubble Space telescope, or any of the frequently mentioned destinations 
out on the space frontier.
    As I examine the plan as stated during the announcement and 
subsequent explanations, I find a number of assertions which, at best, 
demand careful analysis, and at worst, do not deserve any analysis.
    The Augustine Commission found that ``NASA essentially has the 
resources either to build a major new system or to operate one, but not 
to do both.'' In that context, the principal choices would be develop 
the Constellation Program or to continue to operate the Shuttle and the 
ISS.
    The Shuttle, a stellar low-Earth orbit machine, is scheduled for 
termination this year. It has a great deal of versatility and can do 
many things well, although the current protocol limits its operation to 
the ISS orbital inclination. While the Shuttle is four decades old 
technology, it has been operating well and could be expected to be able 
to continue to do so for some years if approved. Shuttle operation is, 
however, very costly. It could not be justified solely as a crew taxi, 
but would, and should, continue to carry cargo, and continue to perform 
the many other services it now provides.
    The now to be canceled Constellation program showed promise to 
fulfill lofty goals with a high level of safety and flexibility. 
Constellation would also be very costly. Critics claim it is 
``unexecutable,'' primarily because it has been underfunded.
    The new 2010 plan goals are largely undefined in the near term but 
have been characterized as supporting ISS through 2020 and finding 
breakthrough technology to allow flying to a near Earth asteroid and to 
Mars at some time in the future.
    These are vastly different plans and choosing the proper path is 
vital to America's continued space leadership.
Orion
    Amendments to the 2010 plan were announced in the President's April 
15 speech at the Kennedy Space Center. He stated that the canceled 
Orion Spacecraft would be given new life as an emergency return vehicle 
from the International Space Station. Such a craft would be necessary 
if an Orbiter or Soyus was not available, if the ISS had a major 
emergency, or in case of a medical emergency.
    In the first decade of ISS operation we have not needed such a 
spacecraft, and, hopefully, in the remaining ISS lifetime, we will not 
need one. However, there certainly is merit in having emergency escape 
ability. The difficulties crop up when we examine the detail of the 
requirements necessary for such a vehicle.
    Configuration studies of emergency return vehicles have been going 
on for decades, NASA had a selected vehicle for development, the X-38, 
a lifting body which had substantial promise, but was canceled for 
budgetary reasons in 2002.
    The complexities of such a craft, required because of the wide 
variety of emergency situations that could be encountered, indicated 
that a near ballistic shape such as Orion would be inferior to a 
configuration with higher aerodynamic performance.
    Because the Orion Light, as described, would be capable of carrying 
humans on only a return to Earth trajectory and not from Earth to the 
ISS, its utility would not seem to compare well with the Soyus and its 
two-way trajectories that are currently used. The time and cost of this 
development including the autonomous or remotely controlled rendezvous 
and docking would appear to be significant. It appears that this would 
be a very expensive project with limited usefulness.
Heavy Lift
    The second Florida announcement concerned studying heavy lift 
rockets with the objective of choosing a best design by 2015, then 
beginning construction and test. It was asserted: ``That's at least 2 
years earlier than previously planned . . . and that's conservative, 
given that the previous program was behind schedule and over budget.'' 
The assertion is disingenuous, in that it is comparing an unknown 
project in the future with a known project already underway for some 
years. The ``previous program'' is assumed to be the Ares V which 
depends on the same 5.5 segment SRBs and J-2X engines of the recently 
canceled Ares I. The delay in the Ares I development was due to under 
funding as a result of Shuttle Return to Flight requirements, ISS 
requirements, 2004 hurricane damage, OMB reductions and FY 2010 Budget 
reductions. The budget reductions for Constellation through 2020 
totaled more than $20 billion. Considering those realities, some 
members of the Augustine Committee concluded that the Ares program was 
being quite well managed and in reasonably good shape.
    Knowledge in Heavy Lift rockets is currently substantial. A great 
deal of such study has been completed in recent years as a part of the 
normal NASA and military studies. As of the time I write this 
testimony, NASA's website describes the Ares V as follows: ``Under the 
goals of NASA's exploration mission, Ares V is a vital part of the 
cost-effective space transportation infrastructure being developed by 
NASA's Constellation Program to carry human explorers back to the Moon, 
and then onward to Mars and other destinations in the solar system.''
    While Ares has been criticized for being late and over budget, the 
cause of that condition is largely understood. It seems appropriate 
that the reason for discarding all this work should be explained to 
this committee.
    A heavy-lift rocket derived from the Shuttle (SDHLV) has often been 
suggested as a useful vehicle and could be produced in far less time 
than that proposed in the 2010 plan, The technology and hardware, for 
this development is already largely available and would not require 5 
years of study to implement.
Workforce
    The plan's consequent expected loss of jobs in space communities 
has been widely reported. This committee knows far more about such 
matters than I and I will not comment on it. I am concerned, however, 
about workforce issues. Shuttle termination and Constellation 
cancellation will result in widespread breakup of design, 
manufacturing, test and operating teams that will be expensive and time 
consuming to reassemble when they are once again needed.
    With the job market so tight, individuals who are in programs 
expected to be canceled or cut back are leaving to pick up one of the 
few available jobs. Some of the best and the brightest are already 
leaving because of the uncertain future. Maintenance of a quality 
workforce is vital to a successful spaceflight program and attention to 
this consequence of the new plan must be considered,
Safety
    It was asserted that by buying taxi service to Low-Earth Orbit 
rather than owning the taxis, ``we can continue to ensure rigorous 
safety standards are met''. The logic of that statement is mystifying. 
Does it mean that safety standards will be achieved by regulation, or 
contract, or by government involvement? Does it mean that the safety 
considerations in the taxi design, construction and test will be 
assured by government oversight? The Augustine Committee report is 
quoted as follows: ``Thus, the Committee views any commercial program 
of crew transport to ISS as involving a strong independent mission 
assurance role for NASA.'' The cost of that government involvement will 
be substantial and that cost must be acknowledged in the total cost of 
the service.
    The private company spacecraft, to my knowledge, have not been as 
rigorously analyzed for safety as have existing rockets, Ares and 
Shuttle derivatives, but it must be noted that Ares I enjoys, by a 
significant margin, the highest safety rating of the configurations 
studied.
    I have highlighted just a few of the many issues and questions 
engendered by the 2010 NASA plan. I do believe, if the National Space 
Plan is subject to the normal review process of this Congress, the 
aerospace industry, and the reliable experts we know in the military 
and aerospace community, America will be well served.

    The Chairman. Thank you, Mr. Armstrong, very much.
    Captain Cernan?

     STATEMENT OF CAPTAIN EUGENE A. CERNAN, USN (RETIRED), 
           COMMANDER, APOLLO 17, ASTRONAUT (RETIRED)

    Mr. Cernan. Thank you, Mr. Chairman. I also want to again 
thank you for inviting me here today to express my personal 
views concerning the Administration's 2011 budget as it 
pertains to America's role in the future of human space 
exploration.
    One month ago, Neil Armstrong, Jim Lovell, and I released 
an opinion paper expressing our concern over the 
Administration's proposed space budget. We spent a great deal 
of time writing and refining over and over again this document, 
choosing our words very carefully, words like ``devastating,'' 
``slide to mediocrity,'' and ``third rate stature,'' primarily 
because we did not want to be misunderstood, nor did we want to 
be misinterpreted. We particularly wanted to avoid any 
political overtones because since the beginning days of NASA, 
its support has come from traditionally bipartisan politics. It 
has transcended our political differences.
    We have recently heard a lot of eloquent verbiage about the 
exploration of space, landing on an asteroid, circling Mars, 
and some day maybe even landing on the Red Planet. There is 
talk about a decision yet to come about building a large 
booster which might ultimately some day almost take us to the 
far reaches of this universe. There is, however, no detail, no 
specific challenge, and no commitment as to where or 
specifically when this exploration might come to pass. When one 
examines in detail the 2011 budget, nowhere can be found 1 
penny--not 1 penny--allocated to the support of space 
exploration. Yes, there has been much rhetoric about 
transformative technology, heavy lift propulsion, research, 
robotic precursor missions, and these are all very worthwhile 
endeavors. Yet, nowhere--nowhere--do we find any mention of 
human space exploration, and nowhere do we find a commitment in 
dollars to support this national endeavor. Neil, Jim Lovell, 
and I have come to a unanimous conclusion that this budget 
proposal presents no challenges, has no focus, and is in fact a 
blueprint for a mission to nowhere.
    In this proposed budget, we find several billions of 
dollars allocated to developing commercial human access to low-
Earth orbit based upon the assumptions and claims by those 
competing for this elusive contract who say they can achieve 
this goal in little more than 3 years and can do it for 
something less than $5 billion.
    Based upon my personal experience and what I believe is 
possible, I believe it might take as much as a decade, a full 
decade, and the cost may be two to three times as much as they 
predict. Although I strongly do support the goals and ideals of 
commercial access to space, the folks who propose such a 
limited architecture do not yet know what they do not know. 
There is a myriad of technical challenges in their future yet 
to be overcome, safety considerations which cannot be 
overlooked or compromised, as well as a business plan and 
investors they will have to satisfy. All this will lead to 
unplanned delays which will cost the American taxpayer billions 
of unallocated dollars and lengthen the gap from Shuttle 
retirement to the day we can once again access low-Earth orbit, 
leaving us hostage as a Nation to foreign powers for some 
indeterminate time in the future.
    This may be a sensitive point because I am going to mention 
something about a dear friend who I have the ultimate respect 
for, Charlie Bolden, because we did have a briefing last week, 
and it was in that briefing that Charlie expressed some concern 
over the potential of the commercial sector to be successful in 
any reasonable length of time. He indicated we might have to 
subsidize them until they are successful. And I can say with 
authority, because I wrote this down and I put the word ``wow'' 
right next to it because Charlie did say it may be a bailout 
like GM and Chrysler. As a matter of fact, it may be the 
largest bailout in history.
    The United States, through NASA, has spent a half a 
century, Mr. Chairman, learning what we did not know, finding 
answers to questions we were not smart enough to ask at the 
time, developing technology that was needed to meet the 
challenge and get the job done. We came from Alan Shepard's 
flight in 1961 to the Space Shuttle and the International Space 
Station today, by the way, with a side trip or two to the Moon 
along the way. The evolution of this learning process was not 
without cost, not just in dollars, but in the lives of our 
friends and our colleagues. It took the courage, the effort, 
the dedication, and the self-sacrifice of thousands of 
Americans out there who allowed us to come this far this 
quickly. And although we paid dearly for our mistakes, it is a 
testimonial to their commitment and American ingenuity that 
everyone who went to the Moon came home. Therein is a lesson we 
cannot afford to ignore, and I ask the question, is this the 
NASA we want to transform?
    For the sake of time, I will not go into my thoughts and 
concerns about game-changing technology without a goal or the 
fact that we may or may not some day make a decision to build a 
heavy lift booster or the fact that I have major concerns about 
an Orion ``light'' because I went into detail in my written 
testimony.
    Well, let me go back to Constellation because it is an 
architecture that over a 5-year period has gone through 
detailed review processes and been vetted by every Government 
agency from the OMB to the DOD and certainly by NASA--every 
agency that has any ownership interest in any technical, 
scientific, budget, or benefit that might be derived from human 
space exploration. In addition, an arsenal of the best 
engineers, scientists, and management experts in America's 
aerospace community added their knowledge and expertise to the 
review of the proposed Constellation architecture before it 
ever became a program worthy of consideration. And 
appropriately, as has been said already, under the law, both 
houses of Congress overwhelmingly with bipartisan support 
approved and agreed that Constellation should go forward.
    It is unknown how much time and thought was put into the 
existing budget proposal for 2011 or by whom this proposal was 
generated, but it is common knowledge that few, if any, of 
those government agencies referred to above were asked to 
participate nor, of significant note, was the DOD or the 
engineering or management expertise that exists throughout NASA 
today. This leads one to the conclusion that this proposal was 
most likely formulated in haste within the Office of Management 
and Budget with little or with no input, by his own admission 
in previous testimony, the NASA Administrator or, I know for a 
fact, by NASA center directors or senior NASA management. And 
if that were the case, the originators were quite likely 
promoting their own agenda rather than that of NASA and 
America's commitment to human space exploration.
    The space program has never been an entitlement. It is an 
investment in the future, an investment in technology and jobs 
and world respect and leadership, and perhaps most importantly, 
in the inspiration and the education of our youth.
    Mr. Chairman, you asked how much of the budget has gone 
into education. That goes in the paperwork and the spinoff 
information. The inspiration for our youth came when Neil 
Armstrong walked on the Moon. It is a freebie that comes from 
space exploration. Those best and the brightest minds at NASA 
and throughout the multitudes of the private contractors, large 
and small, did not join the team to design windmills, but to 
live their dreams of once again taking us where no man has gone 
before.
    In closing, Mr. Chairman, I would like to say America's 
human spaceflight program has for a half a century risen above 
partisan differences from Eisenhower to Kennedy to the present 
day. The challenges and accomplishments of the past were those 
of a Nation, never of a political party, nor were they of any 
individual agenda. Those flags which fly today in those valleys 
on the Moon are not blue flags and they are not red flags. They 
are American flags. If we abdicate our leadership in space 
today, not only is human spaceflight and space exploration at 
risk, but I personally believe the future of this country and, 
thus, the future of our children and grandchildren as well. Now 
is the time for wiser heads in Congress of the United States to 
prevail. Now is the time to overrule this administration's 
pledge to mediocrity. Now is the time to be bold, innovative, 
and wise in how we invest in the future of America.
    I want to thank you, Mr. Chairman, for allowing me to share 
with you my passion, and that quite simply is the future of our 
country.
    [The prepared statement of Mr. Cernan follows:]

    Prepared Statement of Captain Eugene A. Cernan, USN (Retired), 
               Commander, Apollo 17, Astronaut (Retired)

    Thank you, Mr. Chairman, for inviting me here today to express my 
personal views concerning the Administration's proposed FY 2011 budget 
as it pertains to America's role in the future of Human Exploration in 
Space.
    One month ago, Neil Armstrong, Jim Lovell and I released an opinion 
paper expressing our concern over the Administration's FY 2011 proposed 
space budget. We spent a great deal of time writing and refining our 
document, choosing words such as ``devastating,'' ``slide to 
mediocrity,'' and ``third-rate stature'' very carefully, so that the 
intent of our message would not be misinterpreted and our deep concern 
about the future direction of human spaceflight as outlined in the 
President's proposal would be fully understood. We particularly wanted 
to avoid any political overtones because the support of America's role 
in space since its beginning has traditionally transcended partisan 
politics.
    It was determined after the Columbia accident that NASA should 
return to its core values, focusing its resources once again on space 
exploration while continuing its space exploitation through its support 
of the International Space Station (ISS), with the Space Shuttle 
providing access to Low Earth Orbit (LEO). The Congress supported such 
a focus with a near-unanimous bi-partisan support in both the 2005 and 
2008 NASA Authorization Acts.
    We have recently heard a lot of eloquent verbage about the 
exploration of space--landing on an asteroid, circling Mars, and at 
some time in the future perhaps landing on the Red Planet. There is 
talk about a decision yet to come of building a large booster which 
might ultimately take us anywhere we want to go into the far reaches of 
the universe. There are, however, no details, no specific challenge, 
and no commitment as to where or specifically when this exploration 
might come to pass. ``Hope is not a destination, nor is it a management 
tool.'' I, personally, define the exploration, in contrast to 
exploitation, of space as ``going where no man has gone before, doing 
what has never been done before, doing what others couldn't do, 
wouldn't do, or perhaps were afraid to do.''
    However, when one examines the FY 2011 budget proposal, nowhere is 
there to be found one penny allocated to support space exploration. 
Yes, there has been much rhetoric on transformative technology, heavy 
lift propulsion research, robotic precursor missions, significant 
investment in commercial crew and cargo capabilities, pursuit of cross-
cutting space technology capabilities, climate change research, 
aeronautics R&D, and education initiatives. Yet nowhere do we find any 
mention of the Human Exploration of Space and nowhere do we find a 
commitment in dollars to support this national endeavor. We (Armstrong, 
Lovell and myself) have come to the unanimous conclusion that this 
budget proposal presents no challenges, has no focus, and in fact is a 
blueprint for a ``mission to nowhere.''
    In this proposed budget we find several billions of dollars 
allotted to developing commercial human access to low-Earth orbit, 
based upon the assumptions and claims by those competing for this 
exclusive contract who say that they can achieve this goal in little 
more than 3 years, and that it can be done for something less than $5 
billion. (These are the same entrepreneurs who are over a year late 
delivering unmanned cargo to LEO.) This assumes they can design, build, 
flight test, and develop a man-rated spacecraft and booster 
architecture along with the infrastructure required for such a venture. 
This includes redesigning the requirements of mission control, 
developing the support and training simulators, writing technical 
manuals for training and onboard procedures, developing the synergy 
between a worldwide tracking network and the uniqueness of a newly 
designed space vehicle along with an emergency recovery force needed to 
handle this new space system. These are just a few of the development 
and support requirements to put any new manned system into space. 
Although I strongly support the goals and ideals of commercial access 
to space, the folks who propose such a limited architecture ``do not 
yet know what they don't know.'' There are a myriad of technical 
challenges in their future yet to be overcome, safety considerations 
which cannot be compromised as well as a business plan and investors 
that they will have to satisfy. As an example, it took over a year and 
a half of review and redesign of the Apollo I hatch before operational 
and safety requirements were satisfied. All this will lead to unplanned 
delays which will cost the American taxpayer billions of unallocated 
dollars and lengthen ``the gap'' from Shuttle retirement to the day we 
can once again access LEO. Moreover, for a variety of reasons, a 
``Going Out of Business'' sign hanging on the door is always a 
possibility in any high-dollar--high-risk investment.
    The United States, through NASA, has spent a half-century learning 
what we didn't know, finding answers to questions we weren't smart 
enough to ask at the time, developing technology that was needed to 
meet the challenge and get the job done. We came from Alan Shepard's 
flight in 1961 to the Space Station and Shuttle today with a side trip 
or two to the moon along the way. The evolution of this learning 
process was not without its cost--not just in dollars, but also in the 
lives of our friends and colleagues. It took the courage, effort, 
dedication and self-sacrifice of thousands of Americans who allowed us 
to come this far this quickly. And, although we paid dearly for our 
mistakes, it is a testimonial to their commitment and American 
ingenuity that everyone who went to the moon came home. Therein is a 
lesson we cannot afford to ignore. Is this the NASA we want to 
transform?
    Based upon my background and experience, I submit to this committee 
and to the Congress that it will take the private sector as long as 10 
years to access LEO safely and cost-effectively. A prominent Russian 
academician is quoted as saying in order to bring a craft to the 
standard of quality and safety for piloted flight, the United States 
will be dependent on Russia until at least 2020. The Aerospace 
Corporation estimates an initial cost of 10-12 billion dollars, plus 
the added cost of modifications required to launch vehicle ground 
systems. Should such a commercial venture run into insurmountable 
technical problems, business venture concerns, or--God forbid--a 
catastrophic failure, it would leave the United States without a 
fallback program, unable to access even low-Earth orbit for some 
indeterminate time to follow. In any event, under this proposal the 
United States will be abandoning its $50 billion, 25 year investment in 
the ISS, leaving us hostage to foreign powers. Is this one of our 
``Potential Grand Challenges'' of the 21st century?
    Additionally, The President's proposal suggests we develop 
``technology for the future.'' The technology we enjoy today, 40 years 
after Apollo, is technology that was developed from accepting a 
challenge and reaching for a goal. It was technology with a focus, with 
a mission. To simply put the best and the brightest in a room and tell 
them to develop breakthrough technology that could or might or may be 
useful in the future is a naive proposition. Exploration drives 
technology innovation--not the reverse.
    Also in the proposal is the possibility that maybe, at some time, 
perhaps as far down the road as 2015, the United States would decide to 
develop a heavy lift booster. This is a very vague proposition that 
will likely never be funded to fruition. Coincidently, Constellation 
has a heavy lift booster, Ares V, not only on the drawing boards but in 
component test today. Why do we need a new decision in 2015 for one 
already in development today?
    A late addition to the Administration's proposal, and one very 
obviously not well thought out, was a provision to build an ``Orion 
Light'' spacecraft as a rescue vehicle on the ISS. Although we have 
never had need for a rescue vehicle, we have today two Soyuz 
continuously stationed on the ISS capable of carrying as many as six 
people to safety should the need arise, with a provision for a third 
Soyuz should the crew complement ever increase to as many as nine--
which is highly unlikely. An ``Orion Light,'' before it is qualified to 
transport human beings to safety from the ISS, certainly would have to 
be man-rated. To man-rate a spacecraft requires a great deal more than 
following a list of safety requirements and protocol instructions 
included in its development. The ``Orion Light'' would have to go 
through an extensive development, test and evaluation phase before 
being qualified to carry humans. It sounds very similar to what the 
existing Ares I/Orion development proposal is all about within the 
overlying Constellation architecture.
    Constellation itself is an architecture that over a 5-year period 
has gone through several detailed reviews and has been vetted by every 
government agency from the OMB to the DOD, and certainly by NASA--by 
every agency that has an ownership interest in any technical, 
scientific, budget or benefit to be derived from Human Space 
Exploration. In addition, an arsenal of the best engineers, scientists 
and management experts in America's aerospace community added their 
knowledge and expertise to the review of the proposed Constellation 
architecture before it ever became an official program worthy of 
consideration. Constellation follows the Von Braun model in the 
evolution of the Saturn V, wherein the development of the Ares I is the 
embryo for the development of the Ares V. This shared DNA, with 
commonality of critical components throughout, leads to greater cost 
effectiveness, a higher degree of confidence and safety, and provides 
the first elements of a heavy lift booster. Appropriately under the 
law, both Houses of the Congress of the United States with 
overwhelmingly bipartisan support, approved and agreed that 
Constellation should go forward.
    In contrast to the 5-years which has been required to bring 
Constellation to its present status, the Augustine Committee was 
required to provide their report in 90 days. The report contained 
several suggestions and alternatives to Constellation, few of which 
were included in the FY 2011 budget, but ultimately the Committee came 
to the conclusion that Constellation's architecture had been well-
managed and is indeed executable, providing it has the appropriate 
funding that had been denied for several years. Important to note is 
that the Committee was directed to base their conclusions and 
recommendations not on the FY 2009 budget, but rather on the FY 2010 
budget from which tens of billions of dollars had already been removed 
between 2010 and 2020. Naturally, the Augustine Committee concluded 
that Constellation was ``unexecutable'' within the confines of that 
budget. I would have reached the same conclusion. More importantly, 
however, the funding proposed for FY 2011, if prudently administered, 
is more than adequate to continue the development of Constellation.
    It is unknown how much time and thought was put into the existing 
budget proposal for FY 2011, or by whom this proposal was generated, 
but it is common knowledge that few if any of those government agencies 
referred to above were asked to participate, nor, of significant note, 
was the DOD or the engineering or management expertise that exists 
throughout NASA today. This leads one to the conclusion that this 
proposal was most likely formulated in haste within the Office of 
Management and Budget (OMB) and/or the Office of Science and Technology 
Policy (OSTP), with little or no input from the NASA Administrator, 
Center Directors, or senior NASA management. If that were the case, the 
originators quite likely were promoting their own agenda rather than 
that of NASA and America's commitment to Human Space Exploration, as 
directed by Congress in the Authorization Bills of 2005 and 2008.
    With the submission of FY 2011 budget, either the Administration 
and the originators of this budget proposal are showing extreme naivete 
or, I can only conclude, they are willing to take accountability for a 
calculated plan to dismantle America's leadership in the world of Human 
Space Exploration. In either case, this proposal is a travesty which 
flows against the grain of over 200 years of our history and, today, 
against the will of the majority of Americans. The space program has 
never been an entitlement, it's an investment in the future--an 
investment in technology, jobs, world respect and leadership, and 
perhaps most importantly in the inspiration and education of our youth. 
Those best and brightest minds at NASA and throughout the multitudes of 
private contractors, large and small, did not join the team to design 
windmills, but to live their dreams of once again taking us where no 
man has gone before. If this budget proposal becomes the law of the 
land, these technicians, engineers, scientists, a generation removed 
from Apollo, yet re-inspired by the prospect of going back to the moon 
and on to Mars, will be gone--where I don't know--but gone.
    America's human spaceflight program has for a half-century risen 
above partisan differences from Eisenhower to Kennedy to the present 
day. The challenges and accomplishments of the past were those of a 
Nation--never of a political party or of any individual agenda. If we 
abdicate our leadership in space today, not only is human spaceflight 
and space exploration at risk, but I believe the future of this country 
and thus the future of our children and grandchildren as well. Now is 
the time for wiser heads in the Congress of the United States to 
prevail. Now is the time to overrule this Administration's pledge to 
mediocrity. Now is the time to be bold, innovative and wise in how we 
invest in the future of America.
    Thank you, Mr. Chairman, and members of the Committee, for this 
opportunity to express my personal views on a subject for which I have 
a passion--the future of my country!

    The Chairman. Thank you, sir.
    Mr. Augustine?

          STATEMENT OF NORMAN R. AUGUSTINE, CHAIRMAN, 
        REVIEW OF U.S. HUMAN SPACEFLIGHT PLANS COMMITTEE

    Mr. Augustine. Mr. Chairman and Senator Hutchison, and 
members of the Committee, I would like to thank you for 
permitting me to speak and represent my colleagues on the human 
spaceflight plans committee. I have a statement I would like to 
submit for the record.
    I should probably begin by saying that it would be very 
difficult to gather a group of four people who I admire more or 
treasure their friendship than the two gentlemen beside me and 
the two who appeared before us. I think we all share at least 
one thing in common, and that is that we want a strong human 
spaceflight exploration program for our Nation.
    One might ask why. Our panel tried to answer that and we 
said that certainly the science to be derived is not 
unimportant. The same can be said of the economic impact, new 
products, and certainly engineering achievements have been very 
significant indeed. But while all of these things are 
important, it was the view of our committee that taken by 
themselves they are not sufficient to justify the cost of the 
human space exploration program.
    One has to justify that program, and we think one can 
justify it based upon intangibles. The fact that they are 
intangible makes them no less significant in our view. A sound 
human spaceflight program can blaze a path for humans to move 
into outer space. It inspires the young people to study science 
and engineering. We have seen that many of the scientists and 
engineers were inspired by the two gentlemen beside me and 
others like them.
    But more importantly I think that it says to the world what 
the American people can accomplish with our system of 
Government and our system of free enterprise. And all this 
comes for a little less than a dime a day per citizen, which 
would seem to be a very great bargain.
    Now, one can say a great deal could be done with robots, 
and that is certainly true--and it should be. But there are 
certain things that robots cannot do. One thing would be, for 
example, to make the first repair to the Hubble telescope 
program. I cannot imagine a robot that could have done that. 
Similarly, there are the intangibles. Does anyone remember the 
name of the first robot that stepped on the Moon? Launching a 
rocket to the top of Everest with a flag in it is quite 
different from Sir Edmund Hillary climbing to the top of 
Everest. That is what makes the human spaceflight program so 
important to so many of us.
    I was asked to make a few brief comments on some of the 
conclusions from the study I chaired 20 years ago on the space 
program as a whole, some of which perhaps relate to the issue 
of today. I would cite just five.
    The first was, at that time 20 years ago, we concluded that 
NASA was being asked to accomplish grand goals and being given 
resources that did not match those goals, and that was a very 
dangerous thing to do, particularly in space.
    Second, reflecting our skepticism of the reliability 
calculations that were being done, we said it was very likely 
we would lose another Shuttle. Sadly, that proved to be the 
case.
    We also said that the heavy lift vehicle was the most 
important project in the human spaceflight program because it 
is the gateway to outer space. And if one thinks about it, the 
U.S. has not had an astronaut go much more than 300 miles from 
the Earth since my colleague here left the Moon years ago.
    We thought that the technology program was being starved; 
that we did not have a strong technology program 20 years ago. 
And we said that one of the consequences will be that future 
decisionmakers will have very few options.
    And finally, we said we need a balanced space program, 
balanced in terms of human spaceflight and robotics, balanced 
in exploration and science, and so forth.
    Turning to the more recent review of the human spaceflight 
program that I had the privilege of chairing, we had 10 members 
on our committee. Our findings were unanimous, as reflected in 
the 150-some page report that you perhaps have had a chance to 
read.
    The first question is why not just continue the 
Constellation program. That certainly is the easy, seemingly 
logical answer. One could do that; but there are some problems. 
Let me cite just two.
    When the Constellation program was begun, now 5 years ago 
and 4 years from the time we did our study, NASA assumed a 
budget profile extending some 20 years. In talking to the 
people who ran NASA at the time, they really believed, I think, 
that they had good reason to accept that budget profile. But be 
that as it may, they have received each year only two-thirds of 
that amount. In other words, it was a one-third shortfall every 
year. The consequence, coupled with technical problems that the 
programs have encountered, is that during the 4 years that the 
Ares I program has been going, for example, it slipped 
somewhere between 3 and 5 years of schedule--depending on whose 
numbers one chooses to accept.
    In addition, we were concerned about the fundamental goal 
of the program, which was focused on going back to the Moon 
rather than something more aggressive such as eventually going 
to Mars with some interesting intermediate stops. Talking to 
many people, particularly young people, we found that when we 
said 20 years from now we will be going back to the Moon, most 
of their response was, ``they will have done that 60 years 
ago.'' That led us to be very concerned that our Nation would 
not be able to maintain the financial support for a program 
that would require continuous funding from five 
administrations, nine Congresses, and 18 budget cycles.
    Let me turn to the President's program very briefly, as it 
was modified in his remarks at Cape Kennedy a few weeks ago. 
That program fairly closely approximates one of our committee's 
options, Option 5B. I should emphasize that we were asked to 
provide options, not to provide recommendations, so that we 
could try to be somewhat neutral in this discussion--and we are 
trying very hard to do that.
    The President's program in our view, at least as reflected 
in Option 5B--they do differ somewhat--it is considered to be a 
viable program and we rated it very highly in our overall 
assessment. We offered two very important caveats. The first is 
that a vital part of that option is its funding profile, not 
just the next 5 years but throughout the entire program. And 
the second is the decisions truly be made on the schedule that 
they have been planned.
    I am sorry to report to you that we, as best as we tried, 
could find no interesting human space exploration program for a 
sum of money substantially below the enhanced budget level we 
described--which, simply stated, adds about $3 billion a year 
to the current NASA budget (and that has to be inflated 
appropriately).
    The most important request I would make to this committee 
on behalf of my colleagues on the Human Spaceflight Committee 
was that whatever program is approved, that its goals match the 
budget. Otherwise, I think we will all be back here 10 years 
from now having this same discussion. It certainly remains the 
hope of myself and the Committee I had the privilege of serving 
on that America can have a strong human spaceflight program 
reflecting the title of our report which is ``A Human 
Spaceflight Program Worthy of a Great Nation.''
    Thank you very much.
    [The prepared statement of Mr. Augustine follows:]

         Prepared Statement of Norman R. Augustine, Chairman, 
            Review of U.S. Human Spaceflight Plans Committee

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to address America's future human spaceflight plans. I, 
like you, have had the great good fortune to have lived in this tiny 
sliver of time when humans first began to explore space, and have had 
the even greater good fortune to have participated in some small part 
of that effort as an engineer and as a manager. I must confess to you 
that I am a proponent of human spaceflight--not so much because of its 
impact on the economy, its support of science, or its advancements in 
engineering--although it does all those things--but for the intangibles 
it offers, including the inspiration it provides to our Nation's 
citizenry, particularly its young people; for the impact it has in 
paving the way for humans to move further out into the planetary 
system; and for what it says to the world about the American people and 
what we and our system of government and free enterprise can 
accomplish.
    I should note at the outset that it would be difficult to gather a 
group of colleagues at this table for whom I have greater respect and 
admiration than those in whose company I find myself today. 
Nonetheless, as we have all noted, human spaceflight is a topic about 
which reasonable, caring people can, and do, sometimes disagree. In my 
opinion such healthy discussion can only help assure, as stated in the 
title of the report of the Committee I recently chaired, that we have 
``a human spaceflight program worthy of a great nation.''
    I have been requested to speak this afternoon from the perspective 
of the Committee on Human Spaceflight Plans, and to compare its 
findings and circumstances with those of a similar committee I chaired 
some twenty years ago. The most recent committee, which has now been 
formally disbanded, included scientists, engineers, managers, 
astronauts, professors, and a retired four-star Air Force General 
Officer. The findings in our report reflect our unanimous views.
    I should note that in the case of the most recent study, our group 
was asked to provide options for consideration by the President, 
Congress and NASA. We were specifically not requested to provide 
recommendations--presumably so we could adopt a neutral stance in 
assessing the pros and cons of the various alternatives we might 
identify and not have to be advocates for any one proposed course. I 
have tried very hard to be faithful to that charge throughout the 
recent debate, albeit in some instances that has been impossible: for 
example, when narrowing the some 3,000 options our committee's 
methodology identified down to a set of five options offered in our 
report.
    Let me begin with the review that was conducted 20 years ago that 
addressed the entirety of NASA's space activities, not solely the human 
spaceflight program as was the case in the more recent review. The 
earlier assessment was conducted in the shadow of the Challenger 
failure in which we lost seven of our friends and colleagues. It was 
also conducted as the Soviet Union--which had provided the impetus for 
much of America's space activities until that time--was breaking apart. 
And, while funding for NASA always seems precious, at no time during 
the space era has NASA found itself in so challenging a budgetary 
environment as exists today. This of course cannot be ignored.
    Some of the relevant findings of that report of twenty years ago 
have a bearing on the purposes of this hearing today. These included 
the observations that:

  <bullet> NASA is being asked to pursue goals that are not matched by 
        the resources that are provided--a hazardous practice in a 
        pursuit as demanding as human spaceflight.

  <bullet> Based upon our skepticism of the Shuttle reliability 
        calculations, the loss of another Shuttle appears likely.

  <bullet> Construction of a true heavy-lift launch vehicle is the 
        highest priority for future human spaceflight activities.

  <bullet> The technology program that underpins spaceflight is being 
        starved, thereby leaving future decision-makers with only 
        limited options.

  <bullet> America should have a balanced space program, using humans 
        and robots where unique advantages are offered by each.

    Turning to the present, the most important finding of the Committee 
on the Future of Human Spaceflight Plans was that the ongoing program 
is on an unsustainable trajectory. The reason is straightforward: when 
NASA began that program, for reasons it presumably believed sound, it 
predicated the effort on a future budget profile that each year has 
proven to be fully one-third less than planned. The impact of this has 
been exacerbated by NASA's very high fixed costs--in some part 
attributable to the Congress's practice of instructing the 
Administrator of NASA not to reduce NASA's workforce or facility 
structure.
    The above approach contrasts with that at the end of the Cold War, 
when the aerospace industry, in pursuit of efficiency, lost 640,000 of 
its employees and two-thirds of its companies or divisions of companies 
within a few years. Make no mistake, NASA is the finest space 
organization in the world with an extraordinarily talented group of 
people. But it is also a large, mature organization without a strong 
competitor. At least in the business world that is usually a formula 
for complacency, not success. The consequences of funding mismatches in 
such an environment can be severe. For example, the mismatch of ends 
and means coupled with technical problems that were encountered on the 
Ares I program were such that during its first 4 years the program 
slipped between 3 and 5 years--depending upon whose schedule estimate 
is accepted. Further, the heavy-lift vehicle and lunar lander were 
largely deferred. The question that thus arises with regard to the 
resulting disconnect among the Ares I schedule and that of 
International Space Station and the planned lunar return becomes not 
one of can the Ares I be built, but should it?
    While the Committee did not offer a program that canceled the 
Constellation program in its entirety, it did offer an option, referred 
to in the report as ``5B,'' that generally approximates the President's 
plan as it was described during his recent remarks at Cape Kennedy. 
This program appears to be a viable undertaking, one that ranked highly 
in our overall assessment . . . provided, and this is to be emphasized, 
that it is funded as stipulated and that decisions are made as 
scheduled (especially those regarding a heavy-lift vehicle). The 
funding profile identified in our report to support Option 5B adds to 
the baseline budget profile $3 billion per year, phased in over the 
next 4 years and realistically corrected for inflation using the 
appropriate aerospace indices.
    While the technical challenges of human spaceflight, especially 
beyond low-Earth orbit, are immense--the determining factor in defining 
the program the Nation is to pursue is the amount of funds the Nation 
wishes to commit to the enterprise. At the higher or ``enhanced'' 
budget level the human spaceflight program would cost each citizen 
about 10 cents per day. Nonetheless, the aggregate sum is undeniably 
immense.
    Try as we might, our committee could find no dynamic, responsible 
human space exploration program costing less than the program augmented 
by $3B per year in inflation-corrected collars. That is not to say 
there are not important things to be done in space for lesser funds, 
particularly with robotics, but rather that human spaceflight programs 
under the more restrained funding profile will necessarily be confined 
to some 300 miles from the Earth's surface.
    Option 5B clearly establishes a human landing on Mars as the 
primary objective for the human spaceflight program. Unlike 
Constellation, which sought to reach its initial exploration goal, the 
Moon, some 20 years in the future, Option 5B follows a path with 
interim accomplishments including docking with an asteroid; visiting an 
Earth-Sun Lagrangian point and conducting training operations there; 
circumnavigating Mars; orbiting Mars; landing on one of Mars' moons, 
Phobos or Deimos; and eventually landing humans on Mars. A return visit 
to the Moon is also quite possible, for technical and science reasons; 
however, it should be noted that our committee received many informal 
inputs, particularly from young people, questioning why we would have a 
space program whose centerpiece is something that was accomplished over 
a half-century earlier. Both China and India have announced plans to 
land humans on the Moon and it seems unrewarding for the U.S. to 
participate in a second race to the Moon.
    Option 5B, like the President's proposed program, provides for the 
commercialization of transportation between the Earth and low-Earth-
orbit. The reason for this is that sooner or later NASA must free 
itself from operating a logistics line to low-Earth-orbit or it will 
not have the funds needed to meet the grand challenges that await 
beyond low-Earth-orbit and which NASA and only NASA is equipped to 
address: namely, the exploration of the solar system.
    Our committee's report explicitly states that commercializing 
transportation to LEO is not without risk. Nothing in space is without 
risk. But it is the Committee's belief that with proactive oversight by 
NASA, such an approach is feasible and responsible. From a purely 
business standpoint, we draw the analogy to the Federal Government's 
guaranteeing a market to carry the mail to the fledgling airlines--an 
action that made airline travel commercially practicable.
    When including this concept in some of the options in our report we 
noted that all companies, large and small, should be allowed to compete 
for the market created as just described. We noted that throughout its 
history NASA has performed the critical role of providing direction and 
oversight for industry--but it has been industry, not NASA, that has 
built the overwhelming preponderance of America's space hardware. 
Further, one wonders what message our government sends in the 
increasingly competitive global marketplace if it concludes that 
America's industry is not capable of safely carrying our astronauts 
into orbit, yet it is comfortable having Russia's industry do so.
    I will not seek to repeat the contents of our 154-page report this 
afternoon. But I would like to conclude with our most strongly held 
over-arching conviction, and that is that it would be a disservice to 
NASA and to this Nation to yet again initiate a space program where the 
means do not match the ends. Doing so merely guarantees that we will be 
meeting here still another time five to 10 years hence. It is one thing 
to preserve jobs . . . it is another to conduct a space program. In 
this case, the former is easy . . . the latter is difficult.
    Assuming that this principle of matching goals and resources is 
embraced, I have the utmost confidence that the extraordinary people of 
NASA, under Charlie Bolden's exceptional leadership, can successfully 
carry out whatever program you who lead our Nation may select. And I am 
hopeful that it will be a program that, as the title of our committee's 
report states, is ``worthy of this great Nation.''
    Thank you for this opportunity to speak on behalf of my colleagues 
on the Review of the U.S. Human Spaceflight Plans Committee.
       Review of U.S. Human Spaceflight Plans Committee--Members
    Mr. Norman R. Augustine
    Retired Chairman and CEO
    Lockheed Martin Corporation

    Dr. Wanda M. Austin
    President and Chief Executive Officer
    The Aerospace Corporation

    Mr. Bohdan I. Bejmuk
    Chair, NASA Constellation Standing Review Board

    Dr. Leroy Chiao
    Former Astronaut, Former International Space
    Station Commander and Engineering Consultant

    Dr. Christopher F. Chyba
    Professor of Astrophysics Sciences and International Affairs
    Princeton University

    Dr. Edward F. Crawley
    Ford Professor of Engineering
    Massachusetts Institute of Technology

    Mr. Jeffrey K. Greason
    Co-founder and Chief Executive Officer
    XCOR Aerospace

    Dr. Charles F. Kennel
    Director and Professor Emeritus
    Scripps Institution of Oceanography
    University of California, San Diego

    General Lester Lyles
    United States Air Force (Retired)

    Dr. Sally Ride
    President and Chief Executive Officer
    Imaginary Lines

    The Chairman. Thank you, Mr. Augustine, very much.
    I am going to ask the first question.
    Captain Cernan, you indicated that we were potentially 
headed on a journey to nowhere, and I guess I have, in all 
honesty, to respond by saying that I am not a huge, but I am a 
substantial skeptic of human spaceflight. We are approximately 
the same generation, but that is where I am. I cannot support 
going into space as an end in and of itself. I agree with the 
President that we need a measured, nationally, globally 
relevant, and sustainable human spaceflight program, not one 
solely bound by place and time in space.
    But my mind is not closed because I am not an expert. I 
want to understand the value of human spaceflight.
    But I bring one other dimension to it. I want to understand 
human spaceflight--I am asking this of any of you, not all 
three of you, but any of you--that it not just be the matter of 
spaceflight but that it also relate to the human condition not 
only in the world but also in our own country.
    I think NASA was conceived brilliantly with the idea of 
simply doing something that had never been done before, and we 
have done it now a number of times. And I do not mean to say by 
that that we should stop doing it. But I do think we have to 
stop doing things exactly the same way. I mean, NASA for a 
number of years has received a lot of criticism over how it has 
managed its programs. The GAO has not been kind. Various 
analysts have worried about over-expenditures, things of that 
sort.
    So I want to understand the value of human spaceflight. I 
want one of you to tell me how NASA's human spaceflight 
programs advance the agency's overall mission today and in the 
future. And I also want you to explain how human spaceflight, 
in that it is in a context of other priorities for NASA, helps 
the human condition sufficiently to justify its budget in 
America.
    Mr. Cernan. You are asking for a lot. I will do my best and 
I will certainly let my colleagues here help me, if they would 
like.
    If you want to talk about technology, technology which you 
have in your hands today, the technology to communicate around 
the world, the technology of communications itself, the 
technology that I have in my iPhone today is technology that 
was given birth to 30, 40, 50 years ago.
    I skipped over my comments about technology that we are 
talking about in the proposal. Exploration drives technology 
innovation, not the reverse. You cannot lock a group of the 
smartest young men and women in the world in a room--engineers, 
scientists, technicians--and say go develop technology. For 
what? There has to be a purpose, just like there has to be a 
purpose in life. They have to know what they are trying to 
accomplish, what their goal is, what the problems are, and then 
develop the technology that gets the job done. Going to the 
Moon. The technology that we developed to go to the Moon. Walk 
in our hospitals today. Walk in our classrooms today. Is that a 
benefit to us humans here on this Earth today? I like to think 
it is. You can go deeper into that, but let me get a little bit 
more philosophical.
    Curiosity is the essence of human existence. Who are we? 
Where are we? Where do we come from? Where are we going? Is 
there life on Mars? Is Mars what Earth is going to look like in 
a billion years? Are we like what Mars looked like a billion 
years ago? I do not know. I do not have any answer to those 
questions. I do not know what is over the hill and around the 
corner, but I want to find out. It is within our hearts and 
souls and desire to find out and seek knowledge. Discovery is 
what it is all about.
    And yes, we have been there, but we have not been 
everywhere. There is a bottom to the ocean. You can walk to the 
top of the highest mountain on this planet and you can walk to 
the depths of the deepest ocean, but you are still on Earth. 
And there is a difference between the frontier of space to seek 
knowledge. Was there life on Mars? Is there life?
    I know there have to be other reasons to go there. That 
alone is not enough, but that is one of the driving things. It 
is our destiny, I believe, to explore the unknown, to find 
answers to the questions, and God knows for every answer we 
get, we will come up with a dozen more questions. It has been 
that way all along. We have got more questions about the Moon 
now than we did before we went there.
    So I am probably not being as explicit as you would like me 
to be, but to the benefits to humans on this planet, whether it 
is communication satellites, weather satellites, predicting 
storms, whatever, you can go on and on and on. Those things 
were given birth to when Kennedy said we are going to go to the 
Moon. He was asking us to do the impossible. He was asking us 
to do what most people did not think could be done, and we did 
not have the technology to do it. That technology is obsolete 
today in one sense, but American industry, American ingenuity 
has built upon that so that we have today what we have in our 
cars, in our airplanes, in our transportation, in every walk of 
life.
    I will turn it over to Neil.
    The Chairman. I cannot. I have overrun my time. I thank you 
for your answer. It was very helpful.
    Senator Hutchison?
    Senator Hutchison. Mr. Chairman, I would just add to what 
Captain Cernan said and say that is it an improvement of our 
life on Earth that we can put a satellite-guided missile into a 
window from 3 miles out and instead of killing 500 civilians, 
you kill the enemy that you are seeking, is that an 
improvement? Because that is what has happened because we 
explored in space.
    Let me talk about the future. Dr. Samuel Ting, the Nobel 
Laureate from MIT, talks about what we can do in the space 
station in the future to study cosmic rays which are most 
intense in space, not on Earth, as potentially a future source 
of energy production. That is the kind of science we are 
talking about. We are not talking about just going into space 
to go into space.
    I think that is a valid question, and I think you have 
asked a valid question. If that were all we were doing, I would 
not be pushing this. I am pushing it because if we continue our 
priorities in space, we will be the ones that can capture the 
cosmic rays and have the renewable energy sources that will 
keep us from having to drill for oil and gas and go to the 
renewable energy of the future. That is why we are doing this. 
It is the future, and we want to do it rather than having 
others do it so that we harness it.
    So I want to ask the question because I want to go to 
something that Dr. Cernan said in his testimony that he did not 
use because there were so many other things that you did say. 
And that is talking about putting all of the money into private 
contractors but having NASA take the step back rather than it 
being a NASA project with private contractors.
    You said that we assume that this goal says that these 
private contractors that are not yet tested in a little more 
than 3 years for less than $5 billion can put people into low-
Earth orbit in a new vehicle. It assumes they can design, 
build, flight test, and develop a man-rated spacecraft and 
booster architecture, along with the infrastructure required. 
This includes redesigning the requirements of mission control, 
developing the support and training simulators, writing 
technical manuals for training and onboard procedures, and 
developing the synergy between the tracking network and the 
uniqueness of a newly designed space vehicle. These are just a 
few of the development and support requirements to put a new 
manned system into space.
    Basically what you went on to say is that you predict that 
it will be 10 years, not 3, for the private sector to do this 
and at a cost which possibly could mean bailing out the 
companies because we could not really do all of that under $5 
billion.
    My question is, do you think that money ought to be spent 
with NASA redoing their plan so that they are in control, but 
not just with blinders on as it seemed that General Bolden was 
saying, ``within my budget I can do this.'' Well, how about 
being more creative in your budget? How about not doing just 
Constellation but a new configuration of Constellation? How 
about an Orion that is not just a return vehicle but one that 
can take people into space as well, but put our money not into 
termination contracts at $2.5 billion, not into programs that 
would try to help people who are going to lose their jobs, not 
into renting space on Soyuz, but into developing our own 
techniques so that we will gain these advantages? Would that be 
what you were proposing, Captain Cernan, in your statement?
    Mr. Cernan. Well, referring to what I think you asked at 
first about all the infrastructure that is needed to support 
the commercial sector, which is one of the reasons why I think 
the costs will go way up, as well as the time, the Aerospace 
Corporation I think did a report that said it would take 
probably $10 billion to $12 billion to support the commercial 
sector, and it does not count the infrastructure, the 
simulators, the mission reconfiguration or mission control, the 
air/sea rescue because it has got to come down. Some of them 
may come down where you do not want. All the procedures, 
everything that you have to develop.
    A lot of people think that we played handball. When it came 
time to fly in space, we put on a space suit and jumped into a 
spacecraft and went to the Moon. We spent years and years 
helping the engineers at NASA, at Martin, at Rockwell, helping 
design, develop, test. We were out there 24/7, 6, 8, whatever 
number of years it took to get the spacecraft that we were 
going to fly developed properly and safe, that we had 
confidence in.
    So how and when is that going to be prepared for, and what 
is the commercial sector going to--how are they going to handle 
that? How are they going to pay for it? Are we going to 
subsidize all that? Is it going to be a NASA program or a 
program that NASA pays for that we let someone else run? Are 
they going to respond to all our regulatory requirements on 
safety? These are things that I do not think have been 
addressed properly yet. I do not think that they have been 
looked at.
    As far as I think what you asked is where I would go, my 
opinion is probably not worth much these days. But I am 
concerned in the near term about the gap.
    In the long term, I am concerned about exploration because 
that is my bag. Exploration, going where no man has gone 
before, doing what has not ever been done before, that others 
could not do, would not do, or maybe were afraid to do. That is 
exploration.
    But in the near term I know how you feel about Shuttle 
extension. I do not know anything about the capability to 
finance it. I think we ought to stretch the Shuttle out and 
close the gap from the front end. I think we ought to have 
something that closes the gap on the back end. I do not believe 
that is commercial space. I believe it is something we have 
invested $9 billion in already called Ares I and Orion. Get it 
up. Get it running, and instead of a potential gap of a decade, 
we might knock it down to 3 or 4 or 5 years. I do not know. But 
at least we will tell the rest of the world that we are not 
going to stay slave to what they say we can do or cannot do in 
space. We will have our own access. Even if there is a gap of a 
few years, we are going to get there from here. Get that done, 
Senator, and while we are in the process of doing it, if you 
want to redesign Constellation's long-term exploration 
objectives and build a new booster or whatever it takes, that 
is the time to do it.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Nelson?
    Senator Nelson. Mr. Chairman, I want to try to answer your 
question, and it is a good question. I want to thank you for 
the personal attention that you have given to this hearing 
being right here the whole time. I am profoundly grateful for 
that.
    My answer to your question, why space, is because we, as 
Americans, are by nature explorers. We have always had a 
frontier. When this Nation was developed, we had visionary 
leaders like Thomas Jefferson who paid initially about $2,000 
for Lewis and Clark to go westward. That trip ended up costing 
the extraordinary sum of $36,000, but it was fulfilling our 
destiny as a people who by nature are explorers and 
adventurers. And if we ever give up that characteristic, then 
we are going to be a second-rate Nation. That frontier is no 
longer westward. That frontier is upward.
    And as Gene talked about, we are inquisitive, we are 
curious. Look what the Hubble space telescope has now opened, 
the new vistas of knowledge peering back in time to the 
beginning of the universe. And once we get the James Webb 
telescope up there, we may be able to go right back to the 
origin of the universe. Is that valuable to us as an 
inquisitive people, as citizens of planet Earth? I think it is.
    That is my answer to your question.
    Now, may I ask a question of Mr. Augustine? Mr. Augustine, 
it goes without saying. Thank you for your steady hand 
throughout the years.
    You have heard the strong opinions expressed by these two 
American heroes, and the Committee that you headed contained 
representatives across the entire spectrum of government and 
aerospace. And it included military as well, and it included 
some astronauts.
    Now, can you describe how this administration's plan--and 
you can say how it has been amended as the President amended it 
down at the Kennedy Space Center--can you describe how it 
compares with the options that you laid out in your report?
    Mr. Augustine. I would be happy to do that, Senator Nelson.
    We had a possibility of up to 3,000 options based on the 
parameters we looked at. We narrowed them to five main options 
with a few subsets under several. As I mentioned, Option 5B is 
fairly close to the one the President has proposed.
    There are two potentially significant differences. One is 
that our option went ahead with the development of the heavy 
lift launch vehicle right away rather than wait up to 5 years. 
The other is that we had a funding profile that phased in over 
4 years, added $3 billion per year--and was inflated beyond 
that with the appropriate aerospace inflator. Thus, our funding 
profile was substantially greater than the one that we were 
offered by OMB last year because we could not find a good 
answer with the OMB profile.
    There are advantages to slipping the start of the heavy 
lift launch vehicle, as you would know. It gives time to 
accumulate more advanced technology. It helps the early budget 
pressures when you are trying to keep the space station going, 
ISS, at the same time--but you would pay the price that you 
lose time in being able to pursue the exploration program.
    I think the biggest risk is when 5 years has passed, or 
whatever it is, that the program does not restart. And that 
would be a tragedy in my opinion. That is to me the biggest 
risk.
    The option we offered, 5B, as I say, with those differences 
is close to the President's program. Assuming that the 
President's program is fully funded--and I have not seen the 
out-year funding in any detail, so I cannot testify to that--we 
found that Option 5B was a rather exciting program. Rather than 
wait 15-20 years and then land on the Moon, after a few years, 
it lets you, every few years thereafter, accomplish an 
objective that you could point to. You can dock with an 
asteroid. You might even try to move one a little bit. You 
could go to a Lagrangian point and conduct refueling 
operations, do maintenance similar to that you might perform on 
a telescope. You could circumnavigate Mars. You can orbit Mars. 
You can land on one of Mars' moons, Deimos or Phobos, and from 
there control robots operating on Mars, which overcomes the 
huge problem of robotic exploration on Mars, namely, that it 
can take up to 40 minutes to get a signal back and forth from 
here to Mars. It offers all of those rather exciting 
advantages.
    That brings me to two other aspects of the President's 
program that were similar to ours. We did say to shut down the 
Shuttle, but the only way you could avoid ``the gap'' is to 
keep the Shuttle going. The gap was created 5 years ago. That 
is a fait accompli. If you want to avoid the gap, the only way 
I know--and of course, by ``the gap,'' we refer to being 
dependent upon the Russians to launch our astronauts to low-
Earth orbit--is to use the Shuttle. Our view is it will be a 7-
year gap, not a 5-year gap, and we probably better get used to 
that idea.
    If you continue to operate the Shuttle, you can avoid much 
of the gap, but then the Shuttle consumes all the money you 
wanted to use to develop whatever is going to replace 
Constellation or some version of Constellation. Our 
deliberations kept coming back to how much money you have 
available, and you get all these tradeoffs that are just very 
hard to make. If you start a heavy lift launch vehicle now, it 
is that much less money you have to improve the Orion. The one 
thing that solves the problem is to add $3 billion a year to 
NASA's budget, and I know how difficult that is in today's 
environment.
    The Chairman. I want to make one final statement, and then 
I have to leave.
    Senator Brownback. Could I have a--oh, you are going to 
head out?
    The Chairman. Oh, I am sorry, but I need to do this because 
I have to leave----
    Senator Brownback. I understand.
    The Chairman.--because I was meant to give a speech 10 
minutes ago.
    What Senator Nelson indicated, the word ``exploration,'' I 
agree that is the nature of what Americans have always been. 
What I think is also worth considering and why I asked in my 
question to the captain, how human spaceflight contributes to 
the condition of humankind on this Earth, had another dimension 
to it. There are various forms of exploration. One is doing the 
undoable in the physical exploration sense, Lewis and Clark. 
You two gentlemen, what you did just caught the world. The 
world's heart stopped.
    But you know, it also stopped but unnoticed in 1876 I think 
when Thomas Henry Huxley came to open a new medical university 
called Johns Hopkins, and he said that in the 2,000 years 
previous to that date, there had been no advances in medicine 
at all, to wit, during the Civil War and other wars that often 
diseases were considered to come from outside into the body, 
which is why powders were constantly being applied to wounds 
but not necessarily diseases came from inside the body, which 
we now know to be different. And he did something and Johns 
Hopkins did something.
    In those days, there was no Federal funding for research of 
any sort. This is 125 years ago. There was no Federal funding 
for medical research at all. There were no requirements. 
Harvard had a medical school. Yale had a medical school. 
Stanford had a medical school. They all had medical schools. 
You did not even have to have a high school diploma to get into 
a medical school, much less a college degree. And so they took 
you and taught you nothing.
    What Johns Hopkins did when Thomas Huxley said you follow 
the truth wherever it takes you in medicine--there can be no 
compromise on that. You do what you have to do to follow the 
truth in science, in medicine. And as a result of that, 
literally the medical education of the United States has been 
completely revolutionized, and we all understand that now.
    Now, that is also--it is not spaceflight, but it is doing 
the undoable, taking on the unknowable, challenging with no 
Federal resources--you know, private foundations had to be 
suddenly activated at this idea of helping medical research. 
You could read about all of this in a book called The Great 
Influenza: The Epic Story of the Deadliest Plague in History by 
John Barry. It tells you all about it.
    So I just wanted to say in parting, not to rebut anything 
that has been said, that ``exploration'' is a broad word. The 
American search for newness finds many outlets, most of them 
quite glorious, but not all of them.
    I thank you. And Senator Nelson will continue to chair the 
hearing.
    Senator Nelson [presiding]. Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman. What 
a fascinating hearing and great discussion. This is the kind of 
hearing we ought to have all the time. So thanks, gentlemen.
    Norm, why not do what Captain Cernan suggests here? Let us 
phaseout the Shuttle and use that money to fund and move 
forward with Constellation. We have spent--what--$9 billion on 
Constellation thus far? This is one of the things that drives 
me nuts, is that we start and stop these space programs all the 
time. We put $5 billion in it, and say, oh, well, new 
administration, let us go somewhere else. I think it drives all 
folks crazy. But you have noted correctly Constellation was 
underfunded by a third in this, but why not go the route that 
Captain Cernan suggested as a way to move forward with 
Constellation?
    Mr. Augustine. Well, that is a very good question and it is 
a question we addressed early-on. I have written more articles 
than I would like to admit over my career about not changing 
programs, do not start and stop them. If you are going to start 
them, finish them unless there is a very compelling reason to 
stop. But in this case, we think there is a very compelling 
reason.
    Yes, it is also very tragic to have to write off $9 billion 
or part of it, but it is a sunk cost. It does contribute 
significantly, we think, to the building of the heavy lift 
launch vehicle sometime in the future. So part of the money is 
recoverable.
    The real issue comes down to the fact that when the program 
was started--Really the Ares I is at issue here . . . and I say 
that because the Constellation program, as you know, Senator, 
has four parts. It has the Ares I, the Orion capsule, the 
Altair lunar lander, and the habitat on the Moon. The latter 
two were not able to be started because the former two ate up 
the money. So really the existing Constellation Program only 
has two parts that money has gone into. One part is the Orion 
which, as I understand the President's program, most of that 
will continue on. So it is really Ares I that is at issue.
    Ares I was set up by NASA in 2005 with two primary 
missions. One primary mission was to support the International 
Space Station, to carry astronauts there. The second was to--
really three. The second was to be a part of the space 
exploration program 15 years from now, and the third was to 
provide technology and hardware to build a heavy lift version 
of an Ares.
    The problem is Ares I immediately slipped what our 
committee believes is 5 years, at least on the plan it was 
being developed, the International Space Station is going to be 
back in the ocean by then. And if you add 5 years to the life 
of the International Space Station, by the time the Ares gets 
developed, it will have maybe 2 years to support the 
International Space Station. Then subsequent to that, you will 
have a 15-year hiatus where it will either be the most 
expensive way in the world to put people in low-Earth orbit or 
it will be useful for the exploration program. But there is 
this long down-time.
    The Constellation Program perhaps made sense when it 
started. Today it is not a bad program. The issue is not ``can 
we do it?'' but ``should we do it?'' at least in the form it 
was laid out.
    Senator Brownback. And you do not believe we should do it 
then?
    Mr. Augustine. To our committee, of the options we looked 
at--and I am trying hard not to choose sides, it was one of the 
least attractive options laid out.
    Senator Brownback. I am taken by Captain Cernan's comments, 
which is we do not seem to have a plan now. I mean, we have a 
lot of ideas floating around, but we do not seem to have a 
plan. We were working off a plan.
    I agree with the low-Earth orbit that we ought to have a 
commercial sector. Let us try to develop that to go there. But 
I want a plan to go on, and this one seems to put that off for 
5 years. But you just believe that the budgetary numbers are 
such that even if you took the Shuttle money, you cannot get 
there with the plan that we were on, and so you are just better 
off going to something else.
    Mr. Augustine. Yes. It was our conclusion that with the 
budget that was presented to us, there was really no way, 
particularly with NASA's very high fixed overhead costs--you 
and I talked about this--to conduct a human exploration program 
that would be meaningful and safe.
    Senator Brownback. Well, I hope this is the beginning of 
the discussion, Mr. Chairman. We have had some good thoughts 
laid out here, but I hope this really now leads into getting 
the elbow grease on and us really digging into how it is that 
we move forward on these things.
    I thank you for your service, Norm.
    And Captain Cernan and Mr. Armstrong, you are just great 
American heroes, and I really appreciate your willingness to 
come back and to continue the fight for exploration that you 
have started and just gave us such an inspiration for and you 
do not give up on that inspiration. That, to me, is worth a 
huge amount, even if you cannot measure it. It is that 
intangible of the exploration that is worth a lot of money for 
us to do and for future generations.
    Thanks, Mr. Chairman.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Yes. I want to just say that I have 
heard the budget was the reason stated for why we cannot keep 
the Shuttle flying and close the gap. But we are talking about 
putting $6 billion into private sector companies, some of which 
are not developed yet or tested, and then we talk about having 
to, if they do not make their budgets, bail them out because 
you have already put $6 billion in. I would rather talk about 
what is the best plan and then try to determine the priorities 
so that you stay within a budget. We should not become wedded 
to only one way of doing it, but determine what is the right 
plan to get us where I think all of our goal is, and that is to 
be able to use the space station and to explore and to assure 
that we are getting the scientific product that we have already 
invested $100 billion in. If we let the space station be in 
jeopardy of even being useful by not having the backup systems 
that we control, I do not know that that is good budgeting 
either. So I have a problem with what I am hearing and the lack 
of creativity in what we do within the budget that I saw, 
especially in the first panel.
    I would like to ask Mr. Armstrong about the safety issue. 
In your written statement, you talk about the taxi service that 
we will be buying from the Russians and the Soyuz as being 
perhaps not necessarily up to the safety standards that we 
would have on our own Shuttle. Would you talk about the safety 
issue?
    Mr. Armstrong. The prime recommendation of the Columbia 
Accident Investigation Board with respect to new vehicles in 
the future was that safety be considered the prime 
consideration. And who can argue with safety? But you cannot 
put all the money into safety. Safety has to be balanced with 
program requirements and others. An acceptable level of safety 
has to be determined. That is what you are really searching 
for.
    We have pretty good confidence on the Shuttle right now. We 
have had a number of safe flights now ever since the Columbia, 
and it seems to be operating well. Nevertheless, it is a 40-
year-old technology, but I do believe that it can continue to 
be operated safely, as we have in the last few years, and I 
have a pretty good confidence level on that.
    The Ares I was projected by outside safety experts to be 
the safest vehicle that we could project in the future, and it 
was perhaps two or more times better than all its competitors, 
including the Shuttle launch vehicle, Ares V, and all the 
expendable combinations.
    They did not make a comparison with the commercial entries 
because they really did not have enough data on those 
configurations to project an accurate safety value for them.
    Senator Hutchison. Let me ask you this. Taking the Soyuz 
and the capability that we have to judge its safety over the 
long term--you know, they are using the same technology, 
probably 40 years old. But our capability to discern the safety 
of the Soyuz and the new commercial vehicles--do you think that 
safety would be at a disadvantage with the Shuttle as compared 
to the new spacecraft that we do not really have tested yet and 
the Soyuz? Do you have any concerns about the safety of the 
Soyuz or our ability to judge the safety of the Soyuz for a 7- 
or 10-year period, which both Mr. Augustine and Captain Cernan 
have suggested would be the real-timeframe for the gap?
    Mr. Armstrong. It is very difficult to project that answer 
until the commercial vehicles get into the flight environment 
and are more carefully configured and described in detail.
    I think that the Soyuz, you know, is clearly a very safe 
vehicle to return to Earth on.
    I think the Shuttle would continue to be safe for some 
years and we could depend on that. It might take a little extra 
care but I think it is certainly doable.
    I think that the key here on the Ares is that it was 
designed with the recommendation of the CAIB, but it is safety 
first. It was designed with that in mind. The commercial 
vehicles I just do not know what safety considerations they 
have in their design, but I am certainly hopeful that they are 
good, but I just do not know.
    Senator Hutchison. In your testimony you also comment on 
the Orion Light, which has the capability to bring people back 
off the space station but not go up--and it certainly is not 
going to have the capability to go to other destinations in 
low-Earth orbit--as being maybe an expensive project with 
limited usefulness. Do you think that that is the best use of 
our budget constraints, to have the Orion Light which has that 
limited capability as opposed to putting the same money into an 
Orion all the way that would be able to do some of the things 
that really the President said were his goal and which I think 
are quite exciting, doing an orbit around Mars or some of the 
other destinations besides the space station?
    Mr. Armstrong. No, I do not think it would be a good use of 
that segment of the funds in the budget. I think not because it 
would be quite an expensive vehicle to design and test, and it 
would be quite late before it would be ready and it would not 
be able to service the space station very long after it was 
finally completed.
    And second, the configuration is probably not very good for 
some of the most serious emergencies like a medical emergency 
where you have to have instantaneous departure from the space 
station and return to Earth because the aerodynamic 
configuration of an Orion-type vehicle has poor aerodynamic 
performance and consequently cannot change its destination and 
arrive quickly at some point. It is going to come down in the 
ocean or on land, wherever it comes down, if it is an immediate 
emergency departure.
    Mr. Cernan. May I add something to that, Senator?
    Senator Hutchison. Sure.
    Mr. Cernan. We already have under contract two Soyuz up 
there for rescue with the capability to put a third up there. 
So the redundancy or the reason for an Orion light just puzzles 
me, plus the fact the Soyuz lands on land, parachute, retro-
rockets and so forth, in our own landing facility. The Shuttle 
lands on a runway. Now we are going to have a ballistic or 
maybe slightly lift capability spacecraft very much like 
Apollo, and it is going to have to land in an ocean. Now we 
have got to regenerate the recovery forces.
    See, it is just not the cost of man-rating that vehicle 
which has to have men in it before you can put--and I use the 
term generically. Before you can put men or humans in it to 
bring them home safely, you have got to man-rate it to start 
with. And then you must have the recovery forces standing by 
somewhere, some aircraft carrier within reach somewhere, that 
is going to have to recover the spacecraft, a cost nobody seems 
to recognize or acknowledge. There is a lot of hidden, 
underlying cost in developing a spacecraft that is going, as 
you said earlier, to have half the capability of the one we 
really need.
    You know, if I may, we talk about budgets and cost of 
everything, and I want to remind the American people out there 
and maybe even some people in Congress that it costs little 
more than a half a penny of every tax dollar that you and I 
send to the Federal Government to pay for the Space Shuttle, 
space station, Hubble, Opportunity and Spirit on Mars--little 
more than a half a penny. I do not think the American people 
know that. I am not sure if we did not put a little box on that 
1040 and said, would you give a penny to NASA, that we would 
not be able to afford almost everything we want to do.
    Senator Hutchison. Well, I think that people would believe 
that the investment that we have made has improved the quality 
of life and health. The MRIs that people can get now, the 
magnetic resonance imaging, has transformed health care. There 
are so many things that space exploration--the preparation for 
it has given us in quality of life. I just want to make sure 
that we do not lose that advantage and the capability to 
manufacture those products in America for the quality of life 
in America and the world.
    We do have a vote. So I will close my part and thank you 
all very, very much for coming and for being so direct 
especially because we have to speak out and try to come 
together in a better plan than has been put forward so far. And 
I think General Bolden is going to try to work with us to see 
if we can come to a plan that everyone can feel is the right 
approach for America and for our future both economically and 
for the scientific productivity that we hope to encourage our 
children to pursue.
    Thank you, Mr. Chairman.
    Senator Nelson. Mr. Augustine, did your commission 
determine that Ares would be much safer than the existing 
Shuttle, and if I recall, was it by a factor of 10?
    Mr. Augustine. I must confess I find myself a little bit in 
the situation of Neil, until you build this hardware. Our 
committee is very skeptical of the reliability and the safety 
models. Most of the failures we have encountered are not even 
in the models, so I would be reluctant to make a comparison. As 
Gene has pointed out, the Ares I was designed specifically with 
safety and reliability in mind which should bode well in that 
regard.
    But by the same token--and I would like to say this about 
the commercial launch vehicles, if I might, Senator, although 
it was not your question, I think there are two things that 
have not come up in this conversation. One is that NASA, in the 
plan that has been put forth, would have responsibility to 
oversee safety and reliability for the commercial launchers. In 
other words, that part of it is NASA's responsibility to 
oversee. General Bolden understands that.
    The other comment is in talking about the commercial launch 
companies we tend to talk only about startup companies. Our 
option said that anybody who wants to bid, the big companies, 
the old companies, the Boeings, the Lockheed Martins, as well 
as the new start-ups, can bid. Regarding feasibility, one of 
the commercial companies, the larger companies, has a launch 
vehicle that in all its versions I think has over 90 straight 
successes now.
    I would like to make one other comment in that regard, if I 
might, just to put things in perspective. We tend to think that 
it is a big jump for industry to get to a really safe launch 
vehicle, and I do not want to understate the difficulty of 
this. There is risk here. There is risk anywhere in space. I 
was thinking, as we talked, again in terms of the advancement 
of technology over time and how much industry must have 
progressed since these gentlemen went to the Moon. The time 
from the Wright brother's flight until Neil and Buzz went to 
the Moon is just about the same elapsed time as it will be from 
the time they left the Moon until we return to the Moon under 
the plan in place. It offers kind of an interesting 
perspective.
    Mr. Cernan. Disappointing.
    Mr. Augustine. Disappointing.
    Senator Nelson. Mr. Armstrong, you made the case in your 
prepared statement--and by the way, we will insert in the 
record Jim Lovell's prepared testimony. That will be a part of 
the record.
    [The prepared statement of Mr. Lovell follows:]

      Prepared Statement of Captain James A. Lovell, USN (Ret.), 
                          Commander, Apollo 13

    I apologize that I cannot attend your hearing with my fellow 
astronauts, Neil Armstrong and Gene Cernan. I do want to submit this 
written testimony to establish my position with regards to the NASA 
2011 budget.
    As I celebrated the 40th anniversary of the Flight of Apollo 13, I 
also realized I was witnessing the end of an era. It was an era that 
started in the late 1950s when bold leaders decided to make America a 
leader in space technology. Projects were formulated and technology 
developed resulting in missions completed: Mercury, Gemini, Apollo, 
Skylab, Space Station including over 130 flights of the Shuttle. That 
era will end with the last Shuttle flights by the end of this year.
    In 2004, as a result of the Columbia accident, it was decided that 
a bold new approach to America's space exploration was needed. A 
program that would reach out to the moon and beyond. President Bush 
launched his ``Vision for Space Exploration'' to outline a project 
providing the means to continue America's prominence in space 
exploration and capture the imagination of its citizens.
    NASA initiated the ``Exploration Systems Architecture Study'' to 
determine the most cost effective way to provide continuous support of 
the ISS while fulfilling NASA's mission for deep space exploration.
    The resulting Constellation architecture envisioned two basic 
elements. The ARES 1 first to be a LEO vehicle and then be added to the 
Ares V for deep space missions.
    This vision for space exploration, and the NASA Authorization Acts 
of 2005 and 2008 was, over the years, endorsed by two Presidents of 
different parties and approved by both Democratic and Republican 
Congress.
    The Constellation Project was a program of much greater magnitude 
than any previous endeavor. It envisioned considerable exploration of 
the Moon:

        1. To gain experience and confidence in deep space operations.

        2. To develop the infrastructure necessary for considerable 
        length of stay and area of exploration in anticipation of a 
        future Mars expedition.

        3. To regain our prominence in lunar operations in anticipation 
        of other countries spaceflight activities.

    The failure of the past Administration to adequately fund the 
Constellation Program resulted in a slowdown of Ares I development 
putting the United States in jeopardy of not having access to the Space 
Station.
    When the President Obama canceled the Constellation Program, that 
eliminated progress on the Ares I for LEO operation and signaled the 
end of American dominance in space exploration. After years and 
billions of dollars to develop the ARES family of vehicles to serve LEO 
and outer space we have abandoned the dream of President Kennedy. And, 
as the Columbia Accident Investigation Board noted ``the failure to 
develop a replacement for the Space Shuttle program represented a 
failure in national leadership.''
    In some respects the Vision for Space Exploration which the 
Constellation Program was part is similar to Project Apollo. On 
announcing Apollo, Kennedy said ``this goal will serve to organize and 
measure the best of our energies and skills.''
    The 2011 NASA budget has taken NASA's mission on a new path. Recent 
pronouncements from NASA's Deputy Administrator revealed that NASA's 
goals are to relieve hunger and poverty, create world peace, improve 
education and the environment and create new jobs. As noted by 
Congressman Bob Bishop, NASA was established to explore space.
    NASA wasn't created as a ``make work'' program but it did provide 
jobs for thousands of people in the private sector.
    NASA's main focus is not on education. But it was a spur to 
education for thousands of youngsters. Children now in their late 40s 
or 50s who were inspired by our space activities.
    NASA wasn't established to revitalize business and industry but the 
manned program resulted in thousands of technical spin-offs from NASA 
development have helped the private sector unrelated to space 
activities.
    NASA was not meant to be a foreign relation tool but the space 
agency did bring close cooperation with countries through the 
development of the ISS.
    President Obama's remarks at KSC concerning the future of America's 
Manned Space Flight talked about ground breaking technologies to 
enhance spaceflight including research on a ``heavy lift rocket''. But 
his speech did not lay out a plan on how this technology will be used 
or who would use it. In the past, goals were first defined i.e., 
Mercury, Gemini, Apollo and then the technology was developed to 
accomplish the objective.
    The President mentioned subsidizing the development of commercial 
LEO vehicles to service the space station. In the past the private 
sector did design and build launch vehicles under government contract 
but NASA supervised their construction and flew them.
    Commercial space taxis are a possibility but is there a market for 
them? Between 2008 to 2010 there will be only 10 Shuttle flights to the 
ISS.
    Will these launch vehicles be ``manned rated'' with private money 
or will a massive infusion of government funds be necessary to make 
them ready for manned flight? If that is the case, the billions of 
dollars and time spent on Ares I will be lost as new launch vehicles to 
LEO are developed.
    The only access to the ISS after 2010 is by means of a Russian 
spacecraft. China and India have already developed launch vehicles that 
will allow entry into low-Earth orbit. In the future they could request 
entry into the ISS thereby extending its life. We must remember that 
the ISS overflies the United States. From a security standpoint, 
continuing Ares I development was the quickest way to reestablish our 
own entry to the ISS.
    The general thrust of the President's talk at KSC was to place NASA 
in a support role similar to its previous life: National Advisory 
Committee for Aeronautics. But NACA supported a viable entrepreneurial 
aviation industry. There are no commercial prospects for deep space 
exploration. Congress established NASA to pursue that objective.
    This Congress has to make a bipartisan decision whether to realign 
the NASA 2011 Budget to maintain the United States a leader in the 
exploration of space as outlined by the Constellation Program or forgo 
the prestige and respect we now enjoy from the rest of the world.

    Senator Nelson. You made the statement that we ought to go 
back to the Moon, and I want you to tell us why you think 
returning to the surface of the Moon is important as opposed to 
a lunar fly-by and going to Lagrangian points as we ultimately 
have the destination to go to Mars.
    Mr. Armstrong. Thank you, Mr. Chairman.
    I do believe that there is value in returning to the Moon. 
We know a thousand times more about the Moon than before 
Apollo, but there is still so much of it that is undiscovered 
and unventured upon. There may be valuable minerals or other 
materials in the lunar surface that can be used at such time as 
when permanent settlements will be made there. It is worthwhile 
knowing about those things. So I do think there is value in 
going to the surface.
    Nevertheless, there is also value in using the Moon as a 
location from which you do other activities, either Lagrangian 
points or other positions at lunar distance that can be reached 
easily by communication with only a second and a half time lag 
and allows mission control to continue to be involved in the 
efficiency and safety of the operation. We can learn in the 
lunar regions many of the things that are still unknown or 
undeveloped in our current state of knowledge about 
interplanetary space travel, particularly things like radiation 
protection and so on, where we have the possibility to get out 
of real trouble when we get in it because we are so close to 
home back to Earth. That is a possibility that we will not have 
once we find ourselves months away from Earth. So consequently, 
I think there is great value in continuing to include Moon as 
an integral part of the space exploration program as we go 
forward.
    Senator Nelson. OK. And I will just close by saying that 
Mr. Augustine said that they deliberated this on the panel, and 
they pointed out that one of the things you have to sustain is 
the support from the American people. What the Chairman of the 
Augustine Commission wanted to do was to get that excitement 
returned. And there was a legitimate question raised: Can you 
get by going back to the Moon? And perhaps you can if we know 
what our goal is. Now, the President has stated that goal.
    Now, let us see if we can achieve it.
    Thank you all very much. The meeting is adjourned.
    [Whereupon, at 5:41 p.m., the hearing was adjourned.]


                            A P P E N D I X

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. General, in conversations before this hearing with me 
and with several of my staff members, you indicated that you had 
available a detailed analysis that outlined the anticipated servicing 
requirements for maintaining and sustaining the International Space 
Station (ISS) through at least the year 2020, and that you would 
provide that documentation very shortly to me and my staff. I would 
like that information to be made a part of the record of this hearing, 
and so I reiterate a request that you provide the following:

        a. An in-depth assessment of all essential modules, operational 
        systems and components, structural elements, and permanent 
        scientific equipment on board or planned for delivery and 
        installation aboard the International Space Station, including 
        both United States and international partner elements, to 
        determine anticipated spare or replacement requirements to 
        ensure complete, effective, and safe function and full 
        scientific utilization of the ISS.

        b. The identification of spare or replacement elements and 
        parts currently produced, in inventory, or on order, and the 
        state of readiness and schedule for delivery to the ISS, 
        including the planned transportation means for such delivery. 
        Each element identified shall include a description of its 
        location, function, criticality for system integrity, and 
        specifications regarding size, weight, and necessary 
        configuration for launch and delivery.

        c. The identification of anticipated requirements for spare or 
        replacement elements not currently in inventory or on order, a 
        description of their location, function, criticality for system 
        integrity, the anticipated cost and schedule for design, 
        procurement, manufacture and delivery, and specifications 
        regarding size, weight, and necessary configuration for launch 
        and delivery, including launch vehicles known to be available 
        and capable of transportation of such items to the 
        International Space Station, in the event planned or proposed 
        transportation systems may not become available at all, or on a 
        timely basis in order to meet anticipated need-dates for 
        delivery to the ISS.

        d. For all the above information, provide a summary of the 
        basis for the determinations made, including a description for 
        the underlying data, including, but not limited to, on-orbit 
        analysis of failure rate experience to date aboard ISS, 
        compared to manufacturing assumptions, requirements and 
        certifications lifecycle expectations. Also include any 
        description of evolution of maintenance plans requiring return 
        to Earth for failure analysis, refurbishment, remanufacture, 
        and return to ISS, versus alternate or current plans for on-
        orbit repair or disposal.

    Answer. NASA has processes in place to continually plan for the 
operation of the ISS, and to adjust logistics resupply as required due 
to onboard failures, new issues that arise, or systems operating longer 
without failure than initially predicted. At a strategic level, the 
Agency plans for the delivery of cargo to the ISS by a mixed fleet of 
vehicles, and finalizes detailed manifests closer to the time of 
flight. Therefore, it is not possible to provide the level of detail 
requested for every piece of equipment to be launched to the ISS 
through 2020.
    However, in response to requests for detailed information about 
current ISS parts inventory and NASA's plans for delivering components 
to the Station and ensuring its sustainability to 2020, the Agency has 
provided to Committee staff the following information:

  <bullet> A listing of the remaining items to be flown aboard the 
        Space Shuttle; this list covers science payloads to be flown as 
        part of the Shuttle missions, as well as those to be taken to, 
        or returned from ISS during Shuttle missions.

  <bullet> A preliminary manifest (MIM Rev K Strategic Flight Plan), 
        showing cargo and crew launches to ISS from March 2011 through 
        November 2014. This manifest shows the associated Orbital 
        Replacement Units (ORUs) on the different vehicles. In some 
        cases, allocations are to be determined based on the timeframe, 
        and smaller ORUs are not necessarily tracked at this level--
        they in turn are manifested much closer to their respective 
        launches.

  <bullet> A detailed listing of ISS spares warehoused at Kennedy Space 
        Center, including part numbers, quantity, criticality code (a 
        description of the codes was also provided), and description/
        function of each item. Except for the Blanket and Box-L, 
        Blanket and Box-R, and the HRS Radiator, all other ORUs are 
        available to fly on Commercial Resupply Services (CRS) 
        vehicles. Where they are ultimately manifested will be based on 
        replacement needs on orbit. The only ORU in inventory that can 
        only be flown in the Shuttle is the HRS Radiator. All other 
        large spares that require Shuttle to deliver will be pre-
        positioned on ISS by Shuttle retirement.

  <bullet> A schematic of the ISS showing the External Orbital 
        Replacement Unit (ORU) Pre-Positioning Architecture, indicating 
        the 71 ORUs which will be pre-positioned in ten locations 
        around ISS as of January 2012.

  <bullet> A chart showing current projections of ISS requirements 
        versus cargo resupply capability from 2011 through 2020. This 
        chart provides projected metric tonnage to be delivered by 
        year, by vehicle type, including current and potential future 
        Commercial Resupply Services (CRS) providers, as well as 
        International Partner vehicles. Requirements are broken out by 
        crew supplies, water, and gas; maintenance. Extravehicular 
        Activity (EVA) demand; baseline utilization; and, contingency 
        maintenance, potential research opportunities.

  <bullet> A briefing by the Associate Administrator for the Space 
        Operations Mission Directorate on sustaining ISS operations 
        through 2020 after the Space Shuttle is retired. Topics covered 
        included internal and external spares strategy; post-Shuttle 
        launch capability, including the flexibility to accommodate 
        delays in the availability of CRS vehicles; sparing plans for 
        different Station systems (e.g., batteries, carbon dioxide 
        removal systems, oxygen generation); and, water inventory and 
        propellant requirements.

    Question 2. The 2008 Act required a report, within 120 days of 
enactment (October 15, 2009) of what would be necessary to sustain the 
ISS vehicle and systems through at least 2020. A report was finally 
received on August 7th, 2009. It provided information that was not 
particularly helpful and contained a number of contradictory items--
descriptions of critical systems for which analysis would be made in 
2011--AFTER the planned end of Shuttle operations--for systems that 
appear unlikely to be able to be transported to the ISS on any vehicle 
other than the Shuttle. In most cases, reliance for delivery was placed 
on ``planned'' availability of COTS cargo capability, because the 
additional cargo-delivery systems, the Russian Progress vehicle, the 
Japanese HTV and the European ATV, would still leave a short-fall of 40 
metric tons of required supplies. There was no indication of the impact 
of a failure of either the COTS cargo capability or the ATV and HTV 
systems, neither of which had flown to the ISS at that stage. Can you 
explain why this situation and response by NASA should inspire 
confidence that the needs of ISS sustainability are either a) fully 
understood and considered, or b) considered to be a serious defect in 
contingency planning to ensure ISS sustainability?
    Answer. Pursuant to Section 601 of NASA Authorization Act of 2008 
(P.L. 110-422), the NASA report, ``Plan to Support Operations and 
Utilization of the International Space Station Beyond FY 2015,'' noted 
that after the retirement of the Space Shuttle, the International Space 
Station (ISS) will be maintained by U.S. commercial cargo resupply 
systems and the International Partners' vehicles. This provides the 
Program with redundant systems for Station replenishment, in case there 
is a failure of a particular vehicle. The report described NASA's 
assessment of the major ISS systems and their viability beyond 2015, 
projected upmass and downmass requirements through 2020, and noted 
strategies to mitigate downmass constraints. As NASA and its partners 
continue to gain experience with the ISS, which has already been 
continuously crewed for almost 10 years, the sustainability assessments 
will be further honed. It is important to note that, with the exception 
of the HRS Radiator spare, all ISS spares that have not been 
prepositioned on orbit before the retirement of the Shuttle can be 
flown on other vehicles. Thus, in addition to having critical 
prepositioned spares on orbit, the Program will be able to fly ground-
based spares to ISS, as needed.

    Question 3. I should note that NASA was asked--at the urging of 
myself and other Members to the Augustine panel--to provide similar 
information to that Review of Human Space Flight plans. That submission 
was, in fact, more responsive and informative than the identical 
summary provided to the Congress, in roughly the same time period. The 
difference was, that the submission to the Augustine panel was 
considered an internal communication and did not require review--and 
amendment--by OMB. We have both submissions, and the comparison is 
dramatic. The same is true regarding the report required by the 2008 
Act regarding options for extending Space Shuttle flights. The NASA 
submission to the Augustine panel was much more informative--and in 
fact, I believe formed the basis for the fact that Shuttle extension to 
2015 was one of the options put forward by the Augustine panel in its 
final report. Is this an indication that, when the Congress requests 
information from NASA, the factual programmatic expert response of the 
NASA engineering and program managers is, in effect, diverted by OMB in 
a way that deprives the Congress of the accurate and complete 
information we need to make informed decisions?
    Answer. All NASA reports to Congress, including the ``Plan to 
Support Operations and Utilization of the International Space Station 
Beyond FY 2015'' and the ``Impacts of Shuttle Extension,'' are written 
to respond to the particular Congressional reporting requirement. The 
Agency endeavors to provide accurate and complete information in these 
reports, which are written with technical inputs from cognizant Agency 
personnel and vetted within the Administration to ensure consistency 
with policy.

    Question 3a. How do you respond to the fact that, at this point in 
time, we simply do not know, with any degree of certainty, that there 
may be essential components without which the full functionality--or 
even survivability--of the ISS can be assured, which would require the 
capacity of the Space Shuttle to be able to deliver?
    Answer. Please see the NASA response to Question Number 2, above. 
With the exception of the HRS Radiator spare, all ISS spares that have 
not been prepositioned on orbit before the retirement of the Shuttle 
can be flown on other vehicles.

    Question 4. Let me turn to the new plan announced by the President 
to revive the Orion Crew Exploration Vehicle that is part of the 
canceled Constellation Program, but in a design modification that would 
allow it to be launched unmanned on an expendable launch vehicle, to 
serve as a life-boat for the ISS. How is that development going to be 
paid for, and what is your estimate for the cost and the schedule for 
delivery to the ISS?
    Answer. NASA and the White House look forward to working with 
Congress to develop a plan that balances a restructured Orion project 
with the other priorities in NASA's FY 2011 budget. All of the pending 
appropriations and authorization bills match the President's top-line 
request for NASA, so any costs for a restructured Orion would need to 
be offset by reductions to other line-items.

    Question 4a. How many such vehicles would be required? Would they 
be cycled every 6 months, like the Soyuz vehicles, or would they have a 
longer on-orbit stay-time?
    Answer. A NASA study team that is developing plans for an emergency 
return vehicle is assuming a goal of at least a 3-year life on the ISS, 
and is assessing the technical details and costs associated with 
achieving this goal.

    Question 4b. How many seats would they provide? Would they enable 
the four seats that the United States is still obligated to provide 
under the Memoranda of Understanding and Intergovernmental Agreements 
for ISS signed in 1998?
    Answer. The emergency return vehicle study team assumed a 
requirement to return up to four crew members. This is consistent with 
the capabilities of the most current design for Orion's ISS mission 
version.

    Question 4c. Would that mean that the total crew size could be 
expanded to seven, as originally planned, thus enabling greater 
potential for crew time being applied to research, as opposed to ISS 
maintenance? If so, how would that impact the models for cargo and 
supply requirements?
    Answer. The plan for the emergency return vehicle would limit the 
use of the spacecraft to an emergency crew return capability. This 
would enable the return of up to four astronauts at a time, but since 
the vehicle would be launched un-crewed to the ISS, the Expedition crew 
size would be constrained to six by the use of two Soyuz spacecraft at 
a time for transportation to and from the Station.

    Question 4d. Given the three-seat limitations on Soyuz, would that 
make it impossible to expand the crew size because of no way to deliver 
the sufficient number of crews to ISS? If so, what is the advantage of 
developing and using the Orion as a crew-rescue vehicle only?
    Answer. Please see the NASA response to Question Number 4d, above. 
The development and use of the emergency return vehicle would provide a 
redundant rescue capability that would complement that of Soyuz and 
enable the ISS program to move away from ``single string'' dependency 
in that area. In addition, an emergency return vehicle could serve as 
the basis for further development of spacecraft technology for 
exploration.

    Question 4e. How would the cost of development and launch of the 
Orion CRV compare to the cost of simply continuing to pay for Russian 
Soyuz to serve the crew escape function?
    Answer. NASA is still assessing the costs of developing, launching, 
and operating an Orion emergency return vehicle.

    Question 5. In the 2005 NASA Authorization Act, signed into law as 
Public Law 109-155, the Congress stated that it was ``the policy of the 
United States to possess the capability for human access to space on a 
continuous basis.'' The law went on to make it clear that such 
capability for human access to space on a continuous basis was to be 
provided by U.S. transportation systems, not by other nations' 
capabilities that we would ``rent'' or purchase access from. It is also 
a matter of international agreement, within the ISS implementing 
agreements, that the U.S. would be responsible for providing access to 
the ISS for European, Japanese, and Canadian crew members. The decision 
to terminate Space Shuttle operations in 2010, at least 4 years before 
any replacement U.S. capability was then planned to be available, was a 
direct violation of both the spirit and the letter of that law. When 
you and your Deputy Administrator each took the oath of office as 
Administrator, after confirmation by the Senate, you both swore to 
uphold the laws of the United States. What have you done, since 
assuming your positions, to ensure that the law of the United States, 
establishing a policy of continuous U.S. capability for human 
spaceflight, is upheld?
    Answer. As noted in the above response the ``gap'' in U.S. human 
spaceflight capability was the result NASA not having sufficient 
resources to simultaneously fund continuing Shuttle operations while 
developing the next generation U.S. human spaceflight program. The fact 
of the gap has been long established; the questions have been how long 
the gap would last, and what domestic system(s) the U.S. would use in 
the future. The new direction for the Agency aims to minimize this 
period by encouraging a robust commercial space industry in LEO that 
can provide crew transportation services to the U.S. and its European, 
Japanese, and Canadian ISS partners.

    Question 5a. If a proposal by the Administration--whether the Obama 
Administration or the Bush Administration, created and imposed on NASA 
by the Office of Management and Budget, or by the Office of Science and 
Technology Policy--represents a direct circumvention of the law, what 
is your responsibility, as the Administrator of the agency empowered to 
implement that law, to take steps to inform the authors of that 
proposal that their actions are in violation of the law, and to insist 
that they adhere to the law and policy established by the Congress?
    Answer. It is the responsibility of everyone in public service to 
uphold the laws of the United States, and to ensure that proposals they 
advocate adhere to the law. In April 2009, NASA submitted to the 
Congress its Human Space Flight Capabilities report, which responded to 
language in Section 611(a) of the NASA Authorization Act of 2008 (P.L. 
110-422) directing NASA to report on the lack of a U.S. human 
spaceflight system to replace the Space Shuttle upon its planned 
retirement. This requirement was an amendment to a reporting 
requirement in Section 501 of the NASA Authorization Act of 2005 (P.L. 
109-115), referenced above. This report was required by law in case it 
was determined that the U.S. would not be able to maintain the 
capability for human access to space on a continuous basis.

    Question 6. The Statement of Work defined in the 2008 Request for 
Proposal for the Cargo Resupply Services contracts, issued to both 
SpaceX and Orbital Sciences Corporations, indicate a requirement (page 
159) for delivery to the ISS during Calendar Year 2010 of 2.7 Metric 
Tons of Internal Upmass, and one-half metric ton of return down-mass 
and 1.5 metric ton of disposal downmass. Have these requirements been 
modified under the CRS contracts? If not, can you provide:
    The current schedule for which compliance with these requirements 
are anticipated.
    Answer. The Statement of Work provided the initial requirements for 
the service providers to bid against. After contract award, actual 
upmass requirements and launch dates are negotiated with each provider 
and are baselined through the Vehicle Baseline Review for each mission. 
NASA and SpaceX have baselined the first three commercial cargo 
missions.

  <bullet> SpaceX CRS I September 2011 (tentative)

  <bullet> SpaceX CRS 2 October 2011

  <bullet> SpaceX CRS3 June 2012

    NASA is in the process of baselining the first Orbital Sciences 
Corporation commercial cargo mission through the Vehicle Baseline 
Review process.

    Question 6a. Whether alternative means have been identified for 
delivery and return of the specified amounts of material.
    Answer. The initial cargo manifest for any first cargo mission to 
the ISS is limited to low priority items. Initial Statement Of Work 
requirements for cargo in 2010 have been redistributed between the 
remaining Shuttle missions and International Partner vehicles.

    Question 6b. Any impact to ISS provisioning and operations 
resulting from a failure to meet these requirements.
    Answer. In the event of slips to the schedule for Commercial 
Resupply Services (CRS) flights, on-orbit spares that have been pre-
positioned will be employed to the extent necessary. Since requirements 
for component removal and replacement are a function of failure rates, 
this cannot be predicted with the precision requested. The pre-
positioning strategy for spares and consumables, as well as the cargo 
capacity and flexibility available on Automated Transfer Vehicle (ATV), 
H-II Transfer Vehicle (and Progress missions, ensures that any impacts 
to ISS operations and maintenance will be minimal during this period.

    Question 7. From the standpoint of relatively near-term human 
spaceflight, the President's proposed budget and associated plan seem 
focused on: (a) The development of a commercial, as opposed to 
government-owned human spaceflight launch capability and (b) The 
continuation--and expansion--of support to the International Space 
Station to at least 2020. Would you agree with me that, in actual fact, 
the two initiatives are directly interwoven, in that the real driver 
behind the business case for commercial space launch capability--for 
both cargo, as under the COTS program now underway, and for human 
spaceflight, at least in its early stages--is the existence of a 
viable, healthy, safe and functioning International Space Station?
    Answer. The decision to extend the International Space Station 
(ISS) likely to 2020 or beyond provided a real, sustainable, and 
relatively long-term base market for commercial human space 
transportation services. In the near-term, NASA hopes to be a reliable 
customer for human space transportation services for U.S. and U.S.-
designated astronauts for the ISS. Longer term, NASA hopes that this 
initiative will enable the eventual development of a robust, vibrant, 
profit-making commercial enterprise with many providers and a wide 
range of private and public users.

    Question 8. As you begin to develop the requirements for a 
competition for a commercial crew development contract, what would be 
the target date for full operational capability, and how would you 
define that?
    Answer. NASA's current planning reflects development flight 
demonstrations in 2014 and 2015, with the start of services flights in 
2016. NASA has not yet established agreed-to terms for Initial 
Operational Capability and Full Operational Capability. Those terms 
will be established with individual partners during the negotiation 
process.

    Question 8a. What is your best estimate for when a commercial crew 
launch system might be fully operational?
    Answer. The start of services flights would coincide with the 
system being ``fully operational,'' i.e., our estimate is 2016.

    Question 9. Estimates I have heard, range from operational 
capability within 3 years of the start of development, to as many as 5 
or even 7 years. That would mean 2014 at the earliest, if you start in 
2011, for which this budget is proposed, and as late as 2016 or 2018. 
In the meantime--assuming the end of Shuttle operations 6 months from 
now--for that 4 to 6 or 7 year period, the only vehicle available to 
carry any crew members to or from the ISS is the Russian Soyuz. (Let's 
assume, for the moment, that the newly-proposed Orion-derived Crew 
Rescue vehicle is not going to be available for most of that same 
period of time.)
    What would happen, General Bolden, if there were an accident with 
the Soyuz, either with the launch vehicle on ascent or the crew module 
on descent, which were serious enough to ground the Soyuz for an 
extended period of time while an accident investigation were completed 
and any necessary changes made?
    Answer. If an accident were to happen that would ground the Soyuz 
launch vehicle and crew module, NASA, along with its partners, would 
evaluate the risk to ISS operations including the state of the on-board 
Expedition crew. The safety of the on-board Soyuz spacecraft would be 
evaluated based on the particular failure. It is possible to make 
certain modifications to the Soyuz spacecraft on-orbit if necessary.
    Furthermore, the Soyuz spacecraft is a very robust system as 
demonstrated by anomalies experienced during descent in 2007 and 2008, 
which were subsequently reviewed and resolved. If it were determined 
that the onboard crew would be required to stay on-orbit beyond their 
certified Expedition period, it would be possible to extend the 
certification of the crew and spacecraft systems.
    In any case, NASA does not believe that there is any scenario 
related to a Soyuz accident that would require the immediate de-crewing 
of the ISS after a Soyuz accident. Any actions taken by NASA would be 
coordinated with the ISS Partners as well as with Congress and the 
White House.

    Question 9a. How long would it be before the six-person crew still 
aboard the ISS would have to evacuate--using, I would point out, two of 
the very same kind of vehicles which just experienced a critical 
failure, assuming the failure occurred on descent?
    Answer. See NASA response to Question Number 9 above. It should 
also be noted that any need to de-crew the ISS is directly related to 
the consumable stores on-board, health of the crew, health of the ISS, 
and the health of the spacecraft. This is a dynamic situation that 
requires in-depth analysis based on the constraining parameters at the 
time of occurrence.

    Question 10. If, in this scenario, the ISS crew had to abandon 
ship, how long could the untended ISS remain viable in a minimal state 
of ground-controlled automated activity, before its orbit might 
deteriorate or systems might begin to fail without crew maintenance, to 
the point it would be irretrievable or impossible to reactivate once 
the Soyuz were able to fly again?
    Answer. NASA has plans and procedures in place for the crew to take 
necessary measures to configure the ISS platform in order to maintain 
safe untended operations for an extended period. Among the tasks the 
crew would perform would be to configure the ISS for a minimum power 
usage and close all hatches. The ISS systems that are needed to 
maintain a stable and viable vehicle are robust in their ability to 
perform even after failures and anomalies. Key systems such as the 
electrical power system; guidance, navigation and control; 
communications; and, active propulsion have multiple layers of 
redundancy. The ISS would also be boosted to a higher orbit to maintain 
altitude, defer re-entry, and allow time for thorough analysis of 
recovery options.

    Question 11. Given the seriousness of this very plausible and 
possible scenario, it is of great concern to me that answers to these 
questions are not clearly available and have not been fully addressed 
before the decision was made to launch the country on this path for 
human spaceflight. Can you explain why these contingencies have not 
been fully--and satisfactorily--addressed BEFORE the FY 2011 budget and 
the new plan for human spaceflight was adopted by the Administration?
    Answer. The reliance of the ISS partners on a single crew 
transportation system (Soyuz) for a period of time between the 
retirement of the Space Shuttle and the development of a follow-on 
system was established years ago when it was determined to retire the 
Shuttle at the completion of ISS assembly. NASA cannot simultaneously 
fund continuing Shuttle operations while developing the next generation 
U.S. human spaceflight program, so a period of ``single-string'' 
reliance on Soyuz was unavoidable. NASA has been working with its 
Partners to ensure that the ISS is functionally and operationally 
robust in performance and in spares provisioning in order to mitigate 
any risk from a potential grounding of the Soyuz fleet. NASA believes 
that the plans it has put in place with the ISS Partners to provision 
the ISS by multiple transportation vehicles from Russia, Europe, Japan, 
and U.S. suppliers provide a very robust capability to safely operate 
and crew the ISS. Furthermore, the ISS itself is robust in design and 
operational capability to be operated safely without on orbit crew, as 
outlined in the NASA response to Question Number 10 above.

    Question 12. The Administration says it is ushering in a new era of 
doing business with these emerging entrepreneurs. It may be a new era 
but the fact is that substantial tax dollars are being funneled into 
these ventures both in terms of funding development work as well as 
funding actual missions. What is the specific analysis behind the 
agency's projected costs for reliance on the commercial ventures 
intended to provide cargo and ultimately crewed missions to the ISS? 
What is the basis for confidence in the reliability of these projected 
cost estimates? Given the steep learning curve these new ventures are 
on what is to prevent their costs, and therefore their ultimate 
pricing, from quickly outrunning the agency's out-year forecasts?
    Answer. NASA believes that the $6 billion provided for commercial 
crew in the President's budget request would be sufficient to award 
multiple development agreements, thus increasing the likelihood that 
multiple partners would succeed at developing a commercial crew 
vehicle. In addition, it is noteworthy to point out what the Augustine 
Committee said about the costs of potential crew cargo program: 
``Comparing the scope of providing a commercial crew capability to the 
cost of historical programs offers a sanity check. In the existing COTS 
A-C contracts, two commercial suppliers have received or invested about 
$400-$500 million for the development of a new launch vehicle and 
unmanned spacecraft. Gemini is the closest historical program in scope 
to the envisioned commercial crew taxi. In about 4 years in the early- 
to mid-1960s, NASA and industry human-rated the Titan II (which 
required 39 months), and designed and tested a capsule. In GDP-
inflator-corrected FY 2009 dollars, the DDT&E cost of this program was 
about $2.5-3 billion, depending on the accounting for test flights. 
These two comparatives tend to support the estimate that the program 
can be viable with a $5 billion stimulus from NASA.
    The Agency has not yet decided which contracting mechanism would be 
used for the development effort and or eventual procurement of 
commercial crew services. Should the Agency use a fixed-price 
agreement, for example, NASA's investment would be fixed and any cost 
overruns would be the responsibility of the commercial provider. The 
same can be said of the Agency's agreement with its current cargo 
partners, both in the development and services phases. NASA's 
investment in both phases is fixed and thus any cost-growth will be the 
responsibility of our industry partners.

    Question 12a. What are the specific terms and conditions that NASA 
intends to levy on these new ventures, and if the agency has not 
developed such detailed terms, how can it with confidence provide out-
year budget forecasts?
    Answer. NASA is developing a plan that supports the development of 
commercial crew transportation providers to whom NASA could 
competitively award crew transportation services. On May 21, 2010, NASA 
issued a Request for Information (RFI) seeking information that will 
help NASA formulate plans for Commercial Crew Transportation as 
proposed in the FY 2011 budget request.
    This RFI requested industry feedback to the NASA plans for 
certifying commercial crew vehicles for NASA services, including the 
Draft Commercial Human Rating Plan. In addition, the RFI sought input 
on the general acquisition strategy and philosophy. A second RFI is 
planned in the late summer time-frame for industry feedback on the ISS 
Service Requirements Document and Interface Requirements Document.
    RFI responses were due to NASA on June 11, 2010, and NASA is in the 
process of reviewing the proposals received. With feedback from these 
proposals, NASA will finalize the remaining requirements, reference 
documents, and acquisition strategy so that it is prepared to issue a 
commercial crew solicitation upon Congressional approval of the FY 2011 
President's budget request for commercial crew efforts.

    Question 12b. What are the specific exposures to the American 
taxpayer if NASA eventually terminates the commercial contracts just 
like it is canceling Constellation contracts, or for that matter, if 
the commercial ventures fail to fulfill their end of the contract?
    Answer. The potential exposure as a result of termination would 
depend on the terms and conditions of the instruments eventually 
selected to support the development, demonstration and services phases 
of any commercial crew transportation activity. Since NASA has not 
completed its acquisition strategy, we cannot currently state what 
those exposures are likely to be.

    Question 12c. What are the specific internal controls with these 
vendors that are being stipulated to ensure that taxpayer dollars are 
being properly utilized by these contractors? In their absence, how can 
the public be assured that their hard earned monies are not being used 
to pay lobbyists or other extracurricular activities not duly 
authorized?
    Answer. Details of the acquisition strategy have not been 
finalized. However, NASA can assure the Congress that all applicable 
Federal rules and regulations will be applied and followed regarding 
the contractor use of funds.

    Question 13. What specific analysis is behind the $2.5B 
Constellation Program termination cost figure in the FY 2011 Budget 
Request for FY 2011 and FY 2012? To what specific uses will those funds 
be applied?
    Answer. The FY 2011 budget request transitions away from the 
Constellation Program, and in doing so, provides a total of $2.5 
billion in FY 2011 and FY 2012 for Constellation closeout and 
transition costs--funding that is expected to cover closeout activity 
associated with facilities, environmental remediation, workforce, and 
prime and support contracts. A portion of this funding will also be 
used to support the retraining of Shuttle program contractors as that 
program is brought to a successful close. It should be noted, however, 
that at present, the breakdown of costs is not complete. The Agency is 
using the current budget planning activities to develop the details; 
and an implementation plan and coordinated communications with NASA 
responsible offices and current Constellation contractors are required 
to further refine this estimate, which is consistent with past planning 
experience and cost estimation for the Space Shuttle Transition and 
Retirement. NASA's experience with close-out of the Shuttle program 
will serve as a useful reference for the complexity of the tasks and 
the potential associated costs.

    Question 14. General, you heard bipartisan concern at the CJS 
Appropriations Subcommittee hearing where you testified, that NASA is, 
in the judgment of some members of this body, willfully encouraging 
vendors working on the Constellation program to self-terminate 
contracts in spite of very clear language in last year's appropriations 
bill directing the agency to continue implementing the authorized 
program of record. The response from NASA's General Counsel to a 
question following that hearing claims that the agency believes it CAN 
terminate vendor contracts associated with the program of record based 
on its interpretation of the words in the appropriations bill (but that 
it has not done so). General, I am being charitable when I call that 
interpretation of Congressional intent nonsensical. It was, and is the 
intent of the members of this body that your agency follow the law and 
implement the program of record, which is Constellation, until we 
direct you otherwise.
    Can you explain to us why, if you are faithfully implementing the 
program of record, we continue to hear from vendors that the agency 
``contemplates'' contract termination and is actively suggesting that 
vendors need to consider their ``termination liability''? Why is the 
agency even suggesting program termination to the vendors, in whatever 
context, since we have given you no indication we are going to cancel 
Constellation?
    Answer. NASA is not doing anything unprecedented. The Agency is 
managing the contracts in precisely the way that is required under both 
the Anti-Deficiency Act and the Federal Acquisition Regulations. Please 
reference the Government Accountability Office Opinion B-320091, July 
23, 2010, National Aeronautics and Space Administration--Constellation 
Program and Appropriations Restrictions, Part II. NASA has advised 
contractors that the Government is not obligated to reimburse them for 
any costs incurred in excess of the total amount allotted by the 
Government to their respective contracts.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Barbara Boxer to 
                      Hon. Charles F. Bolden, Jr.

    Question. The three NASA centers in my state, the Jet Propulsion 
Laboratory (JPL), Ames Research Center, and Dryden Flight Research 
Center, have all been an integral part of your agency's missions, 
producing world class research and development in the areas of 
aeronautics, Earth and space sciences, biotechnology, robotics, climate 
change research, and the next generation of flight technology. It is 
important that these centers retain their highly skilled workforce and 
fully maintain and expand their current research programs. Will you 
commit to continue to fully fund all three California NASA centers?
    Answer. Yes, NASA plans to fully fund all three Agency centers 
located in California, as stated in the FY 2011 President's budget 
request. NASA agrees that it is important to maintain a highly skilled 
workforce as well as fully maintain and expand current research 
programs.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. With NASA's proposed extension of the International 
Space Station through 2020, do you believe it's important for NASA to 
continue to pursue Ares I as a back-up if commercial space vehicles 
fail to meet NASA's needs?
    Answer. NASA does not support the continued development of the Ares 
I crew launch vehicle.
    As outlined in my testimony, the President and his staff, as well 
as my NASA senior leadership team, closely reviewed the Augustine 
Committee report, and we came to the same conclusion as the Committee: 
The human spaceflight program, including Ares I, was on an 
unsustainable trajectory. Therefore, the President recognized that what 
was truly needed for beyond LEO exploration was game-changing 
technologies; making the fundamental investments that will provide the 
foundation for the next half-century of American leadership in space 
exploration. Therefore, the FY 2011 budget request invests in 
commercial providers to transport astronauts to the ISS, which will 
allow NASA to once again focus on the most difficult technological 
puzzles such as building rockets that allow humans to reach other 
planets in days rather than months and protecting humans from radiation 
during interplanetary travel. NASA's FY 2011 budget request also 
includes investments in a new space technology research and 
development, and a new heavy-lift and propulsion technology development 
program.
    NASA recognizes that the development of a commercial crew 
transportation capability will share the same risks that are typical in 
any aggressive, challenging space hardware development program. 
Therefore, NASA is in the process of structuring its plan to support 
development of a commercial crew transportation capability, should the 
FY 2011 budget provide funding for this activity. At this time, if 
budget authority is provided, NASA plans to support the development 
efforts of multiple providers and to provide significant technical 
support during the development phase. This will maximize the likelihood 
that selected commercial providers will successfully complete 
development activities and will minimize the impact to the Agency if 
any one commercial provider is not fully successful in its development 
activities. With regard to the procurement of commercial crew services, 
NASA is hopeful that more than one partner will be selected to supply 
those services, thus providing redundancy of capabilities. Should those 
capabilities fail to materialize on time, NASA has purchased Soyuz 
seats through 2014 and has legislative authority to purchase additional 
seats through mid-2016.

    Question 2. The solid rocket technology used on the Space Shuttle 
and Ares rockets are also used in missiles that contribute to our 
Nation's defense. Is NASA coordinating with the Department of Defense 
to ensure our national security interests are also considered in this 
matter?
    Answer. NASA will continue to work closely with our other 
Government partners, including the Department of Defense as planning 
for FY 2011 implementation moves forward.
    NASA Administrator Bolden has consulted with his colleagues at the 
Department of Defense and the National Reconnaissance Office. In 
particular, the Administrator has had several meetings with Secretary 
Donley, General Kehler, and General Carlson, and he plans to continue 
to meet with them, as program decisions are made and we gain additional 
insight into the potential relevance to the space industrial base.
    Additionally, discussions are under way at all levels about 
ensuring we carefully consider and maintain the space industrial base, 
particularly with regard to NASA's discontinued use of solid rocket 
fuel and motors following the cancellation of Constellation. Several 
recent studies in this area, coupled with current dialogue in the 
Government's Solid Rocket Motor Industrial Base Interagency Task Force 
and several other joint forums, also address the this important area 
and NASA will continue to work to resolve any integrated issues in 
these joint forums at all levels. For example, NASA is working with 
Defense officials to develop a plan to maintain the intellectual and 
engineering capacity, including key workforce skills, to support next-
generation rocket motors as needed. The task force is co-chaired by the 
Office of the Secretary of Defense's Acquisition, Technology, and 
Logistics office and NASA and includes representatives from the 
Department of Defense, NASA, the Missile Defense Agency, the Air Force, 
the Army, and the Navy.
    While NASA has not conducted any formal assessments in these areas, 
NASA has worked with Defense officials to develop a plan to maintain 
the intellectual and engineering capacity, including key workforce 
skills, to support next-generation rocket motors as needed. The task 
force is co-chaired by the Office of the Secretary of Defense's 
Acquisition, Technology, and Logistics office and NASA and includes 
representatives from the Department of Defense (DOD), NASA, the Missile 
Defense Agency, the Air Force, the Army, and the Navy. This DOD report, 
entitled ``SRM Industrial Base Interim Sustainment Plan'' was submitted 
to Congress on June 23, 2010.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. The U.S. aviation industry will continue to face 
pressure from domestic and international stakeholders to reduce carbon 
emissions. Investment in aeronautics will be critical on this issue and 
NASA Langley is especially well positioned to be a leader on green 
aviation. What is the future of green aviation for NASA and what will 
Langley's role be in that future? Do you see a commercial role in this 
industry? Also, will NASA establish a lead Center for green aviation?
    Answer. NASA will continue to invest in aviation vehicle and 
operations research to improve fuel efficiency, lower noise levels, and 
reduce harmful emissions. Our goals are embodied within the National 
Aeronautics R&D Plan as updated in February 2010. Within its proposed 
FY 2011 aeronautics R&D portfolio, NASA has in place plans for research 
on advanced, highly efficient and environmentally friendly aircraft, 
more efficient and quieter aircraft engines, and air traffic control 
procedures to increase capacity and minimize delays in the air and on 
the ground. As one of NASA's primary aeronautics research centers, the 
Langley Research Center (LaRC) will continue to play key roles in green 
aviation research. The LaRC workforce and facilities are involved in 
conducting research on topics such as laminar flow for reduced airframe 
drag, airframe noise reduction, structural concepts for reduced 
airframe weight, advanced propulsion/airframe integration concepts for 
reduced noise and fuel burn, design of low-boom, low-emissions 
supersonic aircraft, and multidisciplinary systems analysis techniques 
to enable design of new aircraft systems.
    NASA utilizes cooperative relationships with commercial industry, 
other Federal agencies, and academia to realize the successful 
execution, implementation and transition of our research. We solicit 
ideas and concepts from the community through NASA Research 
Announcements, and investigate promising technologies and operational 
concepts in partnership with industry and other Federal agencies. The 
Agency also has established close ties with other Federal agencies such 
as the Federal Aviation Administration to better align our research 
activities and support eventual transition to operational use. NASA 
makes the results of this research broadly available to the aeronautics 
community so that aircraft and propulsion system manufacturers can 
confidently transition these technologies into the operational 
environment.
    NASA does not plan to establish a lead Center for green aviation 
research. Our green aviation research is integrated across our 
portfolio and is conducted within our Integrated Systems Research 
Program, Fundamental Aeronautics Program, and Airspace Systems Program, 
and takes place at the Langley, Glenn, and Ames Research Centers and at 
the Dryden Flight Research Center. The Langley Research Center will 
play an important role in the management and conduct of these research 
activities as it is the host center for one of the critical projects, 
Environmentally Responsible Aviation, and participating in all of the 
green aviation research activities.

    Question 2. In what ways will NASA re-engineer its organization and 
processes to support robust commercial space transport of humans and 
cargo to the ISS? How will NASA insure the safety of commercially 
developed crew space transportation systems? Are there ways to partner 
between NASA and commercial firms similar to the way NASA Langley 
worked in collaboration with the FAA to insure the safety of commercial 
airlines?
    Answer. Safety is and always will be NASA's first core value, so 
the Agency will provide significant--but not intrusive--oversight over 
any commercial venture, whether it be cargo or commercial. For example, 
NASA has a Commercial Orbital Transportation Services (COTS) Advisory 
Team comprised of approximately 100 NASA technical experts from across 
the Agency. These experts work with our partners and review partner 
technical and programmatic progress for each milestone and provide 
progress assessments to NASA's Commercial Crew Cargo Program Office. 
Additionally, they participate in all major design reviews providing 
technical review comments back to our partners. The advisory team 
provides another method by which NASA gains confidence that our 
partners will be able to perform their flight demonstrations.
    One of the strengths of the COTS venture is that we let the 
companies do what they do best, that is developing truly unique 
spaceflight vehicles using innovative processes that aren't available 
within the Federal bureaucratic framework. NASA gives them requirements 
that they have to meet and the Agency ensures that they have met those 
requirements, but NASA tries not to dictate how they meet those 
requirements. For example, each COTS partner must successfully verify 
compliance with a detailed set of International Space Station (ISS) 
interface and safety requirements prior to their planned ISS berthing 
missions. These requirements are imposed on all Visiting Vehicles 
wishing to visit to the ISS. Both COTS partners are currently working 
with the ISS program on a daily basis to ensure they meet the ISS 
visiting vehicle requirements. This also helps to give NASA independent 
insight into their progress and it builds confidence in their 
abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    With regard to Langley Research Center's past collaboration with 
the FAA, NASA is always looking for innovative ways to partner and 
collaborate with other Federal agencies and stakeholders, and we 
capture lessons learned from these partnerships and apply them, 
whenever possible to future ventures. It is too early to say whether 
NASA could establish a similar research partnership with commercial 
space entities, given that we are in the process of finalizing our 
acquisition plan for commercial crew services, should Congress approve 
the NASA FY 2011 budget request.
    To prepare for an eventual solicitation, on May 21, 2010, NASA 
issued a Request for Information (RFI) seeking information that will 
help NASA formulate plans for Commercial Crew Transportation (CCT) as 
proposed in the FY 2011 budget request. This RFI requested industry 
feedback to the NASA plans for certifying commercial crew vehicles for 
NASA services, including the Draft Commercial Human Rating Plan. In 
addition, the RFI sought input on the general acquisition strategy and 
philosophy. A second RFI is planned in the late summer time-frame for 
industry feedback on the ISS Service Requirements Document (SRD) and 
Interface Requirements Document (IRD). RFI responses were due to NASA 
on June 18, 2010. With this feedback, NASA will finalize the remaining 
requirements, reference documents, and acquisition strategy so that it 
is prepared to issue a commercial crew solicitation upon Congressional 
approval of the FY 2011 President's budget request for commercial crew 
efforts.

    Question 3. Can you give me an update of progress on initiatives to 
have commercial companies carry cargo to the International Space 
Station, and do you have enough funding in the FY11 budget to use 
commercial firms to partner in these efforts.
    Answer. NASA's commercial crew cargo program includes two phases--
the development phase which falls under the Commercial Orbital 
Transportation Services (COTS) program and the services phase, which 
falls under the Commercial Resupply Services (CRS) program.
    With regard to COTS, NASA currently has two funded partners, SpaceX 
and Orbital Sciences, which continue to make steady progress in 
achieving their cargo demonstration milestones. While each has 
experienced some milestone delays, this is not unexpected, since both 
partners have aggressive, success-oriented schedules, and are facing 
challenges typical of a spaceflight development program. As such, NASA 
sees no reason to doubt either company's ability to achieve its desired 
objectives--that of demonstrating commercial cargo delivery to and from 
the International Space Station in the 2011 timeframe. More 
specifically, both funded COTS cargo partners have progressed through 
their system design milestones, all of which are paid SAA milestones. 
Meeting existing SAA milestones is a primary indicator of progress, and 
completion increases our confidence.
    More specifically, SpaceX was awarded a COTS agreement in August 
2006 and as of mid-July, had completed 17 of 22 negotiated milestones 
for a total payment of $253 million out of $278 million. Space X is 
currently scheduled to conduct its first NASA demonstration mission in 
September 2010, followed by two additional demonstration flights in 
2011. Orbital Sciences, on the other hand, has completed 12 of 19 
milestones for a total payment of $140 million out of $170 million, and 
the company is scheduled to complete its NASA demonstration mission in 
June 2011. If approved by Congress, the President's FY 2011 budget 
request will be sufficient to pay for milestones these companies expect 
to achieve in FY 2011. Additionally, the President's budget request 
includes funding to help accelerate the achievement of already-planned 
milestones or introduce new milestones that would ultimately improve 
mission success for NASA's commercial cargo effort.
    SpaceX plans to launch its cargo delivery services from Cape 
Canaveral Air Force Station, Florida, while Orbital plans to utilize 
NASA launch facilities at Wallops Flight Facility in Virginia.
    NASA has also signed a fixed price Commercial Resupply Services 
(CRS) contract with both SpaceX and Orbital. The first commercial cargo 
delivery by SpaceX is currently schedule for July 2011. NASA is 
currently in negotiations with Orbital to baseline its first commercial 
cargo delivery flight.
    NASA is working with Orbital, the NASA Wallops Flight Facility and 
the Mid-Atlantic Regional Spaceport to establish the WFF as the launch 
processing and launch site for the Orbital Taurus II vehicle which will 
be used to launch the Orbital Cygnus vehicle that will carry cargo to 
the ISS under the CRS contract.

    Question 4. How best do we expand American commercial sector launch 
capability and capacity to ensure a low-cost competitive launch market 
to compete with the Russian, Chinese and Indian space programs for 
market share?
    Answer. Investing $6 billion in commercial crew efforts over the 
next 5 years will allow NASA to focus on the forward-leaning work we 
need to accomplish for beyond-LEO missions. Additionally, this 
investment will:

  <bullet> Reduce the risk of relying solely on Russia to transport 
        astronauts to the ISS following the retirement of the Space 
        Shuttle;

  <bullet> Free up NASA resources to focus on the difficult challenges 
        in technology development, scientific discovery, and 
        exploration;

  <bullet> Make space travel more accessible and more affordable;

  <bullet> Build an enhanced U.S. commercial space industry that 
        creates new high-tech jobs, leverages private sector 
        capabilities, spawns other businesses and commercial 
        opportunities, and spurs growth in our Nation's economy; and,

  <bullet> Inspire a new generation of Americans by these commercial 
        ventures and the opportunities they will provide for additional 
        visits to space.

    Additionally, NASA understands that human space exploration has 
driven technological advances that have made the United States more 
competitive in the global economy. NASA's new path forward will not 
surrender the United States' leadership in space but rather will enable 
the Nation to pursue exploration in new ways.
    The FY 2011 budget request invests in commercial providers to 
transport astronauts to the ISS. By allowing commercial providers to 
provide more routine access to low-Earth orbit, NASA will once again be 
able to focus on the most difficult technological puzzles to solve such 
as building rockets that allow humans to reach other planets in days 
rather than months and protecting humans from radiation during 
interplanetary travel. NASA's FY 2011 budget request includes 
investments in new space technology research and development, and a new 
heavy-lift and propulsion technology development program. More 
specifically, the budget request challenges NASA to develop the 
necessary capabilities to send Americans to places that humans have not 
explored before, including longer stays at exciting new locations on 
the Moon, near-Earth objects, strategic deep space zones called 
Lagrange points, and the planet Mars and its Moons. We have not sent 
people beyond LEO in 38 years, and this budget gives us the great 
opportunity to focus on scouting and learning more about destinations 
to further explore our solar system and to develop the game-changing 
technologies that will take us there. It is important that we pursue 
these objectives to continue leading the world in human space 
exploration.
    By investing in new technologies, NASA will be supporting the 
development of technologies and infrastructure that will allow U.S. 
commercial launch providers to be more competitive in the global launch 
marketplace, while at the same time helping NASA meet exploration and 
science launch services needs. For example, the FY 2011 budget request 
provides funding for the development of lower-cost, robust engines that 
could be used for future Exploration systems as well as helping power, 
lower-cost commercial launch vehicles. This strategy has already 
assisted NASA's commercial cargo partners attract international launch 
business, which in turn continues to support the U.S. commercial 
spaceflight work force.

    Question 5. With the extension of the International Space Station 
to 2020 (and even perhaps to at least 2028 as Europeans have suggested) 
how ready to you think the U.S. commercial spaceflight industry is to 
have human-rated capability to launch either NASA or commercial 
astronauts by mid-decade between 2014 and 2016 from facilities like the 
one at Wallops Island, Virginia?
    Answer. NASA agrees with the assessment of the Augustine Committee 
which found that, ``Commercial services to deliver crew to low-Earth 
orbit are within reach. While this presents some risk, it could provide 
an earlier capability at lower initial and life-cycle costs than 
government could achieve.'' Regarding when U.S. commercial companies 
could be ready, NASA is targeting 2015 for commercial crew 
demonstration flights and 2016 for the start of operations. The 
commercial providers will be free to use whichever launch facilities 
they deem to be the most appropriate given their technical and business 
approaches.

    Question 6. What role will private enterprise play in the 
development of new space propulsion systems? I understand there are 
some leap ahead commercial technologies that are scheduled to be flight 
tested as called for in the NASA FY 2011 budget.
    Answer. In the FY 2011 budget request, NASA plans to begin 
development of new liquid propellant rocket engines for a future heavy 
lift launch vehicle, demonstrate a high-power solar electric propulsion 
system, and develop technologies and concepts for nuclear thermal 
propulsion. These advanced propulsion technologies will enable NASA to 
pursue human exploration missions beyond Earth orbit by increasing 
payload capability and reducing trip time and cost.
    Private enterprise will play a key role in development of new space 
propulsion systems, in partnership with NASA. This includes a range of 
propulsion technologies, from large powerful engines for new Earth-to-
orbit launch boosters, to small innovative propulsion systems for new 
suborbital launch capabilities, to efficient advanced in-space 
propulsion systems that could ultimately enable faster trips to Mars.
    In all of these areas, NASA will partner with the private sector by 
soliciting proposals to develop and test advanced propulsion systems 
and related technologies. NASA has surveyed the technologies and 
capabilities available in the private sector through several recent 
Requests for Information. Through this process, NASA learned that 
several companies are actively pursuing development of advanced 
propulsion system concepts using their own resources.
    Commercial space companies are creating innovative new propulsion 
systems for smaller rockets that are inexpensive, reusable, and can fly 
as often as four times a day. Some recent examples of this are 
Armadillo Aerospace and Masten Space Systems, winners of the Lunar 
Lander Challenge, one of NASA's Centennial Challenge incentive prizes. 
These firms are also partnering with NASA to test their propulsion 
systems Armadillo Aerospace for example used available NASA 
infrastructure at White Sands to simulate flight conditions at high 
altitude. These emerging launch firms are also selling rocket engines 
on the commercial market (e.g., to the Rocket Racing League). Several 
of these innovative entrepreneurs are conducting flight tests with 
their new launch systems this year. NASA plans to purchase commercial 
suborbital launch services from these emerging suborbital launch 
providers under the Flight Demonstrations Program to conduct research 
and technology demonstrations.
    Another example is Ad Astra Rocket Company, which licensed NASA 
technology and has entered into a series of partnership agreements with 
NASA to develop the variable specific impulse magnetoplasma rocket 
(VASIMR). This innovative technology has the potential for much more 
efficiency than a conventional chemical rocket, and could double the 
payload mass for lunar delivery or cut the transit time to Mars in 
half. A demonstration of a prototype of the VASIMR on the ISS is under 
consideration.

    Question 7. How many companies beyond Orbital Sciences Corporation 
and Space Technologies Corporation do you envision NASA awarding future 
launch contracts?
    Answer. For commercial crew development agreements, NASA hopes to 
be able to fund multiple commercial companies. These agreements will be 
open to all U.S. firms, both traditional and non-traditional aerospace 
companies. For the services phase, NASA is hopeful that one or more 
commercial provider will be viable.

    Question 8. The X-Prize competitions have done an incredible job of 
driving innovation and leveraging creativity in the private sector and 
from unlikely sources. Could you describe NASA's efforts, through the 
Centennial Challenges program or otherwise, at creating similar 
competition-driven technological innovation efforts?
    Answer. NASA's Centennial Challenges program is dedicated to 
unleashing American ingenuity through prize competitions involving 
technical problems of interest to NASA and the Nation. The Agency 
believes student teams, private companies of all sizes and citizen-
inventors can provide creative solutions to these technical problems. 
Prize competitions are a way to foster technological competitiveness, 
new industries and innovation across America. These competitions are 
open to anyone, competitors work without government support and awards 
are made for the best solutions that are demonstrated in real-world 
conditions, not for concepts or designs.
    Since 2005, NASA has conducted 19 prize competitions in six 
technical areas and has awarded $4.5 million to 13 different teams. On 
July 13, 2010, NASA announced challenges in three new technical areas: 
low-cost access to space, advanced automation and robotics, and energy 
storage.

  <bullet> The Nano-Satellite Launch Challenge is to place a small 
        satellite into Earth orbit, twice in one week, with a prize of 
        $2 million. The goals of this challenge are to stimulate 
        innovations in low-cost launch technology and to encourage 
        creation of commercial nano-satellite delivery services.

  <bullet> The Night Rover Challenge is to demonstrate a solar-powered 
        exploration vehicle that can operate in darkness using its own 
        stored energy. The prize purse is $1.5 million. The objective 
        of this challenge is to stimulate innovations in energy storage 
        technologies of value in extreme space environments, such as 
        the surface of the moon, or for electric vehicles and renewable 
        energy systems here on Earth.

  <bullet> The Sample Return Robot Challenge is to demonstrate a robot 
        that can locate and retrieve geologic samples from a wide and 
        varied terrain without human control. This challenge has a 
        prize purse of $1.5 million and the objective is to encourage 
        innovations in automatic navigation and robotic manipulator 
        technologies.

    The following are some examples of how the Centennial Challenges 
have already spurred innovation, expanded interest in science and 
technology and promoted the growth of new businesses supporting 
government and private enterprises in aviation and space:

  <bullet> The Regolith Excavation Challenge required teams to build 
        mining robots that could function on the Moon. In the first 
        year of this challenge, 4 teams competed and none were 
        successful. The next year 16 teams came from across the country 
        but again none were successful. In the final year of the 
        challenge, 23 teams competed including many small robotics 
        companies and university teams and the performance was 
        remarkable. A team led by an undergraduate student from 
        Worcester Polytechnic Institute won the top prize. After 
        winning, those students immediately formed a robotics company. 
        Over 40 teams from Hawaii to Maine competed in that challenge 
        and each invested thousands of hours of work on a problem that 
        will be crucial to future development in space. NASA had the 
        opportunity to observe over 40 working prototypes of mining 
        robots and the total NASA investment over 3 years was only 
        $750,000.

  <bullet> The winner of the Astronaut Glove Challenge in 2007 was 
        Peter Homer, who at the time was an unemployed engineer in 
        Maine. He built his first space suit gloves on his family's 
        dining room table and involved his children in his work. After 
        winning the challenge, he formed a company to manufacture space 
        suit gloves and other high-tech gear. His company is now in a 
        partnership with others working on the next generation of 
        spacesuits.

  <bullet> The Lunar Lander Challenge required teams to build a 
        reusable rocket vehicle that could complete a round trip 
        flight, taking off and landing vertically with great accuracy. 
        A dozen teams took up this challenge and four of them actually 
        flew rocket vehicles. The top prizes went to Masten Space 
        Systems of Mojave, California and Armadillo Aerospace of Caddo 
        Mills, Texas. Both companies are pursuing commercial 
        spaceflight ventures and they were recognized by Aviation Week 
        magazine as ``Persons of the Year'' for 2009. NASA has 
        purchased one of the rocket vehicles that Armadillo Aerospace 
        built for the challenge and is using it in flight-testing of 
        new technologies for propulsion and automatic navigation 
        systems.

  <bullet> The Power Beaming Challenge involves the wireless 
        transmission of electrical power. Teams began using simple 
        searchlights as power sources in 2005 but have now progressed 
        to high-powered laser systems with sophisticated tracking 
        systems. In 2009, one team won the first-level prize by 
        transmitting power to a robot that climbed a vertical cable 
        over half-a-mile high. The challenge will be repeated this year 
        with the goal to complete the beam-powered vertical climb at 
        over 10 miles per hour. NASA is interested in the technology of 
        power beaming as a way to drive robots on the surface of the 
        Moon and other planets from remote power stations or for 
        advanced electric propulsion vehicles in space. The technology 
        could also enable remote power supplies for military operations 
        and disaster relief.

  <bullet> The Green Flight Challenge is to build and fly an aircraft 
        that can travel 200 miles in less than 2 hours using the energy 
        equivalent of less than one gallon of gasoline per occupant. 
        The challenge requires an aircraft with unprecedented 
        efficiency that at the same time must meet stringent 
        requirements for safety and noise reduction. The competition 
        will be held in July 2011 but there are already nine teams 
        working on aircraft entries. Electric, hybrid and bio-fueled 
        aircraft are expected. Innovations derived from this challenge 
        may help revive general aviation but find wider applications in 
        aircraft of all sizes, in other vehicles, and for energy 
        systems in general.

  <bullet> The Strong Tether Challenge is perhaps the most demanding 
        prize competition that NASA has offered. To win, a team must 
        demonstrate in a pull test that their material is 50 percent 
        stronger than the strongest commercially available material. 
        There have been no winners so far but carbon-nanotube tethers 
        have been entered in the past and advanced versions are 
        expected at the 2010 competition. The lightweight, super-strong 
        material than can win this challenge has the potential to 
        revolutionize almost every field of technology.

    Question 8a. What are your thoughts on additional ways to harness 
and leverage innovation outside of normal paths and in ways that will 
stimulate and involve the next generation of innovators?
    Answer. NASA is constantly seeking innovative ways to engage 
audiences in NASA's mission and inspire the next generation of 
scientists, engineers, innovators, and explorers.
    National competition for NASA partnership or funding of novel ideas 
to support STEM education are key strategies in ensuring NASA's 
education investments remain current with audience demand and 
expectations. Through the ``innovations'' competitive awards projects, 
NASA's Office of Education is offering grants or cooperative agreements 
to organizations with novel approaches to improving STEM education or 
offering educational experiences in higher education, elementary and 
secondary education, and global climate change education. Similarly, 
the Summer of Innovation is encouraging the development of local and 
state based STEM learning communities. These STEM support communities 
will help meet the needs of schools and districts by providing 
expertise, equipment, facilities, and STEM role models. The Summer of 
Innovation is also promoting student participation in STEM-based 
contests and competitions in which NASA scientists and engineers may 
provide mentoring.
    Periodically, NASA also offers a competitive Request for 
Entrepreneurial Opportunities (REOs). Organizations selected through an 
REO provide a unique service, or create new product or opportunity in 
partnership with NASA. NASA provides content, access to facilities, 
interactions with scientists and engineers, but no direct funding. An 
REO supporting Summer of Innovation is currently open.
    NASA often seeks public input on the design and distribution of new 
products and activities. Under the authority of Open.gov, NASA used 
IdeaScale to open a public call for ideas related to its education 
program. IdeaScale will be used to seek public input on features to be 
included in a new website promoting STEM careers for girls. NASA is 
considering working with the entertainment industry to improve messages 
about STEM careers. The Entertainment Industries Council has approached 
NASA to investigate novel ways of inspiring student interest and 
achievement in STEM by including NASA mission information in 
television, film, and online features. Currently in work is Picture 
This: Engineering, an opportunity for experts from the engineering 
fields to help the entertainment community develop positive messages 
about engineers and engineering.
    NASA has a long history of using technology in its education 
programs. The Agency keeps pace with technology advances by offering 
activities and education experiences through media currently favored by 
students, including pod and vodcasts, online simulations, online games, 
and experiences in virtual worlds. Online professional development 
opportunities provide educators with the flexibility in the content and 
scheduling of their training needs. Examples of technologies employed 
by NASA to make STEM fields more approachable and attractive to 
students and educators include:

  <bullet> Gaming: NASA's Massively Multiplayer Online STEM Learning 
        Game, Moonbase Alpha was released in July 2010. In this game, 
        students must complete learning objectives as they repair a 
        damaged solar array and life support system.

  <bullet> Podcasts and Vodcasts: These short programs offer 
        information about NASA's current missions, science discoveries 
        in the news, and technological breakthroughs. Updates on 
        student research and internship opportunities are downloadable 
        in podcast format.

  <bullet> Virtual Worlds: Students can visit NASA virtual site and 
        participate in launches and other activities in virtual worlds, 
        including Teen Second Life, Farmville, OpenSim, and MoonWorld. 
        NASA has a complete educators training facility in Second Life, 
        on the NASA eEducation Island.

  <bullet> Blogging/Social Media: NASA is making increasing use of 
        social media including Facebook, Twitter, and blogs. NASA 
        content and activities provided through these media are 
        tailored by age ranges. Users can personalize their experience 
        by choosing subjects of individual interest and relevance.

  <bullet> Professional Development: Through the Digital Learning 
        Network and the Electronic Professional Development Network 
        projects, educators can complete self-directed or training 
        using NASA content. Educators gain depth of understanding in 
        topical areas and learn how to use NASA materials to inspire 
        their students.

    Interactive user communities enable NASA's student and educator 
audiences to engage with NASA's scientists and engineers, share ideas 
and best practices, identify collaborative opportunities, network, 
identify near peers, and benefit from mentoring relationships. NASA has 
established user communities within several projects and audiences:

  <bullet> Higher Education: The NASA Student Ambassador Virtual 
        Community engages past participants in NASA's higher education 
        programs, encouraging mentoring, research collaboration, and 
        recruiting of future students.

  <bullet> K-12 Students: The Online Learning Community of the NASA 
        INSPIRE program fosters interaction between participants, NASA 
        subject matter experts, and peers.

  <bullet> K-12 Educators: Educators in the Endeavor Science Teacher 
        Certificate project participate in online coursework and use 
        their online community as a resource for positively impacting 
        STEM education initiatives. The newly revised NASA Explorer 
        Schools features a Virtual Campus community for educators to 
        share best practices and participate in content discussions 
        with NASA scientists and engineers. The NASA Educators Online 
        Community is a new effort to match the needs of educators, both 
        formal and informal, with the expertise of peers and NASA's 
        scientific and technical workforce. The NASATalk Professional 
        Collaborative.

  <bullet> Informal Education: NASA's Museum Alliance is an online 
        community-of-practice, in which members have direct access to 
        Agency-wide content from missions, materials, resources, 
        teleconferences, videoconferences, artifacts and news releases 
        in order to help them share NASA's exploration mission with the 
        American public.

    Participatory exploration in NASA's mission allows students are 
able to ask their own questions, utilize NASA's tools, collect 
information and discover answers on their own. NASA supports this type 
of activity in both K-12 and higher education programs.

  <bullet> Remote Control of NASA Instruments: The ISS EarthKAM enables 
        registered middle to remotely direct a camera on the ISS to 
        capture real times images of Earth. The Space Grant Internet 
        Telescope Network partnership of online astronomical 
        observatories allows higher education students and faculty to 
        gain experience using astronomical equipment locally and 
        remotely, which includes optical and/or radio telescopes, CCD 
        cameras, and spectrographs.

  <bullet> Science, Engineering, and Launches: NASA builds STEM skills 
        by providing hands on opportunities to build, launch, and 
        operate payloads and conduct research using NASA's unique 
        facilities. Graduate Student Experiences and Undergraduate 
        Student Research Projects address NASA technology needs. Launch 
        programs like Rock On! inspire first hand interest in NASA 
        engineering. In July 2010, NASA announced selection of research 
        to be conducted on the ISS. The research projects were 
        developed by elementary and secondary students and proposed 
        through the Kids in Micro-g! program.

  <bullet> Accessing On-Orbit Resources: Activities like education 
        downlinks and Amateur Radio on the International Space Station 
        ham radio conversations allow the public to interact with 
        astronauts as they conduct scientific and engineering 
        activities on the ISS and Shuttle. Each year, tens of thousands 
        of students engage with crews that work 200+ miles above the 
        Earth.

  <bullet> Proposed for FY 2011, the Office of the Chief Technologist 
        (OCT) plans to oversee a new, innovative graduate fellowship 
        program, which is an important part of the Space Technology 
        Research Grants program. This fellowship program focuses on 
        competitive selection of U.S. citizen graduate student research 
        that shows significant promise for future application to NASA 
        missions. This effort will train the next generation of 
        aerospace engineers and scientists by funding NASA-related 
        graduate student research performed on campus during the 
        academic year, as well as research performed at NASA Centers 
        during the summer months. Each student in this project will be 
        matched to a NASA researcher who will serve as the student's 
        NASA advisor. Through this experience, students will advance 
        their STEM education, gain NASA experience and learn the 
        research and development processes. NASA plans to highlight 
        this student research through a number of symposia, conference, 
        and mission-related events over the course of the student's 
        academic career. In addition, by bringing students to the NASA 
        Centers for considerable periods of time and matching the 
        student's research interests with those of a NASA advisor, we 
        intend to rebuild the pipeline of new STEM talent needed for 
        NASA's future missions. In FY 2011, $30M within the Space 
        Technology Program is planned for this new program.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                          Norman R. Augustine

    Question 1. Mr. Augustine, I'd like to ask you a couple of 
questions about the report issued by the Committee you recently led. In 
the report, your committee provides five primary paths forward, with 
two additional variants, for a total of seven ``alternatives'' with 
varying technology and destination mixes. These range from the 
Constellation program of record, which as I recall you found is not 
sustainable based primarily on funding, to an implementable program of 
record and several flexible path options.
    Answer. Our committee concluded that the existing Constellation 
program, and in particular Ares I, was not executable because of past 
funding mismatches and shortfalls in future budget plans. These have 
caused severe schedule slips, making the program objectives (e.g., 
support of ISS) highly tenuous. In addition, the efficacy of 
establishing a lunar return as the primary program objective, as 
compared with a sequence of ultimately more aggressive pursuits, is 
questioned.

    Question 1a. Do you stand by your committee's analysis of several 
of these as viable, implementable paths forward?
    Answer. The Committee on the Review of U.S. Human Spaceflight Plans 
stands by its assessment that several of the options offered in our 
report are viable, implementable and useful paths forward--under the 
condition that they are funded as indicated in the report.

    Question 1b. You were asked to provide at least two options that 
fit within the FY 2011 budget profile. As you know, the Administration 
provides a different budget profile in its FY 2011 Budget Request. Have 
you or other members of your committee revisited the analysis with the 
new budget profile available?
    Answer. Neither the Committee as a whole nor I as an individual 
have assessed the impact of budget profiles other than those contained 
in our report or derivatives we created at the time we performed our 
work.

    Question 1c. Has the Administration shared with you why it did not 
choose to faithfully follow any of the specific options this committee 
of experts prepared?
    Answer. Our committee has not discussed with the Administration the 
reasons for the latter's final choice of a human spaceflight program 
plan, nor have I.

    Question 1d. One of the key points in the report is that if a 
commercial crew transport path were pursued, there must be a strong 
independent mission assurance role for NASA. One of my concerns is the 
continuing dearth of detail from the Administration about how it will 
transition from a government-provided crew transport capability to a 
commercial one. What, if anything, have you seen to date that indicates 
the Administration's proposal would provide that strong independent 
mission assurance role, and what would that entail?
    Answer. The Committee's options that entail commercial launches of 
crews are premised on: (1) NASA maintaining responsibility for 
certifying mission assurance, including but not limited to go/no-go 
authority; and (2) competition for contractor selection being open to 
all qualified firms, both newly-established and long-established. The 
NASA Administrator has indicated that NASA is prepared to commit 
whatever resources are necessary to carry out this responsibility.

    Question 2. I want to make clear; I am hopeful for the development 
of our commercial capabilities. I have supported the current COTS 
program and am hopeful that as it moves forward we will obtain crew and 
cargo capabilities. But, I am also a skeptic about how far the sector 
has come and how fragile their business case for current activities may 
be.
    Answer. Clearly, the launch of crews to low-Earth orbit by 
commercial firms entails risk--as do all space activities. U.S. 
industry, under NASA oversight, has in fact designed and built 
virtually all the Nation's space hardware to date. Given continuing 
oversight and safety approval authority by NASA, it appears to the 
Committee that commercial firms can, under the conditions noted above, 
safely launch crews into low-Earth orbit. It should be noted that if 
NASA continues to operate the Earth-to-low-Earth orbit transportation 
system as in the past, little funding remains (under the existing 
budget plans) for an exploration program--particularly if the life of 
the ISS is extended as considered in a number of the options offered by 
the Committee.

    Question 2a. As a former head of one of the Nation's leading 
commercial companies in the aviation and aerospace arena, what would 
happen to the business case for companies like SpaceX that are 
currently working hard to develop launch vehicles and crew transport 
capabilities if the space station were lost before the companies had 
fully realized the ability to service it?
    Answer. In addressing this question I should emphasize in the 
spirit in which it was asked that I speak only for myself and not for 
the firm I once had the privilege of serving. It would appear to me 
that should the ISS not continue to at least 2020 the business case for 
any firm to pursue commercial launch opportunities would be extremely 
brittle. Similarly, if NASA were to maintain its own capability to 
launch such payloads, in my opinion that would cast a heavy shadow of 
uncertainty over the commercial business case. The hope of these firms 
is, of course, that a strong commercial market can be developed, but as 
with the early airlines, this is unlikely to be possible without some 
form of assured initial market on the part of the government.

    Question 2b. In your judgment, are there other obvious customers 
besides NASA for commercially developed crew transportation 
capabilities? If so, what is that based on? Has there been the type of 
commercial market analysis I call for in my bill (S. 3068)?
    Answer. Other possible customers include non-NASA government 
agencies, foreign governments, commercial firms and eventually space 
tourism. Initial emphasis will be on carrying cargo. Our committee was 
not privy to commercial launch firm's strategic plans other than in an 
overall context. This accounts for the emphasis in our report on 
participating firms making substantial financial investments of their 
own and thus ``backing'' their stated convictions.

    Question 3. In your opening statement, you indicated that your 
recent Human Space Flight Review Panel could find no exploration 
program ``worthy of a great nation'' that could be accomplished without 
an increase in NASA's total budget of roughly $3 billion per year--
adjusted incrementally for inflation. The increased funding level in 
the FY 2011 Budget Request is, as you know, just a little more than $1 
billion per year. How can it be argued, then, that the proposed plan 
for exploration in the FY 2011 request represents an exploration 
program that is, indeed, worthy of a great nation?
    Answer. The 2011 Budget Request provides funds that, if allocated 
to human spaceflight program in the manner indicated in our report, 
appear adequate to initiate a worthy space program. The issues, 
however, is the commitment of the Administration, Congress and the 
American People to further sustain the increased funding levels for two 
or more decades. Absent this, any new program will inevitably find 
itself in the untenable position in which the Constellation program 
finds itself today.

    Question 4. In response to a question from Senator Nelson, you 
discussed the issue of the gap between the retirement of the Space 
Shuttle and the availability of a successor capability. You responded 
that ``the gap was created 5 years ago,'' and that it is a ``fait 
accompli.'' I remind you that the 2008 NASA Authorization Act included 
language that preserved the option to continue Shuttle flights beyond 
2010, in order to enable the Administration elected in November of that 
year to continue to have that option available to it as part of any 
path forward in space exploration. Even though that provision expired 
at the end of April, 2009, it clearly was still possible to continue 
Shuttle flights beyond 2010, or flying it through 2015 would not, I 
assume, have been one of the options you presented to the 
Administration in your panel's final report. Is it not true, therefore, 
that ``the gap'' initiated by the retirement of the Space Shuttle at 
the end of the current manifest, as provided in the FY 2011 Budget 
Request, represents the impact of a decision made by the present 
Administration, and NOT, as you suggested, something ``created'' 5 
years ago?
    Answer. The plan to phase-out the Shuttle by September 30, 2010 
was, as you note, announced several years ago. As you note, the 
Congress directed that the option to continue to operate the Shuttle 
beyond that time be maintained (until April 30, 2009). Today, hardware 
for two more missions exists, with the possibility of adding a third 
(and arguably a fourth). The budget provided to our committee in mid-
2009 included no funds for continuing Shuttle operations beyond 
September 30, 2010. Nonetheless, our committee examined the possibility 
of continuing the Shuttle program and concluded that with some 
difficulty that could be done . . . however, we indicated that any such 
a continuation should be conditioned on successful completion of a new 
safety review. As we noted, this course would offer the advantage of 
reducing the Nation's dependence upon Russian launch vehicles, and 
would present the disadvantage of consuming funds intended for the 
continuation of a beyond-low-Earth orbit exploration program. No budget 
in the last 5 years was adequate both to continue Shuttle operations 
and execute NASA's Constellation program plan. (It should be noted that 
the budget plan our committee was provided also contained no funds to 
operate the ISS beyond 2015 or to de-orbit it.)

    Question 5. You stated during the hearing that one could, in fact, 
extend the Space Shuttle, but that ``the Shuttle consumes all the money 
you wanted to use to develop whatever is going to replace Constellation 
or some version of Constellation.'' That connection between Shuttle 
costs and anything else in human spaceflight development is 
consistently made by the Administration, commentators, and NASA 
officials. Yet, is it not true that it is simply a reflection of a 
belief that there is no potential for growth in NASA's future funding 
levels--which was essentially one of the constraints placed on your 
review by the Charter of your Human Space Flight Review Panel--and thus 
there exists, now and for all time, a ``zero-sum'' approach to funding 
U.S. space exploration? Why should we accept that as a ``given,'' 
particularly if our position as a world leader in space exploration and 
technology development could be placed at risk if we accept that 
funding posture?
    Answer. This question strikes at the very heart of the continuing 
NASA dilemma: insufficient funds are available for it to develop next-
generation systems while continuing to operate the existing generation 
of systems. This is presumably why a decision was made to discontinue 
funding the Shuttle program (and not provide for continuing the ISS 
beyond the next 5 years). The Committee strongly believes that 
additional funds are needed above those programmed in the years ahead 
if America is to have a meaningful human spaceflight program. As 
admitted advocates for the conduct of a human spaceflight program of 
which any nation could be proud, the Committee sought, and was granted 
by the White House, the latitude to offer options that went beyond the 
planned funding profile. Indeed, there is no fundamental principle that 
establishes the current level of funding of the human spaceflight 
program as the ``correct'' one--but there is a defensible principle 
that states that whatever that funding level may be, programmatic goals 
should not be incompatible with it.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Norman R. Augustine

    Question. Mr. Augustine Did your Commission look at more cost 
effective ways to alter the Constellation program in order to continue 
to leverage the investment already made in it? If there was a means to 
find dramatic cost savings in continuing forward with Constellation 
such that it was sustainable, would you find that of benefit to the 
Nation for our goals in space exploration?
    Answer. As a matter of principle, there is always inherent benefit 
to not changing course when an existing program is underway . . . 
assuming that program is workable. The committee thus began its 
assessment with a review of the Constellation program and found it 
lacking in at least two regards. The first was that it had been 
``underfunded'' throughout its history (and projected future) such that 
during its four-year life it had already slipped its schedule by 3-5 
years . . . and thus was incompatible with the needs of the ISS and in 
addition offered major delays in future exploration (e.g., little was 
accomplished to date on a heavy-lift vehicle, landers, etc.) It should 
be noted that this sort of problem is not unique to the Constellation 
program but applies to any alternative exploration program funded at 
the then-projected profile. The second shortcoming, in our view, was 
the focus on returning to the Moon as an objective--with no significant 
exploration milestones in approximately the next two decades.
    Regarding the possibility of finding ``dramatic'' cost savings in 
the Constellation program, our estimate of its cost closely 
approximated that stated by NASA at the time the program was initially 
approved. Hence, we find little opportunity for significant savings 
without substantial increases in risk.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
